APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2015-5020, 2015-5021, 2017-1214
————
JAY ANTHONY DOBYNS,
Plaintiff-Cross-Appellant,
v.
UNITED STATES,
Defendant-Appellant.
————
Appeals from the United States Court of
Federal Claims in No. 1:08-cv-00700-FMA,
Senior Judge Francis M. Allegra,
Judge Patricia E. Campbell-Smith.
————
Decided: February 6, 2019
————
JAMES BERNARD REED, Baird Williams & Greer LLP,
Phoenix, AZ, argued for plaintiff-cross-appellant. Also
represented by ANNELISE MARI DOMINGUEZ.
MARTIN F. HOCKEY, JR., Commercial Litigation
Branch, Civil Division, United States Department of
Justice, Washington, DC, argued for defendantappellant. Also represented by ROBERT EDWARD
KIRSCHMAN, JR., JOSEPH H. HUNT.
————

2a
Before LOURIE, BRYSON, and DYK, Circuit Judges.
DYK, Circuit Judge.
This is an action for breach of a 2007 settlement
agreement (“2007 agreement”) between the government and Jay Anthony Dobyns. The Court of Federal
Claims (“Claims Court”) held that (1) the government
breached the implied duty of good faith and fair dealing in the 2007 agreement, (2) Dobyns was entitled
to emotional distress damages from the breach, and
(3) Dobyns was not entitled to relief under Rule 60 of
the Rules of the Court of Federal Claims for alleged
government misconduct. We reverse the Claims Court’s
judgment as to the breach of the implied duty and
affirm its Rule 60 decision.
BACKGROUND
The events leading up to the 2007 agreement began
in 2003, when Dobyns, then an agent at the Bureau of
Alcohol, Tobacco, Firearms and Explosives (“ATF”),
was engaged in undercover work for the investigation
known as Operation Black Biscuit. During this investigation, Dobyns successfully infiltrated the Hells
Angels Motorcycle Club and assisted in the indictment
of 36 people for racketeering and murder charges. This
led to numerous accolades for Dobyns’ work, but the
disclosure of his identity during the criminal prosecutions also led to threats of death and violence against
Dobyns and his family.
ATF’s alleged failure to appropriately respond to
these security threats from 2004 to 2007, and to provide adequate support for concealing Dobyns’ and his
family’s identity during an emergency relocation, led
Dobyns to seek compensation from the government.
In 2007, Dobyns and ATF settled their dispute. ATF
agreed to pay Dobyns a lump-sum and to “comply with

3a
all laws regarding or otherwise affecting the Employee’s
employment by the Agency.” J.A. 332–33. The parties
also agreed that the 2007 agreement was integrated,
“constitut[ing] the entire agreement by and between
the parties.” J.A. 333.
Neither the Claims Court nor Dobyns identifies
any explicit threats that were made after the 2007
agreement. However, ATF, allegedly in violation of the
agreement, withdrew Dobyns’ and his family’s fictitious
identities, completing that process in May 2008. ATF
determined that these fictitious identities were not
required despite a 2007 threat assessment indicating
that there were still concerns about threats against
Dobyns and his family. In 2013, ATF’s Internal Affairs
Division (“IAD”) released a report concluding that there
had been no valid reason for the withdrawal of these
fictitious identifies and that the safety risks to Dobyns
and his family had been ignored.
Subsequently, in August 2008, an act of arson substantially damaged Dobyns’ home, but his family was
able to escape without injury. Following the arson,
ATF, allegedly in violation of the agreement, delayed
its initial response, persisted in pursuing Dobyns as a
primary suspect, even after evidence established his
innocence, and mishandled the manner in which information was disseminated to ATF supervisors. In 2012
IAD released a report concluding that the response to
the arson at Dobyns’ residence had been mismanaged,
and ATF’s Professional Review Board proposed that
two of the employees responsible be removed from
federal service.
The agency actions concerning the withdrawal of
the identifications and the arson investigation were
alleged to breach the 2007 agreement because they
were in violation of internal agency “orders” and

4a
contrary to the 2007 agreement’s implied duty of good
faith and fair dealing.
Dobyns filed a complaint in the Claims Court on
October 2008, alleging breach of the 2007 agreement.
While the suit was pending in 2009 Dobyns’ book, No
Angel: My Harrowing Undercover Journey to the Inner
Circle of the Hells Angels, was released to the public,
and Dobyns thereafter made frequent media appearances to promote the book.
After a two week trial in 2013, the Claims Court
held that there was no breach of any express provision
of the 2007 agreement, but that there was a breach of
the implied duty of good faith and fair dealing. This
was based on the government’s conduct discussed
above, which the Claims Court determined violated an
implied duty in the 2007 agreement to “ensure the
safety of Agent Dobyns and his family” and, “secondarily, that ATF employees would not discriminate
against Agent Dobyns.” Dobyns v. United States, 118
Fed. Cl. 289, 319 (2014). The Claims Court went on to
hold that, although Dobyns did not show economic
damages arising from this breach, Dobyns was entitled
to emotional distress damages. The Claims Court
awarded damages in the amount of $173,000.
After the Claims Court had entered final judgment,
and the government had filed its notice of appeal, the
Claims Court sua sponte issued an order voiding its
judgment based on concerns of potential government
misconduct. The government moved to vacate the
order because jurisdiction had already transferred to
this court. The Claims Court vacated its order. Dobyns
then “request[ed] that the [Claims] Court make an
‘indicative ruling’ pursuant to Rule 62.1 of its intention to alter, amend or void the judgment if vested with
jurisdiction.” J.A. 754. In his motion, Dobyns sought to

5a
“set aside the judgment entered August 28, 2014,
based on [his] ability to prove that Department of
Justice (DOJ) attorneys engaged in unethical conduct
intended to prejudice plaintiff’s rights.” J.A. 754.
Dobyns contended that “further trial court proceedings c[ould] determine if DOJ attorney misconduct
prejudiced the [Claims] Court’s factual findings or
award, at which plaintiff can produce evidence of
DOJ’s misconduct.” J.A. 758. Dobyns alleged incidents
of misconduct known before judgment, including counsel’s
alleged attempts to improperly influence the agency’s
actions and witness testimony, and incidents that became
known after judgment, involving alleged threats made
against one of the witnesses by another witness and
defense counsel. The Claims Court issued an indicative ruling noting that it would investigate whether
relief under Rule 60 would be appropriate based on
the alleged misconduct. Pursuant to Rule 12.1 of the
Federal Rules of Appellate Procedure, we remanded
the case to the Claims Court to determine whether
such relief was warranted but otherwise retained
jurisdiction.
The Claims Court appointed a special master to
“make findings assisting the assigned judge in determining whether” Rule 60 relief was appropriate. J.A.
261. After discovery and briefing, but without depositions, the special master determined that none of the
alleged acts of misconduct warranted relief under Rule
60 because, even if they occurred, there was no showing that these acts could have affected Dobyns’ case.
The Claims Court adopted the special master’s report
and recommendation, going through each incident of
alleged misconduct and finding that there was no
showing that they affected Dobyns’ ability to pursue
his case and no showing that they affected the Claims
Courts’ judgment.

6a
The government appealed the Claims Court’s
judgment as to the breach of the implied duty of good
faith and fair dealing, and Dobyns cross-appealed the
denial of Rule 60 relief. We have jurisdiction pursuant
to 28 U.S.C. § 1295(a)(3).
DISCUSSION
I. Rule 60 Proceedings1
In his appeal from the denial of Rule 60 relief,
Dobyns alleges incidents of misconduct that were
known to the court before judgment was entered,
including defense counsel’s alleged attempted improper
interference with agency actions and witness testimony, and also alleges incidents that came to light
after judgement was entered, involving alleged witness
intimidation by another witness and defense counsel.
A Rule 60 movant must provide a sufficient “reason
to believe that vacating the judgment will not be an
empty exercise or a futile gesture.” Murray v. District
of Columbia, 52 F.3d 353, 355 (D.C. Cir. 1995) (collecting cases). The fundamental problem with Dobyns’
Rule 60 claim is that he does not actually seek to
reopen the merits of the case via Rule 60 proceedings.
Although Dobyns seems to have originally requested
re-opening the merits in his motion for an indicative
ruling to secure a larger damages award, his present
position is that he does not want the judgment on the
merits re-opened. “What we don’t want the court to do,
and what we ask that the court not do, is open up the
entire proceeding and send it back down to the trial
court . . . .” Oral Arg. at 42:17–42:26; see Cross-Appeal
1

The same standard that applies to Rule 60 of the Federal
Rules of Civil Procedure applies to Rule 60 of the Rules of the
Court of Federal Claims. See Info. Sys. & Networks Corp. v.
United States, 994 F.2d 792, 794–97 & n.3 (Fed. Cir. 1993).

7a
Open. Br. 99 (requesting remand for the Rule 60
proceedings “for the exclusive and limited purpose of
allowing the completion of discovery, including depositions and an evidentiary hearing, regarding sanctions
against the Justice Department”). Dobyns seeks to
reopen the judgment only to seek sanctions and attorney’s fees. But Rule 60(b) cannot be used to seek
sanctions. “Rule 60(b) is available only to set aside a
prior order or judgment; a court may not use Rule 60
to grant affirmative relief in addition to the relief
contained in the prior order or judgment.” James Wm.
Moore, Moore’s Federal Practice—Civil § 60.25 (3d ed.
2017); see Delay v. Gordon, 475 F.3d 1039, 1045–46
(9th Cir. 2007); Adduono v. World Hockey Ass’n, 824
F.2d 617, 620 (8th Cir. 1987); United States v.
$119,980, 680 F.2d 106, 107 (11th Cir. 1982); Rule
60(b) (“On motion and just terms, the court may
relieve a party . . . from a final judgment, order, or
proceeding . . . .”).
At oral argument, counsel for Dobyns also admitted
“[t]here was no request for sanctions made.” Oral Arg.
at 30:00–30:03; see id. at 29:39–29:46 (“Q. Did you
make a motion for sanctions in the . . . Court of Federal
Claims? A. Your Honor, we had not yet . . . .”).2 Nor
does Dobyns argue it was error not to award sanctions.
To the extent that Dobyns argues Rule 60 was a
necessary predicate to receiving sanctions, that argument is incorrect.
Courts typically retain jurisdiction to rule on collateral issues, such as sanctions or attorney’s fees, even
after they lose jurisdiction over the merits decision.
2

Instead, Dobyns’ sole theory with respect to sanctions was
that they could not be imposed unless the judgment was first set
aside under Rule 60. J.A. 289–91.

8a
See Willy v. Coastal Corp., 503 U.S. 131, 136–37
(1992); Cooter & Gell v. Hartmarx Corp., 496 U.S. 384,
395–96 (1990) (“[W]hether the attorney has abused
the judicial process, and, if so, what sanction would be
appropriate” is a collateral issue); In re HewlettPackard Co., 50 F.3d 20 (table), 1995 WL 101334, at
*2 (Fed. Cir. Feb. 28, 1995) (unpublished).
Dobyns offers no reason why granting his Rule 60
motion would not be an empty exercise, and thus relief
is not warranted here.
II. Breach of Implied Duty of Good Faith and Fair
Dealing
The Claims Court’s interpretation of a contract is a
question of law reviewed de novo, and factual determinations are reviewed for clear error. Scott Timber Co.
v. United States, 692 F.3d 1365, 1371 (Fed. Cir. 2012).
Every contract, including one with the federal
government, imposes upon each party an implied duty
of good faith and fair dealing in its performance and
enforcement. Metcalf Constr. Co. v. United States, 742
F.3d 984, 990 (Fed. Cir. 2014) (quoting Restatement
(Second) of Contracts § 205 (1981)) (“Metcalf”). A party
breaches the contract when it fails to abide by this
implied duty, which includes “the duty not to interfere
with the other party’s performance and not to act so as
to destroy the reasonable expectations of the other
party regarding the fruits of the contract.” Centex
Corp. v. United States, 395 F.3d 1283, 1304 (Fed. Cir.
2005). But “[t]he implied duty of good faith and fair
dealing cannot expand a party’s contractual duties
beyond those in the express contract or create duties
inconsistent with the contract’s provisions.” Precision
Pine & Timber, Inc. v. United States, 596 F.3d 817, 831
(Fed. Cir. 2010) (“Precision Pine”). Instead, “any

9a
breach of that duty has to be connected, though it is
not limited, to the bargain struck in the contract.”
Metcalf, 742 F.3d at 994; see id. at 991 (“The implied
duty of good faith and fair dealing is limited by the
original bargain; it prevents a party’s acts or omissions
that, though not proscribed by the contract expressly,
are inconsistent with the contract’s purpose and
deprive the other party of the contemplated value.”).
To be sure, “a breach of the implied duty of good
faith and fair dealing does not require a violation of an
express provision in the contract.” Id. (emphasis in
original). But a specific promise must be undermined
for the implied duty to be violated. For example,
comment 1 to § 1-304 of the Uniform Commercial Code
(U.C.C.) notes that the “section [on good faith] means
that a failure to perform or enforce, in good faith, a
specific duty or obligation under the contract, constitutes a breach.” U.C.C. § 1-304 cmt. 1 (emphasis added).
“[T]he UCC ‘provides useful guidance in applying
general contract principles.’” Pac. Gas & Elec. Co. v.
United States, 838 F.3d 1341, 1351 (Fed. Cir. 2016)
(quoting Hughes Commc’ns Galaxy, Inc. v. United
States, 271 F.3d 1060, 1066 (Fed. Cir. 2001)).
We have thus recognized that the duty must be
“keyed to the obligations and opportunities established in the contract,” so as to not fundamentally alter
the parties’ intended allocation of burdens and benefits
associated with the contract. Lakeshore Eng’g Servs.,
Inc. v. United States, 748 F.3d 1341, 1349 (Fed. Cir.
2014); see also 2 E. Allan Farnsworth, Farnsworth on
Contracts § 7.17 at 358 (3d ed. 2004) (“[T]he duty of
good faith must be connected to a duty clearly imposed
by the contract itself.”); Bradley v. Chiron Corp., 136
F.3d 1317, 1326 (Fed. Cir. 1998) (noting that the
“implied covenants of good faith and fair dealing are

10a
limited to assuring compliance with the express terms
of the contract and can not be extended to create
obligations not contemplated in the contract.” (citing
Racine & Laramie, Ltd. v. Cal. Dep’t of Parks &
Recreation, 11 Cal. App. 4th 1026 (Cal. Ct. App.
1992))).
For example, in Centex, we held that the later
imposition of tax liability on payments the government made pursuant to an agreement “interfere[d]
with the plaintiffs’ enjoyment of the benefits contemplated by the contract” (i.e., it undermined the reasonably
anticipated value of the contracted-for government
payments) and therefore constituted a breach of the
implied duty. 395 F.3d at 1287–88, 1306. On the other
hand, in Precision Pine, we held that interference with
the plaintiff’s ability to harvest timber did not breach
the implied duty in part because the government
“did not reappropriate any ‘benefit’ guaranteed by the
contracts, since the contracts contained no guarantee”
of uninterrupted performance. 596 F.3d at 828–29.
Here, the Claims Court concluded that “the essence
of the Settlement Agreement was to ensure the safety
of Agent Dobyns and his family—and, secondarily,
that ATF employees would not discriminate against
Agent Dobyns.” Dobyns, 118 Fed. Cl. at 319. This
was apparently based on parol evidence: testimony by
Ronald Carter and Dobyns, which indicated that the
“protection of Agent Dobyns is included with the expectation of Paragraph 10 of the settlement agreement.”
See, e.g., J.A. 10617. The Claims Court further
concluded that these duties were violated by the
government when it (1) “put[ ] Agent Dobyns at risk”
by withdrawing his, and his family’s, fictitious identities, (2) failed to adequately and appropriately investigate
the arson at Dobyns’ residence, and (3) failed to

11a
provide a systematic overhaul of ATF’s procedures and
processes to avoid recurrence of the ATF’s pre-2007
security lapses relating to Dobyns. Dobyns, 118 Fed.
Cl. at 319–21.
The flaw with the Claims Court’s analysis is that the
supposed duties (ensuring Dobyns’ security and not
discriminating against him) are not duties imposed by
the language in the contract. Parol evidence by Carter
and Dobyns cannot add additional provisions to the
contract, particularly in light of the integration clause.
Parol evidence cannot be used to “add to or otherwise
modify the terms of a written agreement in instances
where the written agreement has been adopted by the
parties as an expression of their final understanding.”
TEG-Paradigm Envtl., Inc. v. United States, 465
F.3d 1329, 1338–39 (Fed. Cir. 2006) (quoting Barron
Bancshares, Inc. v. United States, 366 F.3d 1360, 1375
(Fed. Cir. 2004)); see Barron Bancshares, 366 F.3d at
1375 (“The rule thus renders inadmissible evidence
introduced to modify, supplement, or interpret the
terms of an integrated agreement.”).3 Without grounding the supposed duties in the specific provisions of the
contract, the Claims Court imposed a vague duty of
“ensur[ing] the safety of Agent Dobyns and his family”
on the government as well as non-discrimination.
Dobyns, 118 Fed. Cl. at 319. These obligations went
well beyond those contemplated in the express contract and altered the contractual allocation of the burdens and benefits. See Precision Pine, 596 F.3d at 831.
3

Although parol evidence may be useful to determine party
expectations relating to particular contract provisions, it cannot
be the source of an additional duty. See, e.g., Centex Corp., 395
F.3d at 1288 (looking to the government’s representations to
understand plaintiff’s reasonable expectations relating to the
anticipated benefit of contracted government payments).

12a
It is true that the alleged grievances that led to the
2007 agreement were based on ATF’s security failures
relating to Dobyns’ safety. But here, as we discuss
below, there were no future promises regarding how
the government would ensure the safety of Dobyns and
his family, except the government agreed that “[s]hould
any threat assessment indicate that the threat to the
Employee and his family has increased from the
assessment completed in June 2007, the Agency agrees
to fully review the findings with the Employee and get
input from the Employee if transfer is necessitated.”
J.A. 330. There is no claim here that this provision was
undermined by the government’s actions.
Inferring an implied duty based on the supposed
purpose of the 2007 agreement, without a tether to the
contract terms, would fundamentally alter the balance
of risks and benefits associated with the 2007 agreement and cannot be the basis of a claim for breach of
the implied duty of good faith and fair dealing. Because
the Claims Court’s judgment was not based on the
government undermining any specific promise of the
2007 agreement, we conclude that the judgment for
breach of the covenant of good faith and fair dealing
cannot be sustained.
III. Breach of Express Contract Terms
Dobyns also relies on an alternative theory that the
government actions also constituted breach of express
contract terms that obligated the government to comply
with agency “orders.” The agency orders at issue are
not money mandating. Instead, the remedy for violations of these orders is generally limited to internal
remedies (e.g., complaint to the Office of Inspector
General). Dobyns claims he is uniquely able to pursue
a monetary remedy for violations of these orders
because of the 2007 agreement. But judgment cannot

13a
be sustained on the alternative ground that there was
an express breach of paragraph 10 of the 2007
agreement.
Paragraph 10 states:
10. This Agreement does not constitute an
admission by the Agency or Employee of any
violation of law, rule or regulation or any
wrongful acts or omissions. The Agency agrees
that it will comply with all laws regarding or
otherwise affecting the Employee’s employment by the Agency.
J.A. 332–33 (emphasis added). Dobyns argues that
the term “all laws” includes particular internal ATF
orders, covering a variety of topics including procedures for operational security as well as investigative
protocols. See Dobyns, 118 Fed. Cl. at 314–15 & n.41.
He argues that the purpose of the 2007 agreement and
the ATF orders were violated by the same government
conduct that was the basis of the Claims Court’s
holding as to the breach of the implied duty.
The Claims Court concluded that there was no
breach of paragraph 10. It found that the earlier
sentence in paragraph 10 demonstrates that “all laws”
do not include the agency’s rules, regulations, and
orders. In paragraph 10, the 2007 agreement distinguishes between a “law, rule or regulation.” Additionally,
in paragraph 6, the 2007 agreement refers to “Agency
practice and procedure.” These distinct uses of the
terms law, rule, regulation, agency practice and procedure in the 2007 agreement indicate that the parties
assigned different meanings to these terms. The Claims
Court also determined that Dobyns’ claim that paragraph 10 included more than a dozen ATF orders was
belied by the requirement that “language used in a

14a
contract to incorporate extrinsic material by reference
must explicitly, or at least precisely, identify the
written material being incorporated and must clearly
communicate that the purpose of the reference is to
incorporate the referenced material into the contract.”
Northrop Grumman Info. Tech., Inc. v. United States,
535 F.3d 1339, 1345 (Fed. Cir. 2008). We agree with
the Claims Court’s conclusion that the express language of the 2007 agreement does not admit of Dobyns’
construction of “all laws.” Although it is possible that
in certain circumstances “all laws” could include agency
regulations and guidelines, here the contract is clear
on its face that it does not include ATF regulations and
orders.
Dobyns’ response is twofold. First, he relies on witness testimony that allegedly equated ATF orders
with “all laws.” One of the ATF negotiators of the 2007
agreement (Carter) gave contradictory testimony in
this respect. For example, Carter responded to the
question “if there was an ATF order that governed how
ATF investigated threats against its employees, would
that be included within the Agreement,” with “Yeah,
I would say so.” J.A. 10486. But Carter also testified
that he did not “see laws and ATF orders being the
same thing. . . . ATF orders aren’t laws.” J.A. 10468.
Dobyns also relies on the understanding of other
agency employees who equated ATF orders with laws.
See, e.g., J.A. 15083 (“Q. Okay. But are ATF orders
essentially for operating purposes of ATF the laws of
the Agency? A. Yes.”); J.A. 11362 (“Q. And in your
experience at ATF, are ATF orders the laws of the
agency? A. Yes, sir.”); J.A. 12732–73 (“Q. What do ATF
orders mean to you as you understand them in the
carrying out of your daily duties? A. . . . [T]hey are the
law of the land at ATF.”).

15a
In light of the contract’s language, and in light of the
authority discussed above, Dobyns cannot rely on
parol evidence to vary the terms of the agreement.
Second, Dobyns relies on the government’s response
to Requests for Admission as admitting that the contract incorporated additional regulations. For example,
Request for Admission No. 12 and the government’s
response stated:
Request No. 12. Admit that, with respect to
Paragraph Ten of the [2007] Settlement Agreement, ATF had an obligation to protect the
physical safety of Plaintiff during his period
of his employment with ATF.
Response. Admits to the extent that the
obligation identified in the request, pursuant
to the language of paragraph 10, is established by statute, regulation, or ATF Order.
Paragraph 10 of the Settlement Agreement
provides, in relevant part, that “[t]he Agency
agrees that it will comply with all laws regarding or otherwise affecting the Employee’s
employment with the Agency.” ATF Order
3040.1A and ATF Order 3040.2A, in turn,
provide the agency’s guidelines and procedures
for the reporting, investigating, evaluating,
and handling of threats that could potentially
impact the physical safety of Mr. Dobyns
during his employment with ATF. Except as
expressly admitted, the request is denied.
J.A. 1992–93.4

4

Dobyns also relies on the government’s response to Request
No. 5:

16a
Although the government’s responses are badly
drafted, at the end of the day they do not support
Dobyns’ argument. The admissions do not say that the
government agreed ATF orders were to be included
under the “all laws” language. Instead, they merely
note that “to the extent” paragraph 10 were
interpreted to cover more than statutory laws, the
specific orders cited in the response provided the
“agency’s guidelines and procedures for reporting,
investigating, evaluating, and handling of threats that
could potentially impact the physical safety of Mr.
Dobyns during his employment with ATF.”
CONCLUSION
We reverse the Claims Court’s judgment on liability
and affirm the Claims Court’s rejection of Dobyns’
motion for relief under Rule 60.
AFFIRMED-IN-PART AND REVERSED-IN-PART
COSTS
No costs.
Request No. 5. Admit that ATF has an obligation to
protect the physical safety of ATF agents during their
period of employment with ATF from external threats
of violence and intimidation.
Response. Admits to the extent that the obligation
referred to in the request arises from statute, regulation, or ATF Order. ATF Order 3040.1A and ATF
Order 3040.2A provide the agency’s guidelines and
procedures for reporting, investigating, evaluating,
and handling external threats of violence and intimidation made against agents or the family members of
agents. Except as expressly admitted, the request is
denied.
J.A. 1989–90. Although the government admitted the obligation
to comply with ATF orders, this response does not refer to
obligations arising from the 2007 agreement.

17a
APPENDIX B
IN THE UNITED STATES COURT OF
FEDERAL CLAIMS
————
No. 08-700C
————
JAY ANTHONY DOBYNS,
Plaintiff,

v.
THE UNITED STATES,

Defendant.
————
Trial; Settlement agreement; No breach of contract;
Contract interpretation; Incorporation of ATF Orders;
Covenant of good faith and fair dealing; Parameters;
Metcalf – covenant may be breached even if there is
no breach of the underlying contract; Withdrawal of
backstopping; Inadequate responses to threats;
Damages; Recovery for emotional distress, as well as
pain and suffering; Restatement (Second) § 353;
Counterclaim; No breach of employment contract in
publishing and promoting book; Snepp; Waiver.
————
(Filed Under Seal: August 25, 2014)
Reissued: September 16, 20141
1

The court issued this opinion under seal on August 25, 2014,
and invited the parties to submit proposed redactions by September
15, 2014. The opinion published today incorporates some of
the parties’ proposed redactions; other proposed redactions are
rejected as unwarranted. See United States v. Bartko, 728 F.3d
327, 342-43, 347 (4th Cir. 2013); see generally, Baystate Techs,

18a
————
OPINION
James Bernard Reed, Baird, Williams & Greer,
Phoenix, AZ, for plaintiff.
David Allen Harrington and Kent Christopher
Kiffner, Civil Division, United Sta Department of
Justice, Washington, D.C., with whom was Assistant
Attorney General Stu Delery; Jeanne E. Davidson,
Director; Donald E. Kinner, Assistant Director, Civil
Divisi defendant.
ALLEGRA, Judge:
“Who steals my purse steals trash;
‘tis something, nothing;
‘Twas mine, ‘tis his, and has been slave to thousands;
But he that filches from me my good name,
Robs me of that which not enriches him,
And makes me poor indeed.”2
This contract case is before the court following an
extensive trial in Tucson, Arizona, and Washington,
D.C. Jay Dobyns, an agent of the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF), alleges that
ATF officials breached an agreement that he had with
the agency settling a prior dispute. He contends that
ATF’s conduct also breached the covenant of good
faith and fair dealing associated with that agreement.
Both breaches, Agent Dobyns asserts, give rise to
the imposition of damages. Defendant, meanwhile,
counterclaims that Agent Dobyns breached his employInc. v. Bowers, 283 Fed. Appx. 808, 100 (Fed. Cir. 2006), Allied
Tech. Corp. v. United States, 94 Fed. Cl. 16, 23 (2010). The
redacted material is represented by brackets [ ]. The opinion also
corrects some minor nonsubstantive or typographical errors.
2

William Shakespeare, Othello, Act III.

19a
ment contract with ATF, as well as federal regulations
and ATF orders, by publishing a book based upon his
experiences as an agent, and by contracting his story
and consulting services to create a motion picture.
Based upon the extensive record, the court finds
that there was no express breach of the settlement
agreement here, but that defendant’s conduct associated
with that agreement effectuated a breach of the
covenant of good faith and fair dealing. Based upon the
extensive record, the court concludes that defendant’s
conduct, indeed, constituted a gross breach of that
covenant. Damages for mental distress, as well as
pain and suffering, will be awarded because of this
breach. As to the counterclaim, the court concludes
that plaintiff did not breach his employment agreement with ATF by writing and publishing the book in
question, because plaintiff’s conduct was countenanced
by the settlement agreement and by ATF officials. The
court thus rejects defendant’s counterclaim.

20a
TABLE OF CONTENTS
I. FINDINGS OF FACT ....................................
A. ATF and Operation Black Biscuit ............
(1) ATF Organization ................................
(2) Agent Dobyns and Operation Black
Biscuit ..................................................
B. Threats Made Against Agent Dobyns
between 2003-2007 ...................................
C. The Prelude to the 2007 Settlement
Agreement .................................................
D. The 2007 Settlement Agreement .............
E. Withdrawal of Credentials .......................
F. The Arson at Agent Dobyns’ Home ..........
G. The OIG and IAD Reports ........................
(1) 2008 OIG Report..................................
(2) 2012 IAD Report on House Fire..........
(3) 2013 IAD Report on Loss of
Backstopping ......................................
H. The Book ...................................................
I. Credibility Findings ..................................
J. Procedural History....................................
II. DISCUSSION .................................................
A. Breach of Contract ....................................
B. Covenant of Good Faith and Fair
Dealing ......................................................
(1) Legal Framework ................................
(2) Application of Covenant ......................
C. Damages ....................................................
D. Defendant’s Counterclaim ........................
III. CONCLUSION .............................................

03
03
03
04
05
07
08
10
11
21
22
22
24
25
27
29
29
30
34
34
37
40
47
52

21a
I. FINDINGS OF FACT
Based on the record, including the parties’ stipulations, the court finds as follows:
A. ATF and Operation Black Biscuit
(1) ATF Organization
ATF is a federal law enforcement organization
within the Department of Justice (DOJ). Headquartered
in Washington, D.C., ATF investigates a variety of
federal offenses, including the unlawful use, manufacture and possession of firearms and explosives; acts of
arson and bombings; and illegal trafficking of alcohol
and tobacco products. ATF is headed by a Director and
a Deputy Director. ATF headquarters has eight major
offices, including the Office of Public and Governmental Affairs (OPGA), the Office of Field Operations,
the Office of Professional Responsibility and Security
Operations (OPRSO), and the Office of Strategic Intelligence and Information.

The Internal Affairs Division (IAD) of OPRSO investigates allegations of administrative and criminal
misconduct, and makes reports to the Office of the
Inspector General (OIG) of the DOJ on significant
investigations. Among ATF’s other components relevant
to this case is the National Integrated Ballistic Information Network (NIBIN), which provides federal, state

22a
and local law enforcement with various assistance,
including access to an automated ballistic imaging
system.
By way of further background, ATF’s Office of Field
Operations is organized by regions and further subdivided into Field Divisions. Each region is headed by a
Deputy Assistant Director (DAD) for Field Operations.
The DADs for Field Operations each oversee the Field
Divisions in their geographical areas, each of which, in
turn, are managed by a Special Agent in Charge
(SAC). The Phoenix Field Division is responsible for
various ATF activities in Arizona and New Mexico.
This Field Division is run by a SAC and two Assistant
Special Agents in Charge (ASACs). There are also two
Field Offices in the Tucson area, each headed by a
Special Agent, known as a Resident Agent in Charge
(RAC).
(2) Agent Dobyns and Operation Black
Biscuit
Agent Dobyns became an ATF agent in 1987. From
early 2001 to July 2003, he participated in an investigation known as Operation Black Biscuit, which
targeted members of the Hells Angels Motorcycle Club
(Hells Angels). For nearly two years, Agent Dobyns
posed undercover as a member of the Tijuana-based
Solo Angeles, as part of a task force that included other
ATF agents. As part of this operation, Agent Dobyns
and others staged the fake murder of a member of the
rival Mongols Motorcycle Club. The staged murder
impressed the Hells Angels leadership, causing the
club to vote Agent Dobyns as a full “patched” member.
During this time, Agent Dobyns was stationed in
one of ATF’s Tucson Field Offices and lived with his
family in the Tucson area. In 2003, Operation Black

23a
Biscuit and parallel raids ended with the indictment
of 36 people (16 as a direct result of the undercover
operation), including 16 Hells Angels. The individuals
were indicted on racketeering and murder charges.
However, a number of setbacks involving the prosecution of these individuals eventually led to some of the
defendants receiving reduced sentences and others
having their charges dismissed. The disclosure of
Agent Dobyns’ identity in court led to threats of death
and violence directed at him and his family.
As a result of his work on Operation Black Biscuit,
as well as on other investigations, Agent Dobyns
received twelve ATF Special Act Awards, two ATF
Gold Stars for critical injuries received during investigative operations, an ATF Distinguished Service
Medal for outstanding investigative accomplishment,
and the United States Attorney’s Medal of Valor award.
B. Threats Made Against Agent Dobyns between
2003-2007
Agent Dobyns’ undercover activities placed him and
his family at risk. ATF conducts various evaluations
when it identifies a credible threat to an ATF agent.
ATF Order 3040.2 specified the procedures used to
report and manage these threats. Under these procedures, ATF personnel conduct “Risk Assessments”
that ascertain the impact of an undesirable event,
analyze the identified threat (commonly referred to as
a “threat assessment”), and identify vulnerabilities.
They then evaluate the overall risk to make recommendations to minimize the threat.3 Once a threat has
3

Previously, threats against agents were covered by ATF
Order 3210.7C, Investigative Priorities, Procedures, and Techniques,
dated February 25, 1999, and ATF Order 3250.1A, Informant Use
and Undercover Operations, dated October 26, 2001.

24a
been identified, a further appraisal is done to analyze
the intent underlying the threat, the capability of an
individual or individuals to effectuate the threat, and
any individuals or groups associated with the threat.
In 2003, as Operation Black Biscuit drew to a close,
ATF’s Undercover Branch issued fictitious identification (e.g.,[]) to Agent Dobyns and his wife. This was
intended to provide additional layers of protection to
Agent Dobyns and his family. At or around this time,
the Undercover Branch took additional steps to enhance
Agent Dobyns’ security. In the summer of 2003, ATF’s
Office of Operations Security (OPSEC), another branch
of OPRSO, conducted a routine risk assessment to
identify whether any ATF personnel associated with
the Black Biscuit investigation were in danger as a
result of their work on that case. This assessment was
preemptive and was not based on the receipt of any
particular information involving Agent Dobyns or
other ATF personnel.
OPSEC concluded that the safety of Agent Dobyns
was at risk and recommended that he and his family
be afforded a “cooling off” period away from the Tucson
area. OPSEC also recommended that Agent Dobyns be
considered for an assignment in a location away from
the West Coast. Agent Dobyns disagreed with this
recommendation because he felt that no specific threat
had been made against him. ATF ultimately agreed to
allow Agent Dobyns to remain in the Tucson area.
On August 31, 2004, Agent Dobyns was threatened
by Robert McKay, a member of the Hells Angels, who
had been indicted as a result of Operation Black
Biscuit. As a result of the threat, McKay was arrested
on charges of threatening a federal officer. On
September 17, 2004, ATF, after conducting an assessment of the risks faced by Agent Dobyns and his

25a
family, ultimately moved them to Santa Maria,
California. Senior ATF officials deemed this move an
“emergency relocation.” Subordinates, however, mistakenly designated this move as a standard change of
duty station. Accordingly, when they were moved to
Santa Maria, Agent Dobyns and his family were not
provided the appropriate support and resources to
protect their identities.
At or about this time, ATF learned that Curtis
Duchette, an inmate who had been the subject of
another of Agent Dobyns’ undercover investigations,
had allegedly made threats against Agent Dobyns. An
ATF agent spoke to an informant about Mr. Duchette,
but the agent concluded that the informant was not
credible and that Mr. Duchette lacked the means to
carry out any harm against Agent Dobyns.
On November 3, 2005, ATF was informed by a
prison inmate of an alleged threat to Agent Dobyns by
an individual later identified as Dax Mallaburn. On
November 4, 2005, ATF interviewed the prison inmate
who was the source of this information. On November
30, 2005, ATF interviewed Mallaburn. Mallaburn claimed
that while incarcerated in Florence, South Carolina,
he was given a “hit list” containing Agent Dobyns’
name by a Hells Angels member known as “Rob.”
Mallaburn claimed that he did not give this list to
anyone and later destroyed it by flushing it down a
toilet. On November 30, 2005, OPSEC completed an
updated threat assessment in which it found sufficient
potential risk existed to warrant relocation of Agent
Dobyns to a location outside of the western United
States.4 In December 2005, Agent Dobyns asked a
4

Earlier that year, in February 2005, Agent Dobyns returned
to ATF a set of fictitious identification cards (in the names of
William and Sasha Johnson) because he felt that he and his wife

26a
friend, Agent Joseph Slatalla, to look into Mallaburn’s
claims. When he spoke to Agent Slatalla, Mallaburn
made different allegations, stating that he had
disseminated the “hit list” to a number of unidentified
individuals.
In December of 2005, after receiving assurances
from OPSEC that Agent Dobyns could be adequately
protected in Los Angeles, California, ATF decided to
detail him to ATF headquarters for one year. After this
year, Agent Dobyns was to receive an emergency
relocation to Washington, D.C. In late 2006, Agent
Dobyns’ detail to Washington, D.C. ended, and he
returned to Los Angeles, where he began work in the
Los Angeles Field Division.
On November 15, 2006, ATF Agent Daniel Hebert
informed Agent Dobyns that a Hells Angels member
incarcerated in Phoenix had told him that another
member of the club had said that the Hells Angels
were going to start a “campaign against Dobyns.” The
informant involved with this communication provided
Agent Hebert with an obscene letter written by
imprisoned Hells Angels member Kevin Augustiniak,
in which Augustiniak imagined a gang-rape of Agent
Dobyns’ wife and threatened other harm to Agent
Dobyns and his family. Agent Hebert considered the
informant unreliable. In subsequent interviews with
ATF, the informant stated that the Hells Angels had
no ongoing campaign to kill Agent Dobyns or to
discover his whereabouts. However, the informant
recounted rumors about an alleged attempt by a Hells
Angels member to contract with a member of the
did not need them anymore. When ATF learned of this new threat
in November 2005, however, it reissued these identifications to
Agent Dobyns and his wife.

27a
Aryan Brotherhood to kill Agent Dobyns. After
assessing this information, ATF concluded that the
information was not credible.5
C. The Prelude
Agreement

to

the

2007

Settlement

On May 2, 2006, Agent Dobyns filed a complaint
with the Equal Employment Opportunity Commission
(EEOC), alleging, inter alia, that ATF improperly
investigated several threats that had been made
against him, and had improperly instituted and
managed the relocation of his family without fullbackstopping, as had been recommended by OPSEC.6
In his EEOC complaint, Agent Dobyns was particularly critical of how threats against him were being
handled by SAC William Newell, who was then the
Special Agent in Charge of the Phoenix Field Division.
On November 20, 2006, ATF Deputy Director Ronald
Carter denied Agent Dobyns’ grievance, finding that
there was an insufficient basis to support the allegations claimed. Notwithstanding, ATF continued to
engage in discussion about this matter and participated in a mediation conducted by ATF’s Office of
Special Counsel.
In May of 2007, Patrick Sullivan, a Senior Operations Security Specialist in the OPSEC Branch,
learned that Agent Dobyns had been working on a
book project based on his efforts in the Black Biscuit
5

In its 2008 report, the OIG found that ATF should have
conducted additional interviews before ending its investigation
and prematurely concluding that the “information the source had
provided was not credible and that Dobyns faced no threat.”
6

As will be discussed below, “backstopping” is a process by
which ATF issues fictitious documents (e.g.,[]) to conceal an
agent’s identity.

28a
investigation. Agent Sullivan contacted Crown/
Random House vice-president Richard Horgan, requesting information about plaintiff’s possible collaboration
on a book project. On May 4, 2007, Mr. Horgan wrote
an email to Agent Sullivan, in which he stated –
We’re glad to have the chance to publish the
book you heard about, which will focus on the
community of outlaw bikers and ATF’s efforts
to rein in their criminal activity. We have no
set title or pub date and would encourage you
to ask Jay Dobyns himself about the project
as it develops.
Agent Sullivan immediately notified his superior,
Chief Amy Walck, as well as another OPSEC agent,
Bernard Conley. On May 18, 2007, Agent Dobyns
executed a contract with The Crown Publishing
Group, a division of Random House, concerning a
book, provisionally titled “Almost Angels.” It is unclear
whether, at this time, other ATF personnel, and, in
particular, the senior ATF personnel who were attempting to mediate the dispute between ATF and Agent
Dobyns, were aware of the book project.
On May 24, 2007, Deputy Director Carter requested
that OPSEC conduct a current threat assessment of
Agent Dobyns and his family. The assessment was
completed on June 22, 2007. Based on interviews
with ATF agents and local law enforcement officials in
Tucson and Phoenix, Arizona, during the period of
June 12-14, 2007, ATF found that “no current indicators of a credible threat toward SA Dobyns and his
family have been detected.” Nevertheless, ATF found
that potential threats to Agent Dobyns and his family
still existed and that the current threat level was
“medium” based on the threat criteria used by ATF.

29a
During the summer months of 2007, Assistant
Director William Hoover and Deputy Director Carter
participated in the negotiation of a settlement agreement with Agent Dobyns. It appears that there were
two or three meetings in this regard, which were
extended in their duration. The record indicates that
as part of the negotiations, Deputy Director Carter
and Assistant Director Hoover discussed with Agent
Dobyns concerns regarding how SAC Newell and
other ATF managers had handled threats against
Agent Dobyns. The record suggests that neither
Deputy Director Carter nor Assistant Director Hoover
inquired during these meetings as to whether Agent
Dobyns had any book or movie deals pending.
D. The 2007 Settlement Agreement
On September 20, 2007, Agent Dobyns entered into
a settlement agreement (the Settlement Agreement)
with ATF. That agreement was executed on behalf of
ATF by Deputy Director Carter and Assistant Director
Hoover. According to internal documents, there were
no attorneys for either side involved in the settlement
negotiations; plaintiff’s current counsel, however, had
some role in the drafting of this agreement or at least
in reviewing its terms.
According to its terms, the Settlement Agreement
was to “fully resolve and settle any and all issues and
disputes arising out of” Agent Dobyns’ employment
with ATF, “including, but not limited to the Agency
Grievance filed by the Employee, the Employee’s
complaints to the Office of Special Counsel, and his
complaints to the Department of Justice’s Office of
Inspector General.” Among the basic terms of the
Settlement Agreement were that ATF would: (i)
promote Agent Dobyns to Grade 14 “retroactive for a
period of one year” from the date of the Settlement

30a
Agreement, during which time Agent Dobyns was to
“receive full back pay and benefits;” (ii) reassign Agent
Dobyns to a NIBIN Coordinator position in Tucson,
Arizona; (iii) agree that if any assessment indicated
that the threat to Agent Dobyns and his family had
increased from the assessment completed in June
2007, the agency would “fully review the findings with
[Agent Dobyns] and get input from [Agent Dobyns]
if a transfer is necessitated;” (iv) agree that “it will
not pursue discipline against [Agent Dobyns] for any
matter that is currently under investigation by the
Department of Justice’s Office of the Inspector General
(OIG) or ATF’s Office of Professional Responsibility
and Security Operations (OPRSO);” and (v) agree to
expunge from various files any document relating to
the matter settled by the Settlement Agreement,
including documents relating to Agent Dobyns’ mental
health, truthfulness or credibility.
In addition, ATF agreed to –
pay [Agent Dobyns] the sum of Three Hundred
Seventy-Three Thousand Dollars ($373,000.00)
in full and final settlement for any and all
claims that have been brought or could have
been brought up to the date this Agreement is
executed by the parties.
The Settlement Agreement provided that “[e]xcept for
the lump sum set forth in this paragraph and the back
pay set forth [in the paragraph dealing with the
retroactive promotion],” Agent
Dobyns “and his representative are not entitled to
any other monies, expenses, costs, attorney fees, or
any damages or relief regarding any matter that is
subject to this Agreement, its preparation and its

31a
execution, or otherwise regarding [Agent Dobyns’]
employment with the Agency.”
In exchange for this compensation, Agent Dobyns
agreed to –
withdraw and/or dismiss with prejudice his
Agency Grievance, his discrimination/ retaliation complaints, any Whistleblower claims,
any complaints filed by the Employee with
the Office of Special Counsel, and any other
complaints the Employee could have raised
regarding his employment with the Agency as
of the date this agreement is executed by the
parties.
In addition, he agreed to release and discharge “the
United States, the Department of Justice, the Bureau
of Alcohol, Tobacco, Firearms and Explosives . . . from
any and all liability, claims, causes of action, etc.,
resulting from or relating to, in any way whatsoever,
the subject matter of this Agreement, or otherwise
concerning [Agent Dobyns’] employment with the Agency,
including underlying actions and claims, including his
complaints of discrimination and retaliation.”
In a critical passage, the parties also agreed that
the Settlement Agreement did “not constitute an
admission by the Agency or [Agent Dobyns] of any
violation of law, rule or regulation or any wrongful acts
or omissions.” Further, ATF agreed “that it will
comply with all laws regarding or otherwise affecting
[Agent Dobyns’] employment by the Agency.” Agent
Dobyns agreed that he would “comply with Agency
requirements and will seek permission for any outside
employment, including speaking, writing, teaching or
consulting.” ATF agreed that it would “handle such
requests in a manner consistent with Agency practice

32a
and procedure.” The Settlement Agreement also
stated that if Agent Dobyns “believes the Bureau has
failed to comply with the terms of this Agreement, [he]
shall notify the Director, Department of Justice Equal
Employment Opportunity Staff, Justice Management
Division, in writing.” Finally, Agent Dobyns could
request that the terms of the Settlement Agreement
be specifically implemented, or alternatively, that his
complaint against the agency be reinstated for further
processing.
Neither Deputy Director Carter nor Assistant Director
Hoover conducted any due diligence in ascertaining
what ATF officials knew regarding the book contracts
prior to the execution of the Settlement Agreement.
Nevertheless, prior to the execution of the Settlement
Agreement, at least several ATF officials were aware
of the book deals. Following the execution of the
Settlement Agreement, and also related to the book
deals, Agent Dobyns’ media activities were investigated by OPRSO.7 In late September 2007, pursuant
7

On December 7, 2007, OPRSO was informed that, on or about
November 26, 2007, Agent Dobyns had appeared in two television
programs on National Geographic and the History Channel about
outlaw motorcycle gangs. On July 8, 2008, OPSRO issued Report
No. 2008019, revealing that Agent Dobyns did appear in, and
release information during, the programs in question. That
report took the position that the release of the information in the
course of the programs, including undercover trade craft, by
Agent Dobyns was without authorization. After consulting with
the ATF Office of Chief Counsel, Deputy Director Carter and
Assistant Director Hoover, the Professional Review Board (PRB),
on January 12, 2009, issued a memorandum finding that Agent
Dobyns’ actions were covered by the September 20, 2007,
Settlement Agreement. On that basis, the PRB issued a memorandum of clearance. The memorandum indicated that “the PRB
considered your actions in this matter to be very serious, and did
not concur with your rationalizations for proceeding with the

33a
to the Settlement Agreement, Agent Dobyns was
assigned to the position of Western Regional Coordinator for ATF’s NIBIN.8
E. Withdrawal of Credentials
Covert identification documents are used by ATF to
create a fictitious identity for the user, and can include
many documents that are ordinarily used in an
individual’s everyday life, such as []. This is known as
“backstopping.” []. Critically, such documents are used
not only during undercover operations [], but also
when such operations are completed, to continue to
protect the identities and addresses of agents and
their families. ATF Order 3250.1A establishes accountability requirements for ATF agents using or issued
covert identification. Paragraph 34(a)(2) of this order
provides that “[w]hen it is certain that the identification is no longer needed, it must be returned immediately
to the [Undercover Branch of ATF’s Special Operations Division].”
On or about October 3, 2007, Agent Dobyns was
transferred to the NIBIN branch in Tucson, Arizona.
On October 26, 2007, Agent Dobyns sent an email to
Agent Sullivan, requesting that ATF assist him in
renewing several expiring covert vehicle registrations.
Agent Sullivan forwarded this email to Chief Walck,
who, in turn, forwarded the request to Marino Vidoli,
Chief of ATF’s Special Operations Division. On
October 31, 2007, SAC Newell, proceeding on the false
documentaries,” adding that the PRB “would have proposed
severe disciplinary action against you if your actions had not been
included in the settlement agreement.”
8

NIBIN was a part of ATF’s Office of Enforcement Programs
and Services (EPS), which, for times relevant here, was headed
by Assistant Director Carson Carroll.

34a
or mistaken belief that Agent Dobyns had improperly
used his undercover identification while using a vehicle
during a surveillance operation,9 sent an email to
NIBIN Chief Steven Pugmire and OPSEC Chief Walck,
questioning whether Agent Dobyns continued to need
the fictitious identification. In this email, SAC Newell
stated, “[b]ottom line for me is that if he no longer
needs this U/C ID then I want it pulled because this
could potentially cause interagency relationship problems for us if he’s routinely using this U/C ID.”
(Notably, while he was downplaying any concerns for
Agent Dobyns’ safety, SAC Newell continued to bar
Agent Dobyns from entering one of the Tucson Field
Offices because he feared that Agent Dobyns’ mere
presence in that office posed unacceptable risks to the
non-law enforcement personnel working there.)
On November 1, 2007, SAC Newell’s email requesting the recall of the identification and Agent Dobyns’
request for renewal of the fictitious license plates were
forwarded to Chief Vidoli at essentially the same time.
On that same day, SAC Frank D’Alesio forwarded SAC
Newell’s email to Chief Vidoli, indicating that “[w]e
need to talk about this because obviously it is becoming a hot issue again.” In November of 2007, a meeting
was held between NIBIN Chief Pugmire, Chief Vidoli
9

The IAD report indicates that the vehicle in question had
been registered to Jay Davis, an undercover identity used by
Agent Dobyns during the Black Biscuit investigation. It appears,
however, that the Phoenix Field Office had failed to change the
registration on this vehicle after that investigation. Subsequently,
the RAC in Phoenix received notification that the Pima County
Sheriff’s Department had run a check on the car in question. At
trial, SAC Newell testified that while he later learned that the
perceived misuse of Agent Dobyns’ identification was an error, he
never admitted to anyone at ATF that Agent Dobyns had nothing
to do with the events that caused the “red flag” notification.

35a
and Chief Walck. At this meeting, the parties discussed the ongoing need for the covert identification
documents issued to Agent Dobyns. Chief Walck
stated that pursuant to the assessment completed in
June of 2007, OPSEC was unaware of any current
credible threats to Agent Dobyns and his family. (This
statement, of course, was inaccurate.) During this
meeting, NIBIN Chief Pugmire indicated that Agent
Dobyns had indicated to him that he “did not believe a
threat still existed.” Based on this assessment, Chief
Vidoli ordered Agent Dobyns to return all the undercover identifications and license plates that had been
issued to him and his family.
On November 23, 2007, Chief Vidoli issued a
memorandum to Agent Dobyns’ supervisor, NIBIN
Chief Pugmire, requiring that Agent Dobyns return all
fictitious identifications issued to Agent Dobyns and
his wife. The memorandum listed the various items of
identification used by Agent Dobyns during his
undercover cases, as well as those that were issued to
Agent Dobyns and his wife for their protection from
threats. Again, Chief Vidoli required the return of
these items, even though the June 22, 2007, threat
assessment regarding Agent Dobyns was still extant.
The subsequent IAD investigation revealed that
information presented to, or available to, Chief Vidoli
had confirmed that threats against Agent Dobyns and
his wife had been substantiated as recently as the
June 2007 update of the threat assessment. Moreover,
it is remarkable that this was the only instance during
his tenure that Chief Vidoli had ordered the withdrawal of the fictitious identification issued to an ATF
employee.

36a
The withdrawal of the covert identifications was
completed in May 2008.10 On June 18, 2009, the U.S.
Office of Special Counsel classified Agent Dobyns as a
“whistleblower” because of his allegations that ATF
lacked adequate policies and procedures for reviewing
and responding to threats of violence made against its
agents and their families.
F. The Arson at Agent Dobyns’ Home
On Sunday, August 10, 2008, at approximately 3:29
am (PST), a fire occurred at Agent Dobyns’ house, in
Tucson, Arizona. Agent Dobyns’ wife, Gwen Jones, his
daughter, Dale, and his son, Jack, were home; Agent
Dobyns was in Phoenix. Upon discovering the fire,
Gwen placed a call to 9-1-1. Gwen, Dale and Jack were
able to exit the house through the kitchen, without
suffering physical injuries. The Rural Metro Fire
Department and the Pima County Sherriff’s Office
(PCSO) were dispatched to the fire. The first engine
arrived on scene at 3:37 am. The Fire Department
personnel extinguished the fire and inspected the
area where it originated. They then left the scene at
approximately 7:30 am. At or about this time, Agent
Dobyns learned of the fire for the first time, having
retrieved an earlier voicemail from his wife. After the
fire was extinguished, PCSO Deputy Ty Sutherland
spoke to Gwen and released the scene because he
concluded that no further law enforcement action was
needed.
Later that same day, Agent Dobyns arrived at his
home at approximately 10:15 am. At approximately
1:15 pm, PCSO fire investigator Deputy Jessica
Martin arrived at the Dobyns house to conduct a cause
10

As part of the backstopping procedure, [] made about Agent
Dobyns. For some unexplained reason, [].

37a
and origin investigation. The fire scene had not been
secured prior to Deputy Martin’s arrival. At 1:40 pm,
Agent Dobyns sent an email to his supervisor, Agent
Mike O’Neil, informing him of the fire. In this message, Agent Dobyns stated that “[a]rson investigators
are on the scene,” but that “[n]o conclusions have been
formed at this time.”11 The message continued that the
“house and contents appear to be a total loss,” noting
that “[o]ne half of the house is charred and the other
half has significant damage from the fire department
response.” Agent Dobyns concluded that he did “not
want ATF to respond,” adding that “[t]here is nothing
that I need or want from ATF.”12
After receiving this email, Agent O’Neil telephoned
and briefed his supervisor, Raymond Rowley, who was
the Chief of the Firearms Enforcement Division at
NIBIN. Agent O’Neil requested approval to travel to
Tucson to support Agent Dobyns and his family; Chief
Rowley approved the request. Subsequently, Chief
Rowley informed Assistant Director Hoover about the
fire. At approximately 3:20 pm, Assistant Director
Hoover called George Gillett, who was one of the
ASACs in the Phoenix Field Office.13 Assistant
Director Hoover informed ASAC Gillett that a fire had
occurred at the personal residence of Agent Dobyns in
11

The electronic message from Agent Dobyns to Agent O’Neil
indicated that “[s]ome extenuating circumstances are present. I
will discuss those with you later today once I have a chance to
contain this situation.”
12

At the time of the arson, the Director of ATF was Michael
Sullivan and the Deputy Director was Ronald Carter.
13

The SAC for the Phoenix Field Division at the time of the fire
was SAC William Newell. ASAC Gillett reported to SAC Newell.
The two offices in Tucson were part of the Phoenix Field Division,
each led by a RAC. One of these was Agent Charles Higman.

38a
the early morning hours of August 10, 2008. He
directed ASAC Gillett to send ATF agents to the scene.
ASAC Gillett then called Agent Dobyns and left two
messages on his cell phone. At approximately 3:40 pm,
ASAC Gillett called Agent Charles Higman, the
RAC for one of the Tucson offices, advised him of
the fire and directed him to call the Pima County
Sheriff’s Office to obtain information about the status
of the investigation. At approximately 4:00 pm, PCSO
Deputy G.W. Carey and PCSO Detective P.L. Wilson
came to the fire scene.
At the time Agent Higman responded to ASAC
Gillett, his squad of eight agents in Tucson Field Office
2 was conducting surveillance at a gun show/swap
meet in Tucson. The squad remained at this scene
until most of the participants at the swap meet left. In
their testimony, ASAC Gillett and Agent Higman
suggested that ASAC Gillett ordered Agent Higman to
have a couple of his agents respond to the Dobyns
house. However, it appears that neither Agent Higman
nor any of his squad actually responded to the fire
scene on August 10, 2008 – and that ASAC Gillett and
Agent Higman, in fact, mutually decided instead that
no agents would respond that day.14 Agent Higman’s

14

This was the conclusion reached in the 2012 IAD Report on
the fire. The IAD deposition of ASAC Gillett stated in this regard,
as follows:
Q. Were you aware that Higman stated he did not
intend to dispatch any agent to the crime scene until
he was ordered to do so?
A. No.
Q. Okay. Did you order him to do so – to not dispatch
any agents to the crime scene?
A. Yes.

39a
contrary claim – that he ordered his squad to respond
to the scene – is flatly contradicted by the record, and
includes details that are nonsensical.15 The record also
Q. You ordered him to not dispatch any agents to the
crime scene?
A. It was a mutual decision.
15

This is one of many instances in which Agent Higman’s
testimony raises questions regarding his veracity. At trial, for
example, Agent Higman testified that ASAC Gillett instructed
him thusly:
A: Yes, basically the idea was to send an agent or two,
I don’t know how many. We sent down there just to get
a quick overview, an understanding of what was going
on, what it was, what happened. And we did that.
Q: Did Mr. Gillett ask you to send any agent’s that day?
A: We did. That’s, yes, that afternoon I broke one or two
agents loose fromthe surveillance and sent them down
to the scene.
Agent Higman testified that the intent was to have these agents
arrive at the scene. On this count, Agent Higman further testified
as follows:
Well, when they got down there, and again, I don’t
recall which agent it was, but I received a telephone
call back. My recollection is we were still at the gun
show doing the surveillance operation. They told me at
that time, my recollection is that I was told at that time
that a fire had occurred exterior to the – on the porch
area of the house.
My recollection is that I was told that the damage was
relatively minor, that the fire had encroached the
interior of the residence at some small level. There
were – and there were no injuries that occurred, and so
that’s what we had. We had basically a relatively small
fire with no injuries.
In his trial testimony, Agent Higman testified that he confirmed
that the agents actually went to the site on August 10, 2008, and
he added details to support this view (e.g., that he asked the

40a
suggests that ASAC Gillett did not believe that the
supervisory agent in the other Tucson office, Agent Sig
Celaya, would respond to the fire scene because he
disliked Agent Dobyns, having had major disagreements with him in the past.
On August 11, 2008, at 8:05 am, Agent Michael
Hildick was notified about the fire by ATF Group
Supervisor Jane Hefner. Agent Hildick was assigned
to ATF’s Phoenix, Arizona, Field Division and is a
certified fire investigator. On that morning, SAC
Newell and ASAC Gillett dispatched Agent Hildick to
investigate the fire at the Dobyns’ residence. Agent
Hildick arrived at the scene at approximately 10:45
am. Despite the directions given by Assistant Director
Hoover, no ATF personnel responded to the scene of
the fire – or made any attempt to investigate the fire
or secure the scene – until this time, which was
approximately 19.5 hours after the Phoenix Field
Division first became aware of the fire.16 Agent Hildick
agents to work with the Pima County Sheriff’s Office to work the
scene until nightfall).
16

These facts were confirmed by the OIG report, which
included deposition testimony and other evidence indicating that
SAC Newell, ASAC Gillett and Agent Higman were aware of the
instruction that ASAC Gillett had received through the chain of
command and, nonetheless, failed to dispatch ATF agents to the
scene. In its report on the fire, the OIG found that –
The decision to delay the ATF response was based on
incorrect assumptions and determinations by Phoenix
FD management about the fire scene; an incorrect and
negligent interpretation of ATF’s authority to investigate the fire; and a determination by Phoenix FD
management that another agency should investigate
the fire, even though many SAs within the Phoenix FD
believed it was entirely reasonable to suspect that the
fire might have been an attempt to murder an ATF SA

41a
testified that when he arrived at the scene, he realized
that the home was open and unsecured, and that the
scene was no longer fresh. Shortly thereafter, Agent
Hildick was joined by Agent Tristan Moreland, an ATF
Certified Explosives Specialist. Agent Moreland was
not dispatched by the Phoenix Field Office, but instead
went to Tucson of his own volition. Agent Moreland,
who worked on a number of investigations, including
the Atlanta Olympic bombing case, was shocked to
find the scene unsecured. The Phoenix Field Office
failed to assign a supervisor to serve as the on-scene/
incident commander at the fire scene – a standard
practice in such circumstances.
Agents Hildick and Moreland assessed the fire scene
and determined that the PCSO investigation had been
inadequate. At some point during the day, Agents
Hildick and Moreland were joined by ATF Agents
Thomas Mangan and Louis Quinonez, both of whom
responded to the fire of their own volition. During the
day, Deputy Martin, Fire Chief Willie Treatch, and
several PCSO detectives met at the Dobyns residence.
Agent Hildick, Deputy Martin, and others examined
the fire scene. Later that day, ATF agents from
Phoenix and PCSO Deputy Danny Barajas met with a
potential arson suspect, Mike Castro. That same day,
Deputy Barajas met with Robert McKay, a member of
the Hells Angels, who had previously threatened
Agent Dobyns. Also that same day, Agent O’Neil flew
on a commercial flight from his duty station in
and his family in retaliation for the performance of the
SA’s official duties.
Testimony revealed that various ATF personnel who had become
aware of the fire were confused as to why Agent Higman had not
ordered agents to go to the fire scene right away and begin an
investigation.

42a
Washington, D.C., to Tucson, and arrived at the fire
scene that afternoon. Despite all the activity described
above, agents from the Tucson Field Offices did not
arrive on the fire scene until approximately 5:00 pm
that day.17
On August 12, 2008, an investigator associated with
the PCSO and his accelerant canine searched the
area. That same day, Agents Hildick and Moreland, as
well as Agent Larry Bettendorf from the Phoenix
arson group, returned to the fire scene. Agent Hildick
continued his investigation, taking samples of fire
debris that were retained for laboratory examination.
Several agents from one of the Tucson Field Offices
arrived at the scene; all but two of these eventually
departed. Agent Higman, in fact, ordered the Tucson
agents to depart the scene and to have no further
involvement in the fire investigation. Also on August
12, Deputy Martin interviewed an electrical engineer
that ATF had called to the scene. The engineer
concluded that the cause of the fire was not electrical.
The PCSO also interviewed Agent Dobyns and his
family. On that day, PCSO advised ATF that it would
17

Agent David Korn, an agent in one of the Tucson Field
Offices, apparently responded to the fire scene that evening. He
later conducted an interview based on a lead provided by Agent
Dobyns. Agent Korn intended to conduct additional interviews at
a local prison the next day, but was advised by other agents not
to do so. Agent Korn later had a conversation with Agent Higman,
who told him not to conduct any further interviews. Also on
August 11, 2008, Phoenix Field Division Group Supervisor Peter
Forcelli tried to send agents from his group to assist in the
investigation, but was instructed not to do so by SAC Newell. In
this conversation, SAC Newell told Agent Forcelli that the fire
was “just minor scorching and PCSO had it under control.”
Pictures in the record reveal that SAC Newell’s description of the
fire was inexcusably inaccurate and that the fire was a total loss.

43a
investigate the case and would not be collaborating
with ATF on the investigation, other than at the scene.
Several days later, Agents Hildick and Moreland
interviewed Agent Dobyns and his family regarding
the fire. Agent Dobyns was aware that a standard
arson investigation required that the homeowner
initially be viewed as a potential suspect. Based on
their interviews with the family and their observations of the fire scene, Agents Hildick and Moreland
both ruled out Agent Dobyns and his family as
suspects in the fire. Despite this, the record reveals
that several ATF officials, including ASAC Gillett and
Agent Higman, continued to view Agent Dobyns as a
suspect and did so for a number of years.18 On August
18, 2008, Deputy Martin advised his superiors that the
case was being turned over to ATF.19 The IAD investigation revealed that, despite this transfer, Agent
Higman and ASAC Gillett purposely slowed the investigation into the fire because they felt that another
18

At trial, Agent Slatalla testified that, on the day of the fire,
Agent Dobyns left him a voicemail informing him of the fire.
Shortly thereafter, Agent Slatalla conducted an investigation of
cell phone records, as well as an analysis of cell tower mapping,
which, in his view, established that Agent Dobyns was in Phoenix
on August 9 and that his cell phone traveled down to Tucson on
August 10. Agent Slatalla made this analysis available to various
ATF officials, including Agent Matt Bayer, who would eventually
become the case agent for the fire investigation. Agent Slatalla
testified that ATF officials associated with the investigation of
the fire, including Agent Bayer, made no effort to review these
records.
19

The record reveals a disagreement as to the date on which
the investigation was transferred from PCSO to ATF. Agent
Higman asserted that the transfer occurred sometime around
August 15, 2008, while other information places that transfer as
late as August 18, 2008.

44a
agency should be conducting the investigation; during
this period, SAC Newell and ASAC Gillett each told
various ATF special agents that the investigation of
the fire was the responsibility of ATF headquarters.20
Along these same lines, in a conversation with Agent
Bayer, Agent Higman indicated that he wanted the
case to be on a “slow roll.” Agent Higman likewise
indicated to Agent Robert Maynard, the other agent
assigned to investigate the arson, that they were going
to “slow walk this thing” until the FBI accepted the
investigation. ATF did not offer a reward for
information regarding the fire, even though rewards
had been offered in similar circumstances; other
agents had recommended to SAC Newell and ASAC
Gillett that such a reward be offered.
On Thursday, August 21, 2008, Assistant Director
Carson Carroll, who then headed the Office of
Enforcement Programs and Services (EPS), notified
SAC Newell via email that he would be travelling to
Arizona for a briefing on the arson investigation and
to meet with Agent Dobyns. SAC Newell forwarded
Assistant Director Carroll’s email to ASAC Gillett, and
requested a briefing on the case prior to the meeting
with Director Assistant Carroll. ASAC Gillett forwarded SAC Newell’s email to Agent Higman and
advised Agent Higman that he and SAC Newell would
brief Assistant Director Carroll on Monday, August
25, 2008.
This precipitated an email exchange on August 21,
2008, at 2:02 PM, between ASAC Gillett and Agent
20

At trial, Agent Higman, in a rare unguarded moment,
admitted that he viewed Jay Dobyns as being a “polarizing
figure,” adding that “[t]here were a number of people who had
very strong positive feelings for Jay, and . . . others [who] didn’t
care for Jay.”

45a
Higman in which the latter asked “is the continued
contact w/the homeowner by supervisory ATF personnel necessary?” The email continued:
It goes to case integrity and confidentiality,
and adds difficulty to the ongoing inquiry by
making a SAC, DAD, etc. potential witnesses
based on the homeowner’s statements to them.
At this point, all we know is that we have a
preliminary C&O, and the assigned investigators haven’t yet interviewed the homeowner
nor substantiated any motive. If the DAD,
etc. have already assigned a motive, it makes
objectivity that much more difficult for
subordinate employees. I’d like to isolate the
homeowner/victim until we have developed
more info; at minimum as an investigator
and case supervisor, I’d like to know the substance of the contacts, any representations
made, etc.
At 4:02 PM, on the same day, ASAC Gillett replied to
Agent Higman, stating in an email:
I appreciate your thoughts and concerns and
most appreciate that you are comfortable
enough to raise them.
That being said, it’s not possible in this lifetime to control the Director, Deputy Director,
ADs or so on down the chain from getting
briefed on this case or contacting the homeowner and/or his family.
However, what I can control (and fully intend
to control) is the specific information that is
briefed to the chain of command.

46a
I’ll shoot straight, I think that you could tell
during our meeting on Tuesday, I am no more
happy about these circumstances than you.
However, like you, I’ve been ordered to proceed
down this investigative path, so I will. What
I won’t do is compromise my integrity or the
integrity of this investigation. I stand with
you and your agents on this, so not releasing
significant details (to anyone) that we may
discover that would compromise our work
won’t come from me. I’ll go out of my way to
conceal them. Please trust that (and for the
record I am not inferring anything from your
prior comments) I have enough L.E. [law
enforcement] and Intelligence community
experience to know how to protect myself and
my subordinates. (I can hide the ball with the
best of them).
I have said it before, but for the record (and
probably future disclosure in court) I’ll say it
again: I fully intend that this is the last stop
on the career path of George Gillett, but this
case likely guarantees it. I’m going to back
you and your agents and do the right thing.
I will also take very good notes on what’s
conveyed during any briefings and still know
how to generate a 3120.2 if necessary.
I will also convey the points you raise
regarding the delicate current status of this
investigation to Carson and others that I
brief.
At 5:49 pm, Agent Higman responded to ASAC Gillett,
stating:

47a
George, thanks for your detailed and thoughtful response to my below. Like you, I do
recognize the need to brief the boss on matters
that they determine are of their interest. I
don’t have to like it, and I’m not attempting
to throw mud in the middle of the floor on that
issue beyond my contact w/ you.
Like you, the SA assigned and I are attempting to put process in place to make this
inquiry thorough, unbiased and objective, to
take this and any subsequently developed
matters where the facts lead us. Similarly, we
recognize the need to support one of our
employees during a time of difficulty such as
we face here.21
(Emphasis in original).
On or about August 22, 2008, Agent Hildick completed a Cause and Origin Report with respect to the
fire at the Dobyns’ residence. Agent Hildick’s report
catalogued a series of witness statements regarding
the fire and made a series of findings documenting his
examination of the fire scene. Agent Hildick believed
21

This email from Agent Higman also indicated:
When you return from holiday I would like to more
fully explore the opportunity to at least memorialize
in a substantive way contact between any Bureau
employee and the homeowner, even if that contact is
minor and simply an inquiry as to their well being.
Along those lines, I have contacted both Jane Hefner
and Sig Celaya, and ask[ed] that they direct their
employees to prepare a detailed statement as to their
knowledge and activity regarding this matter; I have
directed four of the SA assigned to this office to do the
same. I expect to receive that material at the beginning
of next week.

48a
that the fire was incendiary and started on the south
side of an armoire that was located to the north of the
sliding glass door on the back (east side) of the home.
Agent Hildick concluded that an open flame and
available combustibles were used to start the fire.
On August 22, 2008, and August 27, 2008, Agents
Matt Bayer and Robert Maynard, at the direction of
Agent Higman, tape-recorded conversations with
Agent Dobyns without his knowledge. Defendant has
stipulated that ATF neither sought nor obtained
authorization to record Agent Dobyns without his
knowledge.22 In the midst of these recording sessions,
Assistant Director Carroll visited the Phoenix Field
Division to obtain a briefing on the status of the
22

In his testimony, Agent Higman suggested that “we set in
motion the authorities to get approval for electronic surveillance
to record Jay Dobyns as part of the investigation.” It is plain,
however, that Agent Higman failed to take any of the required
steps to seek authorization for a recording. When confronted,
Agent Higman attempted to excuse this failure by stating:
My response to that is that this, we never interviewed
Jay Dobyns. We never went through with an interview.
We never got to the stage where we actually went to sit
down with Jay Dobyns. The contacts that were made
with Jay were on a telephone only.
And it’s my recollection, I’m not an attorney and I
don’t – I don’t claim judicial, you know, legal
knowledge, but my recollection at the time was it was
one-party consensual on a telephone. We didn’t need
authorization. That’s my recollection today on a telephone contact. If we were to sit across from him on a –
across a table or anywhere else, we would have needed
authorization. But it never reached that stage.
The record, however, plainly makes clear that Agent Higman
instructed Agents Bayer and Maynard to record Agent Dobyns
without proper authorization. Agent Higman again suggested
that it was ASAC Gillett who authorized the recording.

49a
Dobyns’ fire investigation. The record suggests that
ASAC Gillett withheld information from both Assistant
Director Carroll and SAC Newell at this time; among
the information withheld was the fact that Agents
Bayer and Maynard had been requested to record
conversations with Agent Dobyns without his knowledge
(the first of the recordings occurred before the meeting
with Assistant Director Carroll; the second thereafter). Overall, at or around this time, ASAC Gillett
and Agent Higman took steps to prevent agents from
the Field Division, as well as supervisors in ATF
headquarters, from having access to information regarding the investigation into the Dobyns fire. According
to the IAD investigation, those measures included
circumventing the reporting requirements in ATF’s
“N-Force” case management reporting system; designating the N-Force case file as being covered by Fed.
R. Crim. P. 6(e) when no grand jury investigation
existed; storing files off-site at a location provided by
the United States Air Force; and withholding information from ATF superiors in briefings.23

23

In his testimony, Agent Higman initially left the impression
that he did not employ these procedures to shield information
from N-Force and other proper channels, as no significant
information was received from these channels. But, deposition
testimony adduced at trial made clear that Agent Higman was
aware that agents working the fire had generated reports that
were not being uploaded into N-Force. These so-called “white
papers” were maintained in individual envelopes that were
stored in a file cabinet that Agent Higman kept at an off-site
location (an Air Force base). On this and other points, Agent
Higman’s testimony appeared to “evolve” as questions were
adduced. Agent Higman took the view that the procedures were
dictated by ASAC Gillett; ASAC Gillett took the view that the
procedures were established by Agent Higman. At trial, Agent
Higman acknowledged that he was unaware of any other

50a
On August 25, 2008, ASAC Gillett and Agents
Hildick, Moreland, Bettendorf and Hefner held a
meeting about the fire. At that meeting, ASAC Gillett
characterized the conclusions reached by Agent Hildick
in his Cause and Origin report regarding the fire as
being “unpopular” – a statement that was conspicuous
to the agents in attendance, as Agent Hildick’s report
had not yet been released to anyone. On August 26,
2008, Assistant Director Carroll and SAC Newell met
with Agent Dobyns to discuss ATF’s handling of the
arson investigation. Based on those discussions, ATF
decided to refer the investigation of the arson to the
FBI. On that same day, ASAC Gillett sent an email to
Agents Moreland, Hildick, Bettendorf and Hefner in
which he described new procedures that were to be
followed in filing case reports regarding the fire; these
procedures differed from the standards followed in NForce cases.24 On August 27, 2008,
investigation that was reported outside of N-Force after the
program was adopted.
24

In the email, ASAC Gillett described these procedures as
follows:
Pursuant to our meeting this date at approximately
10:20 AM, please note that the reporting procedures
forwarded by GS Hefner and GS Higman were at my
direction and by my orders. Any deviation from the
standard reporting procedures of special agents directly
entering reports of investigation (3120.2) are in an
attempt to maintain the integrity of this investigation
and to limit access to this sensitive investigation
by person(s) that do not have a need to know.
Additionally, restricting case access is to deny access
to those personnel that are not directly involved in this
investigation. Further, as has been the case to date and
will continue to be the case, you are ordered and
directed to write your reports based upon your professional knowledge of events and, where applicable, your

51a
Deputy Martin met with Agent Bayer and turned
over all reports, photographs, documentation, audio
recordings, and transcripts available to date associated with the case. On August 28, 2008, Agent Dobyns
emailed a message to his ATF chain of command to
protest ATF’s handling of the arson investigation. In
the email, Agent Dobyns complained that ATF seemed
to be treating him as the prime suspect in the fire. The
record reveals that following the arson, ATF failed to
conduct a new threat assessment, instead continuing
to rely on the assessment done in June 2007.
On September 2, 2008, Deputy Martin was advised
that the case was being transferred from ATF to
the FBI. On September 3, 2008, Deputy Martin met
with FBI Agent Brian Nowak to turn over to him all
additional photographs, transcripts, and audio interviews that had not previously been provided to ATF.
(The record, however, suggests that either Agent
Higman, or perhaps, ASAC Gillett, failed to turn over
to the FBI all or a portion of the files that had been
stored outside the normal protocols for N-Force.) On or
professional opinions as to the origin and cause of this
fire. If you are approached by anyone that attempts to
dissuade you from your professional responsibilities or
otherwise attempts to influence your official reporting
of the events surrounding this investigation, I am
ordering you to report any such attempts to me directly
and immediately.
When your reports are complete, please e-mail them to
me directly in word format and I will make arrangements for you to cut and paste the reports into the
N-Force case file from my work station.
Agent Hildick, among others, objected to these procedures,
because he believed that it was highly unusual for an agent who
was directly involved in an investigation to be denied normal
access to the case files.

52a
about this date, Agents Higman, Maynard and Bayer
met with FBI Agent Nowak to turn over the case.
During that meeting, Agent Higman expressed negative
opinions regarding Agent Dobyns to the FBI personnel,
making references to Agent Dobyns’ forthcoming book
and to his having sued ATF (in fact, there were no such
suits). On September 4, 2008, Assistant United States
Attorney Beverly Anderson became involved in the fire
investigation at the request of the FBI. Ms. Anderson
was never contacted for approval to use electronic
surveillance in the Dobyns fire investigation.
On October 17, 2008, OPSEC produced a Significant
Information Report (SIR) regarding a potential suspect in the investigation of the apparent arson at the
Dobyns’ residence. According to the report, a source
advised ATF that the Hells Angels were preparing to
target relatives of Agent Dobyns who allegedly resided
in the San Diego, California, area. The source relayed
information suggesting that Robert Johnston, a former
Hells Angel, was responsible for the fire at Agent
Dobyns’ house. Two ATF agents from New Orleans,
Louisiana, were assigned to investigate this threat. It
was determined that the information provided by the
source was not credible and did not warrant additional
investigation. On April 16, 2009, Assistant Director
Carroll sent a memorandum to Agent Dobyns offering
to relocate him and his family to the ATF National
Academy in Glynco, Georgia; the ATF Field Division
in Denver, Colorado; or the ATF Field Division in
Seattle, Washington.
In early 2012, Thomas Atteberry, the new SAC for
the Phoenix Division, reopened ATF’s investigation

53a
into the arson at Agent Dobyns’ residence.25 On May
14, 2012, ATF Agent Creighton L. Brandt, who was
working with the FBI, identified, as a person of
25

Testimony at trial indicated that Valerie Bacon, an attorney
in ATF’s Office of General Counsel, attempted to convince SAC
Atteberry not to reopen the arson investigation. In this regard,
SAC Atteberry testified:
Q. . . . Did you get any kind of discouragement in any
respect from anyone at ATF with respect to reopening
this arson investigation?
A. Yes.
Q. Please explain.
A. When I was seeking guidance to reopen the investigation, I had a phone conversation with somebody
from Counsel’s office in ATF headquarters.
THE COURT: Can you be more specific, Agent? Do you
know who it was?
A. I believe it was Valerie Bacon.
THE COURT: All right. Proceed.
A. I had a phone conversation, and I also believe I
talked to her in person one time when she was in
Phoenix, and I believe during the telephone conversation she made a comment to me that if you, meaning
myself, reopen the investigation that would damage
our civil case.
On or about March 21, 2013, defendant’s attorneys (and their
supervisors) received emails from plaintiff’s attorney complaining about the contacts made by Ms. Bacon to SAC Atteberry. It
appears that defendant’s attorneys did not respond to these
emails or take any action in response thereto. Neither party
notified the court of these contacts until SAC Atteberry testified
in court. In a filing subsequently ordered by the court, defendant’s counsel acknowledged the contacts made by Ms. Bacon to
SAC Atteberry, as well as to another potential witness in this
case (Agent Carlos Canino). That filing suggests that Ms. Bacon
had a discussion with Agent Canino that was similar to the one
she had with SAC Atteberry, described above.

54a
interest, a juvenile serial arsonist, who was setting
fires on the east side of Tucson in 2007 and 2008. It is
unclear how the investigation of the arson has
progressed since.
G. The OIG and IAD Reports
In 2008, the DOJ OIG issued a report concerning
ATF’s handling of external threats made against Agent
Dobyns. In 2012 and 2013, IAD at ATF issued reports
dealing with ATF’s handling of the arson and removal
of backstopping for Agent Dobyns and his family.
Because these reports corroborate critical facts, their
findings are summarized here.26
(1) 2008 OIG Report
On September 22, 2008, the OIG released a report
entitled “OIG Report on Allegations by Bureau of Alcohol,
Tobacco, Firearms, and Explosives Special Agent Jay
Dobyns” (the 2008 Report). The 2008 Report concluded
that between 2004 and 2007, ATF severely mismanaged a series of three threats that were made against
Agent Dobyns. In this regard, the OIG Report found
that “[w]ith regard to . . . [these] three threats, . . . ATF
needlessly and inappropriately delayed its response to
26

Contrary to defendant’s intimations, there is no doubt that
the reports fall within the exception to the hearsay rule for public
records and reports. Fed. R. Evid. 803(8). There is no indication
that “[e]ither the source of information []or other circumstances
indicate a lack of trustworthiness.” Id.; see also L-3 Comm’ns
Integrated Sys., LP v. United States, 91 Fed. Cl. 347, 356 (2010);
Yankee Atomic Elec. Co. v. United States, 2004 WL 2450874, at
*1-8 (Fed. Cl. Sep. 17, 2004); see generally, Air Land Forwarders,
Inc. v. United States, 172 F.3d 1338 (Fed. Cir. 1999). In the court’s
view, this is also an appropriate situation for invoking the residual exception to the hearsay rule. Fed. R. Evid. 807. Of course, in
the normal course, defendant generally seeks the admissibility
of its own investigative reports.

55a
two of the threats . . . [and] should have done more to
investigate two of the threats.” The OIG found that in
reviewing these threats, ATF had not followed its
internal procedures for assessing and responding to
threats against agents.
The 2008 OIG Report particularly focused on ATF’s
decision, in September of 2004, to relocate Agent
Dobyns and his family to Santa Maria, California. The
Report found that due to a series of miscommunications among ATF personnel responsible for the transfer,
the decision was handled as a standard change of duty
station rather than an emergency relocation. As a
result, Agent Dobyns and his family were not provided
with the proper support and resources needed to
protect their identities and location. The 2008 OIG
Report indicated that upon receipt of another threat,
ATF became aware that the Dobyns’ relocation to
Santa Maria had been mishandled. As a result, ATF
relocated Agent Dobyns and his family to Los Angeles,
with the appropriate safeguards in place.
(2) 2012 IAD Report on House Fire
In April of 2012, IAD initiated a formal investigation
regarding multiple complaints from Agent Dobyns
concerning ATF’s response to the fire at his residence
and subsequent follow-up. The investigation was initiated by Julie Torres, the Assistant Director of IAD. On
October 11, 2012, IAD completed Report of Investigation
No. 20120079. The report was submitted by Agent
Christopher J. Trainor, reviewed by SAC John F. Ryan
and eventually approved by Assistant Director Torres.
Agent Trainor’s work in completing this report was
exhaustive, and entailed interviewing a number of
witnesses; reviewing depositions; checking for compliance with ATF Orders; scrutinizing documents, files
and logs available through the N-Force case management

56a
system; and reviewing various other internal ATF
memoranda.
IAD made several findings regarding the mismanagement of the response to the fire and the subsequent
investigation thereof. IAD concluded that the leadership of the Phoenix Field Division, including SAC
Newell, ASAC Gillett and Agent Higman delayed ATF’s
response at the residence of Agent Dobyns in ways
that harmed the subsequent investigation. IAD found
that these individuals failed properly to staff the
investigation of the fire and failed, in particular, to
protect the fire scene and secure evidence available at
the scene. IAD also faulted SAC Newell, ASAC Gillett
and Agent Higman for their poor coordination of the
investigation, including the failure to assign a supervisor at the scene to coordinate ATF’s response.27
IAD further concluded that SAC Newell, ASAC
Gillett and Agent Higman targeted Agent Dobyns as a
suspect in the arson of his home, even after highlyrespected agents within the Phoenix Field Office had
concluded otherwise based on interviews and evidence
found at the scene of the fire. IAD found that this
conduct led investigators to ignore credible suspects.
IAD also found that, during this time, two recordings
of Agent Dobyns’ phone calls were made without his
knowledge or consent, and that proper authorization
for the use of that surveillance was not obtained from
ATF Headquarters or from the U.S. Attorney’s Office
for the District of Arizona. See ATF Order 3530.2 and
ATF Brief 3100.05. This use of electronic surveillance,
27

The IAD report rejected, as untenable, several of the excuses
Agent Higman gave as to why the Tucson Field Office did not
respond sooner to the fire, including the claim that another office
was responsible for the investigation and that ATF did not have
jurisdiction over the investigation.

57a
IAD determined, was not documented in the fashion
required by various ATF orders, and the surveillance
evidence so produced was not stored in the Field
Office’s evidence vault, as required by ATF Orders.28
IAD, moreover, found that ASAC Gillett and Agent
Higman instituted a system to report investigative
activity regarding the fire that violated ATF policy and
took steps to prevent the full and accurate briefing
of information and investigative activities to their
superiors, including SAC Newell and the Director and
Deputy Director of ATF.29 The IAD report further
found that Agent Higman provided a briefing to the
FBI (when the latter took over the investigation from
ATF) that included false information and portrayed
Agent Dobyns as ATF’s lead suspect in the fire – even
though Agents Hildick and Moreland had eliminated
28

The IAD report revealed that on August 21, 2008, Agent
Higman falsely advised Agents Bayer and Maynard that he had
received authorization from ASAC Gillett to record Agent Dobyns
without his consent. The report further noted that the recordings
were not provided by DOJ attorneys in response to plaintiff’s
discovery requests in this case because the recordings were not
properly stored.
29

As discussed above, part of the ad hoc system adopted by
ASAC Gillett and Agent Higman to report case activity was the
generation of “white papers” written in the form of Word
documents, rather than as ATF Reports of Investigation (ROIs)
on ATF Form 3120.2, as required by ATF Order 3270.10C. IAD
found that the “white papers” were used to restrict access to case
information within N-Force, preventing ATF management from
obtaining accurate and timely information on the status of the
investigation. Among those locked out of the investigation by this
process was Agent Hildick, who wrote the Cause and Origin
report for the fire at the Dobyns’ house. The IAD report found
that SAC Newell failed to ensure that personnel within the
Phoenix Field Division utilized N-Force to report investigative
activity.

58a
Agent Dobyns as a suspect based on their interviews
with him and his family and their review of the
evidence at the scene.
On October 29, 2012, ATF’s Professional Review
Board (PRB) considered Report of Investigation No.
20120079, in determining whether disciplinary charges
against ASAC Gillett and SAC Newell should be proposed. On November 30, 2012, the PRB, after reviewing,
inter alia, a variety of documents, issued a memorandum to ASAC Gillett, in which it concluded that he had
impeded the Dobyns arson investigation by “agreeing
to circumvent required reporting in N-Force, marking
the N-Force case file as 6(e) when no grand jury
information existed, and agreeing to withhold information in briefings to Phoenix Field Division and ATF
Headquarters (HQ) supervisory personnel.” The PRB
further concluded that ASAC Gillett displayed “poor
judgment” by: (i) withholding information from senior
ATF officials about Agent Dobyns’ status as a suspect
and about the secretly recorded phone calls with Agent
Dobyns; (ii) instructing investigators to violate ATF
procedures for documenting investigation results; and
(iii) continuing to target Agent Dobyns in the arson
investigation long after he should have been eliminated as a suspect. Based on those conclusions, the
PRB proposed that ASAC Gillett be removed from his
position and from Federal service.
On November 30, 2012, the PRB issued a similar
memorandum to SAC Newell. The PRB concluded that
SAC Newell displayed poor judgment by: (i) failing to
respond promptly to the crime scene on the day of the
fire; and (ii) restricting access to the arson investigation records when he allowed the case to be improperly
designated as involving confidential grand jury 6(e)

59a
information. The PRB proposed that he also be removed
from his position and from Federal service.
The PRB memoranda allowed ASAC Gillett and
SAC Newell to respond to these notices. ASAC Gillett
did not respond to this notice, allegedly because he had
already submitted his request to retire from ATF.
While it is unclear how senior ATF officials responded
to the memorandum involving SAC Newell, it appears
that at least one of the charges involving SAC Newell
was sustained, and others were not.30 At all events,
SAC Newell was allowed to remain at ATF, albeit with
a different position.
(3) 2013 IAD Report on Loss of Backstopping
In 2012, IAD initiated an internal investigation
regarding complaints made by Agent Dobyns relating
to the withdrawal of the fictitious undercover identification issued to him and his family. On May 13, 2013,
IAD completed Report of Investigation No. 20130060.
The report was submitted by Agent Trainor, reviewed
by SAC Gwen A. Golden, and eventually approved by
Michael P. Gleysteen, an Assistant Director of OPRSO.
The IAD report primarily focused on the actions of
three individuals: Chief Vidoli, SAC Newell and former
NIBIN Chief Pugmire. In drafting the report, Agent
Trainor drew on various materials, including the 2008
OIG Report, as well as internal ATF documents relating to threats to Agent Dobyns and his family.
The IAD report made several key findings about
ATF’s withdrawal of backstopping for Agent Dobyns
and his family. It summarized the prior threats that
30

Agent Trainor testified that he complained to his supervisors
regarding how the charges against SAC Newell were being
handled. He further testified that the “timing” of the resolution
of the charges against SAC Newell “was suspect.”

60a
had been made against Agent Dobyns, including those
that had occurred between 2003 and 2006. The report
described the 2003 issuance of backstopped fictitious
identification to Agent Dobyns and his family by ATF’s
Undercover Branch, and the other steps taken to
provide security for the Dobyns family. The report
detailed ATF’s failure to properly institute the 2004
“emergency relocation” of Agent Dobyns and his family
– a relocation in which, inexplicably, no backstopping
was provided.31 The IAD report quoted from the June
22, 2007, OPSEC Threat Assessment for Agent Dobyns,
which recommended “permanent relocation out of the
western region with full backstopping.”
The report closely examined the actions taken by
Chief Vidoli, former NIBIN Chief Pugmire and SAC
Newell relating to the withdrawal of the fictitious
identification that had previously been issued to
Agent Dobyns and his family. The report highlighted
requests made by SAC Newell and others seeking the
withdrawal, and it documented that these requests
were based, at least in part, on the mistaken assumption either that Agent Dobyns had improperly used his
identification or that all or some of the backstopping
in question was no longer needed. It further emphasized that the withdrawal of identification demanded
by Chief Vidoli was unprecedented – that this was the
only instance in which Chief Vidoli ever withdrew
backstopping issued to an ATF employee. In sum, the
IAD Investigation found no valid reason for the
withdrawal of the fictitious identification previously
issued to the Dobyns family.

31

Agent Dobyns complained about problems with this relocation in his EEO complaint.

61a
In general, the IAD investigation revealed that
information available to Chief Vidoli confirmed that
threats against the Dobyns family had been substantiated and were extant, the evidence of which included
a copy of the June 2007 threat assessment that Chief
Walck provided to IAD. Indeed, the central conclusion
of the report was that Chief Vidoli, NIBIN Chief
Pugmire and SAC Newell ignored information about
threats to Agent Dobyns and his family in deciding to
remove the fictitious identification. And the report
underscored that the removal of fictitious identification put Agent Dobyns and his family at risk.
H. The Book
From 2004 through 2010, W. Larry Ford served as
the Assistant Director in ATF’s Office of Strategic
Intelligence and Information. In that role, Assistant
Director Ford was responsible for educating the public,
Congress and the media regarding ATF programs,
goals, objectives and missions. Pursuant to ATF Order
9000.1A, Assistant Director Ford also was responsible
for reviewing and, in conjunction with ATF’s Office of
Chief Counsel, determining the propriety of allowing
an ATF employee to publish material related to his or
her employment with the agency. ATF Order 9000.1A
provided that no ATF employee may publish books or
articles based upon information obtained as an employee
of ATF unless that employee obtains authorization
from the Assistant Director and the Office of Chief
Counsel. The pre-publication submission requirement
was meant to assist ATF in protecting classified, sensitive or otherwise protected information from being
released to the public by ATF agents or other employees.
On June 9, 2006, Agent Dobyns executed a contract
with Fox 2000 Pictures (Fox) concerning rights to his
“life story.” On that same day, Agent Dobyns entered

62a
into a second contract with Fox, in which he “agreed
to render consultant services in connection with the
development and possible production of the theatrical
motion picture entitled ‘Hell’s Angel.’” In February of
2007, then ATF Deputy Director Edgar Domenech heard
rumors that plaintiff was writing a book; Deputy
Director Domenech heard additional rumors about the
book in March of 2007.32 There is no indication that
Deputy Director Domenech took any steps to prevent
the publication of the book.
As previously noted, on or about May 1, 2007, Agent
Sullivan learned about the book’s existence from the
Internet and contacted Crown/Random House vicepresident Richard Horgan, seeking information about
plaintiff’s possible participation in a book project. On
May 4, 2007, Mr. Horgan wrote an email to Agent
Sullivan, in which he advised –
[W]e’re glad to have the chance to publish the
book you heard about, which will focus on the
community of outlaw bikers and ATF’s efforts
to rein in their criminal activity. We have no
set title or pub date and would encourage you
to ask Jay Dobyns himself about the project
as it develops.
As also previously noted, Agent Sullivan immediately
notified his superior, Chief Walck, as well as another
Agent Conley.33 Chief Walck also notified James
Rosebrock, the Chief of the Security Emergency
32

Ronald Carter replaced Domenech as Deputy Director of
ATF, effective February 15, 2007. At that time, SAC Domenech
became the new head of ATF’s Washington Field Office.
33

At trial, Agent Sullivan testified that Chief Walck told him
that there was “no reason for [him] to contact Jay Dobyns for any
further information” regarding the book.

63a
Program Division (a subset of OPRSO), about the
email and the book. On May 18, 2007, Agent Dobyns
executed a contract with The Crown Publishing
Group, a division of Random House, concerning a book
provisionally titled “Almost Angels.”
On June 23, 2008, InkWell Management LLC and
Agent Dobyns executed an agency agreement. Between
September 15, 2008, and October 6, 2008, Agent Dobyns
executed three other agreements regarding the Spanish,
English and Swedish language versions of No Angel,
The True Story of the First Cop to Infiltrate the Hells
Angels. In December of 2008, Agent Dobyns executed
a similar agreement for the Dutch edition of the book.
On December 4, 2008, Chief Rowley wrote Agent
Dobyns, requesting information about the publication
of No Angel. The memorandum cited the regulations
in 5 C.F.R. § 2635.807, governing the restrictions on
when and how an employee may receive compensation
for teaching, speaking or writing. On February 6,
2009, Chief Rowley requested additional information
about the book, noting, inter alia, that the book’s cover
displayed Agent Dobyns’ title, as an ATF Special
Agent. Chief Rowley directed Agent Dobyns to take
the following actions: (i) submit an outside employment request to the Chief of the NIBIN Branch, with
a copy of the most recent manuscript; (ii) remove the
subtitle “ATF Special Agent” from the cover of the
book; and (iii) inform the publisher, agents and others
involved with the book that Federal employees are
prohibited from using their title for the promotion of
teaching, speaking and writing engagements, and that
this prohibition applies to Agent Dobyns.
On February 10, 2009, the book No Angel: My
Harrowing Undercover Journey to the Inner Circle of
the Hells Angels by Jay Dobyns and Nils Johnson-

64a
Shelton was released for sale to the public. The
original version of the book’s cover included Agent
Dobyns’ title. On February 18, 2009, Agent Dobyns
submitted to Chief Rowley the information that the
latter had requested, including a request for outside
employment and an electronic copy of the most recent
version of the manuscript. Subsequently, over the next
year and a half, Agent Dobyns executed various
outside agreements regarding the publication of No
Angel in various other languages.
I. Credibility Findings
A few words are in order regarding the credibility
determinations that underlie some of the foregoing
findings. In particular, the court finds significant
portions of the testimony of two witnesses – Agent
Charles Higman and ASAC George Gillett – unworthy
of belief.
Agent Higman wove a remarkable tapestry of fiction
concerning his response to the fire and the investigation that followed. Contrary to the testimony of nearly
every witness at trial, as well as numerous investigative reports, Agent Higman testified that he sent ATF
agents to the scene of the fire on the day it happened.
Further, at trial, Agent Higman expressed doubt that
Agent Dobyns and Agent Celaya had a history of
conflict – before he was reminded that the two agents
had a history of “bad blood.” Based on this testimony,
the court found incredible Agent Higman’s claims that
he did not know, at the time of the fire, that Agent
Celaya was an unlikely candidate to respond to the
fire scene. Likewise, when asked whether he ever
considered Agent Dobyns to be an arson suspect,
Agent Higman testified flatly, “[n]ever” – even though
Agent Higman later acknowledged that he directed
two ATF agents to tape record conversations with

65a
Agent Dobyns without his knowledge. Ultimately,
Agent Higman admitted that he viewed Agent Dobyns
as a potential suspect – “[h]e, along with everyone
else.” Agent Higman also provided incredible testimony regarding who authorized the taping of Agent
Dobyns – first indicating that authorization was not
required and then testifying that he had received authorization to make the recordings from ASAC Gillett.
In the court’s view, Agent Higman also exhibited his
lack of candor in asserting that his use of the phraseology “slow roll” – which other agents described as Agent
Higman’s way of indicating that the fire investigation
should be dragged out and not be handled by ATF –
was instead an indication that the investigation was
to be deliberate. The court also failed to credit Agent
Higman’s testimony that he believed that ATF lacked
the jurisdiction to investigate the fire as a threat to
one of its agents (even though ATF plainly has the
jurisdiction to investigate arsons). And the court found
thoroughly unbelievable Agent Higman’s excuses as
to why the files for the arson investigation were not
included in the N-Force filing system. As his testimony
progressed, Agent Higman was, time and again, contradicted not only by his own sworn testimony – given
at trial and in prior depositions – but by that of other
ATF witnesses. Based on the roll and surge of this
contrary evidence, and for other reasons (including his
general demeanor and nonresponsiveness to questions),
the court concluded that Agent Higman’s testimony
lacked credibility.
ASAC Gillett’s testimony likewise posed serious
credibility issues. Like Agent Higman, ASAC Gillett
professed the belief that he did not view Agent Dobyns
as a suspect – even though every indication was that
he did. Indeed, there is strong indication that ASAC

66a
Gillett either approved the surreptitious taping of
Agent Dobyns or at least tacitly approved the same.
In addition, ASAC Gillett’s claims that he had good
reasons to deviate from the normal ATF protocols
for managing files and evidence associated with the
arson have a decidedly hollow ring. Yet, more so than
Agent Higman, it appears that ASAC Gillett purposely
attempted to shield critical investigative information
from senior ATF officials and did so, knowing full well
that he was not complying with the procedures used
for filing information in the N-Force system.34 Highly
damaging to ASAC Gillett’s credibility is also the
fact that he lied in denying to Agent Hildick and other
agents that he viewed Agent Hildick’s Cause and
Origin Report (regarding the fire) as being “unpopular.”
Finally, it should not be overlooked that ASAC Gillett’s
testimony was repeatedly contradicted by other witnesses and his prior depositions.35
34

Various emails in the record plainly demonstrate that ASAC
Gillett failed to tell the truth when he testified that he had not
prevented senior ATF officials from learning critical details about
the arson investigation. Contrary to this evidence, ASAC Gillett
testified at trial:
Q: Did you ever withhold information that your
supervisors needed to know concerning the fire
investigation?
A: No, sir, I never physically did, actually did that.
Q: Did you ever withhold information that your
supervisors requested from you with regard to the fire
investigation?
A: No, sir. Never.
35

It should be noted that ASAC Gillett initially refused to
comply with subpoenas to testify at the trial in this case –
essentially secreting himself in Tennessee to avoid service of
those subpoenas. While ASAC Gillett’s attorney eventually agreed
to have his client comply with the subpoenas, he did so only after

67a
On the other hand, the court attaches considerable
weight to the testimony of Agent Trainor, who authored
the 2012 and 2013 IAD reports. This point warrants
particular attention. At the outset, it is conspicuous
that the Justice Department attorneys in this case
strenuously attempted to impeach Agent Trainor’s
testimony – an odd tactical decision to say the least.
More importantly though, there is every indication
that Agent Trainor’s reports were thorough, welldocumented and accurately reflected the substance of
the more than 4,000 pages of documents, electronic
messages, depositions and notes of interview that he
reviewed and summarized in his two reports. Those
reports, indeed, corroborate hundreds of critical facts
that are otherwise reflected by the testimony and
documents in the record. In general, the court was
impressed with Agent Trainor’s testimony – his
capabilities, knowledge of the subject matter of the
investigations, general integrity and willingness to
respond to the court’s questions.
J. Procedural History
The complaint in this case originally was filed on
October 2, 2008, and later amended. On January 15,
2010, this court granted, in part, and denied, in part,
defendant’s motion to dismiss the complaint for lack of
jurisdiction and for failure to state a claim under
the court threatened to find his client in civil contempt and to
have the U.S. Marshal in Tucson effectuate a writ of body
attachment (a civil writ ordering the seizure of a person). See
http://www.usmarshals.gov/process/body-attachment.htm (discussing this process); see also Armstrong v. Squatrito, 152 F.3d
564, 574 (7th Cir. 1998) (body attachment writ for contempt
constitutes civil warrant); Greater St. Louis Constr. Laborers
Welfare Fund v. Town & Country Masonry & Tuckpointing, LLC,
2013 WL 5346645, at *1 (E.D. Mo. Sept. 27, 2013).

68a
RCFC 12(b)(6). Dobyns v. United States, 91 Fed. Cl.
412 (2010) (Dobyns I). On October 1, 2012, the court
denied the parties’ cross-motions for summary judgment, holding that issues of material fact existed as
to a number of questions underlying the claims and
counterclaim. See Dobyns v. United States, 106 Fed.
Cl. 748 (2012) (Dobyns II).
Trial in this case commenced in Tucson, Arizona,
from June 10, 2013, through June 21, 2013; trial continued in Washington, D.C., on July 22, 2013, through
July 26, 2013. All told, the court heard testimony of
twenty-nine witnesses, including a number of ATF
supervisors and other ATF agents. In addition, the
court heard expert testimony from Dr. Todd Linaman,
who served as Agent Dobyns’ psychologist.36 On February
18, 2014, closing arguments in the case were held in
Tucson, Arizona.
II. DISCUSSION
As should be obvious at this point, this is not your
typical contract case. While there are some indications
otherwise, in the main, this is also not a story of conspiracies, plots of downfall, or midnight interludes – at
least provable ones. Nor of demonstrated bad faith,
designed to injure, at least in the traditional legal
sense. No, this is a story of organizational weaknesses,
the inability of agency officials to supervise and control, and of demonstrated misfeasance – all rooted in
the sorry failure of some ATF officials to abide with
the spirit of a contract that was designed to protect one
36

Plaintiff also attempted to admit, as an expert witness, Dr.
Edward Ackerley, as a specialist in marketing, accounting and
advertising. However, plaintiff ultimately was forced to withdraw
this witness because his expert report did not comply with the
requirements of RCFC 26(a).

69a
of their own. As the statement of facts above reveals,
the story of how Agent Dobyns was treated is neither
entertaining nor an easy read. But, to understand
what follows, the entire story – including the legal
conclusions that flow therefrom – must be understood.
What follows is the court’s consideration of the claims
made by plaintiff and defendant, beginning with plaintiff’s claim that ATF breached the Settlement Agreement.
A. Breach of Contract
We begin with common ground. A breach of contract
claim requires: (i) a valid contract between the parties;
(ii) an obligation or duty arising out of that contract;
(iii) a breach of that duty; and (iv) damages caused by
the breach. See Bell/Heery v. United States, 739 F.3d
1324, 1330-31 (Fed. Cir. 2014); Hercules, Inc. v. United
States, 24 F.3d 188, 198 (Fed. Cir. 1994); San Carlos
Irr. & Drainage Dist. v. United States, 877 F.2d 957,
959 (Fed. Cir. 1989). A breach arises when a party
fails to perform a contractual duty when it is due.
See Winstar Corp. v. United States, 64 F.3d 1531,
1545 (Fed. Cir. 1995) (citing Restatement (Second)
of Contracts § 235(2) (1981)); Eden Isle Marina, Inc. v.
United States, 113 Fed. Cl. 372, 492 (2013). Here,
plaintiff claims that defendant failed to meet its obligations under the Settlement Agreement. Plaintiff bears
the burden of establishing that breach by a preponderance of the evidence. Gibson v. Dep’t of Veteran Affairs,
160 F.3d 722, 728 (Fed. Cir. 1998); Tech. Assistance
Int’l, Inc. v. United States, 150 F.3d 1369, 1373 (Fed.
Cir. 1998).
To determine whether plaintiff’s contractual rights
were breached, the court must first determine what
those rights were. San Carlos Irr., 877 F.2d at 959; Alli
v. United States, 83 Fed. Cl. 250, 269 (2008); Cuyahoga

70a
Metro. Hous. Auth. v. United States, 57 Fed. Cl. 751,
759 (2003). “Contract interpretation begins with the
language of the written agreement.” Coast Fed. Bank,
FSB v. United States, 323 F.3d 1035, 1038 (Fed. Cir.
2003); see also Bell/Heery, 739 F.3d at 1331; Foley Co.
v. United States, 11 F.3d 1032, 1034 (Fed. Cir. 1993).
When interpreting a contract, “if the ‘provisions are
clear and unambiguous, they must be given their
plain and ordinary meaning.’” McAbee Constr., Inc. v.
United States, 97 F.3d 1431, 1435 (Fed. Cir. 1996)
(quoting Alaska Lumber & Pulp Co. Inc. v. Madigan,
2 F.3d 389, 392 (Fed. Cir. 1993)). On the other hand,
extrinsic evidence may be considered where a contract
is ambiguous – that is, “if its language is susceptible
to more than one reasonable interpretation.” Ace
Constructors, Inc. v. United States, 499 F.3d 1357,
1361 (Fed. Cir. 2007); see also TEG-Paradigm Envtl.,
Inc. v. United States, 465 F.3d 1329, 1338 (Fed. Cir.
2006). At all events, a contract must also be construed
as a whole and “in a manner that gives meaning to all
of its provisions and makes sense.” McAbee Constr., 97
F.3d at 1435 (citing Hughes Commc’ns Galaxy, Inc. v.
United States, 998 F.2d 953, 958 (Fed. Cir. 1993)); see
also Shell Oil Co. v. United States, 751 F.3d 1282, 1293
(Fed. Cir. 2014).
Because the Settlement Agreement continues in
effect, this necessarily is a suit for a partial breach of
contract. “If the injured party elects to or is required
to await the balance of the other party’s performance
under the contract, his claim is said . . . to be one for
damages for partial breach [rather than for a total
breach].” Restatement (Second) of Contracts § 236
cmt. b (1981); see also Ind. Mich. Power Co. v. United
States, 422 F.3d 1369, 1374 (Fed. Cir. 2005) (applying
Restatement (Second) of Contracts § 236). In essence,
“[a] partial breach is ‘[a] claim for damages . . . based

71a
on only part of the injured party’s remaining rights to
performance.’” Ind. Mich., 422 F.3d at 1374 (quoting
Restatement (Second) of Contracts § 236(2)). “[W]here
there has been no repudiation [e.g., no total breach],
the plaintiff can recover damages for his injury only to
the date of the writ. . . . [H]e must treat the breach
as only ‘partial.’” 10 Arthur L. Corbin, Corbin on
Contracts § 956 (interim ed. 2007).
The parties do not dispute that the Settlement
Agreement is a valid contract, but they interpret differently the obligations or duties that arise therefrom.
The focal point of plaintiff’s breach argument is paragraph 10 of the Settlement Agreement, which states:
This Agreement does not constitute an admission by the Agency or Employee of any
violation of law, rule or regulation or wrongful acts or omissions. The Agency agrees that
it will comply with all laws regarding or
otherwise affecting the Employee’s employment by the Agency.
(Emphasis added.) The parties vigorously contest the
meaning of this bolded language. Plaintiff contends
that this language should be construed broadly to
include not only rules and regulations affecting his
employment, but also ATF Orders. And plaintiff contends
that the ATF Orders affecting his employment were
violated by ATF officials. Defendant, for its part,
asserts that no laws regarding, or otherwise affecting,
Agent Dobyns’ employment were violated.
Plaintiff’s banner argument is that the words “all
laws,” as used in the second sentence of paragraph 10,
encompass rules, regulations and ATF Orders. He
contends this is true, even though the word “law,” as
used in the first sentence of this paragraph, does not

72a
appear to encompass “rule or regulation,” as that
phrase is separately enumerated. Consistent usage
suggests that plaintiff’s claim is in error, as adoption
of his view would render the phrase “rule or regulation,” as used in the first sentence of paragraph 10,
mere surplusage, contrary to the normal rules of contract interpretation.37 Similar construction principles
likewise require that the phrase “law” or “laws” be
given the same meaning in the same paragraph (i.e.,
the two sentences in paragraph 10 of the Settlement
Agreement). See Monarch Fire Prot. Dist. of St. Louis
Cnty. Mo. v. Freedom Consulting & Auditing Servs.,
Inc., 644 F.3d 633, 638 (8th Cir. 2011); Md. Cas. Co. v.
W.R. Grace & Co., 128 F.3d 794, 799 (2d Cir. 1997);
Bill Call Ford, Inc. v. United States, 48 F.3d 201, 205
(6th Cir. 1995); In re Lehman Bros., Inc., 478 B.R. 570,
589 (Bankr. S.D.N.Y. 2012).38 It follows that, if the
37

See United Int’l Investigative Serv. v. United States, 109 F.3d
734, 737 (Fed. Cir. 1997); Granite Constr. Co. v. United States,
962 F.2d 998, 1003 (Fed. Cir. 1992), cert. denied, 506 U.S. 1048
(1995); Arizona v. United States, 575 F.2d 855, 863 (Ct. Cl. 1978)
(“[A]n interpretation which gives a reasonable meaning to all
parts will be preferred to one which leaves a portion of it useless,
inexplicable, inoperative, void, insignificant, meaningless, superfluous, or achieves a weird and whimsical result.”); Spectrum
Sciences & Software v. United States, 84 Fed. Cl. 716, 735 (2008)
(same); Franconia Assocs. v. United States, 61 Fed. Cl. 718, 730
(2004) (same); see also 11 Richard A. Lord, Williston on Contracts
§ 32:5 at 420 (4th ed. 1999). Canons of statutory construction
would yield a similar result. See Utility Air Regulatory Grp. v.
EPA, 134 S. Ct. 2427, 2441 (2014); Gustafson v. Alloyd Co., 513
U.S. 561, 570 (1995) (“the normal rule of statutory construction
[is] that identical words used in different parts of the same act
are intended to have the same meaning”).
38

See also South Rd. Assocs., LLC v. Intern. Bus. Mach. Corp.,
826 N.E 2d 806, 809-10 (N.Y. 2005); State ex rel. Goddard v. R.J.
Reynolds Tobacco Co., 75 P.3d 1075, 1079-80 (Ariz. App. 2003);
Triangle Constr., Div. of Bentley-Dille Grandall Rentals, Inc. v.

73a
word “law” does not encompass the phrase “rule or
regulation” in the first sentence of paragraph 10, the
same should hold true in the second sentence thereof.
See Monarch Fire Prot. Dist., 644 F.3d at 639-40; Md.
Cas., 128 F.3d at 799; Bill Call Ford, 48 F.3d at 205;
In re Lehman Bros., 478 B.R. at 589.
Of course, identical words can have different meanings when the subject matter or contexts to which they
refer is dissimilar. See Mohamad v. Rajoub, 634 F.3d
604, 608 (D.C. Cir. 2011), aff’d, Mohamad v. Palestinian
Auth., 132 S. Ct. 1702 (2012); Macheca Transp. Co. v.
Philadelphia Indem. Co., 463 F.3d 827, 832 (8th Cir.
2006); Wood v. Dennis, 489 F.2d 849, 853 (7th Cir. 1973),
cert. denied, 415 U.S. 960 (1974); see also Atl. Cleaners
& Dyers v. United States, 286 U.S. 427, 433 (1932).
Here, however, the context is the same – suggesting
that the disparate word choices in the first two
sentences of paragraph 10 were intentional.39 At trial,
plaintiff had the opportunity to demonstrate, via parol
evidence, that the same words here could, indeed, have
different meanings. But, he was unsuccessful in doing
so. Based upon the record as a whole, plaintiff failed
to provide any evidence suggesting that the word “law”

City of Phoenix, 720 P.2d 87, 91 (Ariz. App. 1985) (the “only
reasonable construction” of a contract is that a term “has the
same meaning throughout the paragraph”). The same rule, of
course, applies to the construction of statutory provisions.
39

See Larson v. Nationwide Agribusiness Ins. Co., 739 F.3d
1143, 1148 (8th Cir. 2014); AT&T Comm’ns of Cal., Inc. v. PacWest Telecomms., Inc., 651 F.3d 980, 992 (9th Cir. 2011); Ethicon
Endo-Surgery, Inc. v. U.S. Surgical Corp., 93 F.3d 1572, 1579
(Fed. Cir. 1996); see also States Roofing Corp. v. Winter, 587 F.3d
1364, 1370 (Fed. Cir. 2009).

74a
had a different meaning in the second sentence of the
Settlement Agreement than in the first.40
Nor, contrary to plaintiff’s claims, does the court
believe that the Settlement Agreement somehow otherwise incorporated various ATF Orders in question. For
the reasons stated above, there is no indication that
the ATF orders were included as “laws regarding or
otherwise affecting the Employee’s employment.” Like
a statute, a contract may, of course, incorporate, by
reference, various laws, regulations, rules and orders.
See Hercules, Inc. v. United States, 626 F.2d 832, 838
(Ct. Cl. 1980); Earman v. United States, 114 Fed. Cl.
81, 103-04 (2013); see also Mobil Oil Exploration &
Producing Se., Inc. v. United States, 530 U.S. 604, 616
(2000). But, on this count, the Federal Circuit has
indicated that “language used in a contract to incorporate extrinsic material by reference must explicitly, or
at least precisely, identify the written material being
incorporated and must clearly communicate that the
purpose of the reference is to incorporate the referenced material into the contract.” Northrop Grumman
Info. Tech., Inc. v. United States, 535 F.3d 1339, 1345
(Fed. Cir. 2008); see also Lakeshore Eng’g Servs. v.
United States, 748 F.3d 1341, 1347 (Fed. Cir. 2014);
40

Plaintiff notes that in denying, in part, defendant’s motion
to dismiss, this court determined that the language of the
Settlement Agreement was somewhat ambiguous. See Dobyns I,
91 Fed. Cl. at 420. But, this ruling primarily related to the court’s
jurisdiction and certainly did not preclude the court from
determining that the language in question could be construed in
the fashion defendant ultimately argued.
Plaintiff’s main premise at trial was that the ATF Orders were
“laws” because ATF employees are required to follow them and
could be sanctioned if they failed to do so. But, as with the
familiar dislogic involving Greeks and Spartans, the first of these
propositions does not follow from the second.

75a
Precision Pine & Timber Inc. v. United States, 596
F.3d 817, 826 (Fed. Cir. 2010), cert. denied, 131 S. Ct.
997 (2011); TEG-Paradigm Envtl., 465 F.3d at 1339;
Lab. Corp. of Am. v. United States, 108 Fed. Cl. 549,
564 (2012). And there is no indication that this
standard for incorporation was remotely met here.
The sort of wholesale incorporation plaintiff desires
would entail a tall order – as it would require the court
to conclude that no less than a dozen ATF Orders
were incorporated, sub silentio, into the Settlement
Agreement. Those orders are summarized in the chart
below.41 As can be seen, these orders do not deal
41

As can be seen, these orders cover a variety of operational
security issues, as well as various procedures governing ATF’s
use of investigative techniques:
ATF Order
3000.1E

3040.1

3040.1A

3040.2

3040.2A

Title
Criminal
Enforcement
General
Information

Purpose
States ATF enforcement authority; organizational structure;
functions of various parts;
standards for agent conduct

Operations
Establishes OPSEC
Security (OPSEC) methods, strategies
Program

goals,

Operations
Outlines Analytical Risk ManSecurity Program agement process assessing
threats, identifying vulnerabilities and countermeasures
Operations
Security –
Threat Program

Outlines the program to
evaluate, assess and recommend countermeasures to
ensure the safety and security
of ATF employees once a threat
has been identified

Operations
Security –
Threat Policy

Outlines the program to
evaluate, assess and recommend countermeasures to

76a

ensure the safety and security
of ATF employees once a threat
has been identified
3111.1

Use of N-Force

Sets forth policy and responsibilities regarding the entry,
review and maintenance of
records created in N-Force

3210.7C

Investigative
Priorities,
Procedures, and
Techniques

Contains policy and instructions relating to investigative
guidelines, priorities, techniques, and aids

3254.1A

Victim And
Witness
Assistance
Programs

Outlines the various services/
requirements ATF provides to
victims

Electronic
Communications
and Surveillance

Contains policies, procedures,
laws, and technology regarding
electronic surveillance approval
and reporting requirements
governing intercepting, monitoring,
and/or
recording
telephone and other communications

3264.1

3270.10C

Law Enforcement Contains policies and instrucInvestigative
tions relating to ATF law
Reports
enforcement
investigative
reports, including N-Force

3400.1B

Property Taken
Into Bureau
Custody

Prescribes procedures governing
the reporting and controlling of
property, including electronic
surveillance evidence, taken
into ATF custody

Electronic
Surveillance

Prescribes the procedures
governing the interception,
monitoring, and/or recording of
telephone and other communications

3530.2

77a
expressly or even tangentially with employment matters,
but instead deal with issues involving security, investigative guidelines (e.g., the use of electronic surveillance),
and other operational issues. Despite plaintiff’s efforts
to demonstrate otherwise, the court simply cannot
conclude that when the Settlement Agreement required
compliance with “all laws regarding or otherwise
affecting the Employee’s employment by the Agency,”
it meant to refer to – and incorporate – all these
sundry provisions. And that conclusion is fatal to
plaintiff’s breach claim.
Based upon the foregoing, the court finds that the
second sentence of paragraph 10 of the Settlement
Agreement was not breached by defendant, as no
statutory provision or other provision of law relating
to plaintiff’s employment was violated here.
B. Covenant of Good Faith and Fair Dealing
That said, plaintiff asserts that defendant is still
liable here, albeit under a different theory, to wit, that
the conduct of ATF officials and other employees
grossly breached the covenant of good faith and fair
dealing associated with the Settlement Agreement.
As will be seen, plaintiff is right. As will be described
in detail, there is clear indication that certain ATF
officials violated the covenant literally within weeks
after the execution of the Settlement Agreement and
that they and other ATF employees continued to
violate the covenant in the years that followed.
(1) Legal Framework
“Every contract implicitly contains a covenant of
good faith and fair dealing, keyed to the obligations
and opportunities established in the contract.” Lakeshore
Eng’g, 748 F.3d at 1349; see also Metcalf Constr. Co.,
Inc. v. United States, 742 F.3d 984, 990-92 (Fed. Cir.

78a
2014); First Nationwide Bank v. United States, 431
F.3d 1342, 1349 (Fed. Cir. 2005).42 The covenant
imposes on each party a “duty not to interfere with the
other party’s performance and not to act so as to
destroy the reasonable expectations of the other party
regarding the fruits of the contract.” Centex Corp. v.
United States, 395 F.3d 1283, 1304 (Fed. Cir. 2005);
see also Lakeshore Eng’g, 748 F.3d at 1349; Pew Forest
Prods., Inc. v. United States, 105 Fed. Cl. 59, 66 (2012);
Dobyns I, 91 Fed. Cl. at 421. “The United States, no
less than any other party, is subject to this covenant.”
Precision Pine & Timber, 596 F.3d at 828; see also First
Nationwide Bank, 431 F.3d at 1349. “[A] breach of the
good faith covenant can be established by a showing
that defendant ‘specifically designed to reappropriate
the benefits [that] the other party expected to obtain
from the transaction, thereby abrogating the government’s obligations under the contract.’” Lakeshore
Eng’g, 110 Fed. Cl. at 240 (quoting Precision Pine &
Timber, 596 F.3d at 829); see also Centex Corp., 395
F.3d at 1304.

42

Originally applied in late Nineteenth Century common law
contract cases, see, e.g., E. Allan Farnsworth, Farnsworth on
Contracts § 7.17 (2004), the covenant gained increased acceptance
upon the adoption of the Uniform Commercial Code in 1951.
U.C.C. § 1-201(b)(20). The covenant was then adopted by the
American Law Institute, as § 205 to the Restatement (Second) of
Contracts in 1979: “Duty of Good Faith and Fair Dealing. Every
contract imposes upon each party a duty of good faith and fair
dealing in its performance and execution.” The comments to § 205
refer to the definition of “good faith” in the Uniform Commercial
Code, which says, ‘“good faith’ means honesty in fact in the
conduct or transaction concerned.” See also Ophthalmic Surgeons,
Ltd. v. Paychex, Inc., 632 F.3d 31, 40 (1st Cir. 2011); Robert L.
Summers, “The General Duty of Good Faith – Its Recognition and
Conceptualization,” 67 Cornell L. Rev. 810 (1982).

79a
To be sure, the implied covenant of good faith and
fair dealing may not be used to craft a better deal than
the parties made for themselves – it does not create an
amorphous companion contract, with latent provisions
that modify the parties’ agreement. See Precision Pine
& Timber, 596 F.3d at 829; Lakeshore Eng’g, 110 Fed.
Cl. at 240. That said, the implied existence of the
covenant is testament to the fact that “[t]he law has
outgrown its primitive stage of formalism when the
precise word was the sovereign talisman, and every
slip was fatal.” Wood v. Lucy, Lady Duff-Gordon, 118
N.E. 214, 214 (N.Y. 1917) (Cardozo, J.); see also CFIP
Master Fund, Ltd. v. Citibank, N.A., 738 F. Supp. 2d
450, 467 (S.D.N.Y. 2010); 6 Corbin § 26:8; Williston,
§ 38:15. Insofar as contracts with the United States
are involved, the existence of the covenant ensures
that government officials cannot enter into a contract
in the morning that will be undercut by other of its
employees before nightfall. See Metcalf Constr. Co.,
742 F.3d at 994; Precision Pine & Timber, 596 F.3d at
829.
In determining whether the covenant has been
honored, defendant must be viewed in monolithic
terms – that is to say, that the actions of its employees,
as they relate to the performance of a given contract,
must be viewed in concert. Otherwise, an agency’s
ability to enter into contracts, including those designed
to settle disputes, and the efficacy of the agreements
so reached, is compromised. In this fashion, a breach
of the covenant of good faith and fair dealing can be
viewed as thwarting the ability of the Attorney General
to settle cases, as he is authorized to do by 28 U.S.C.
§§ 516 and 519. Northrop Grumman Computing Sys.,
Inc. v. United States, 101 Fed. Cl. 362, 363-64 (2011);
see also Sharman Co. v. United States, 2 F.3d 1564,
1567-68 (Fed. Cir. 1993), overruled on other grounds,

80a
Reflectone, Inc. v. Dalton, 60 F.3d 1572 (Fed. Cir.
1995). To conclude otherwise would be to give contracts entered into by the Attorney General (and
presumably also those entered into by the Director of
ATF) a decidedly hollow ring. See Applegate v. United
States, 52 Fed. Cl. 751, 757 (2002) (discussing the
Office of Legal Counsel, “The Attorney General’s Role
as Chief for the United States,” 6 U.S. Op. OLC 47, 5960 (1982)); Exec. Order No. 6166, June 10, 1933. In the
court’s view, all these principles, per force, must apply
to a settlement agreement of the sort at issue here. See
Struck Constr. Co. v. United States, 96 Ct. Cl. 186, 221
(1942); Cuyahoga Metro. Hous. Auth., 57 Fed. Cl. at
752.43
In Metcalf Construction, the Federal Circuit recently
provided useful guidance on how the covenant of good
faith and fair dealing ought to apply in government
contract cases. In that case, a construction contractor
sued the Navy under the Contract Disputes Act, 41
U.S.C.A. § 7101 et seq., alleging that it breached the
duty of good faith and fair dealing under a contract to
43

The notion that defendant’s obligations under the covenant
can apply collectively to multiple individuals is well-illustrated
by the Federal Circuit cases involving the retroactive legislation
passed by Congress and signed by the President to modify
benefits received by savings and loan institutions in the 1980s
(“the Guarini legislation”). In a series of cases, defendant was
viewed as having breached the covenant of good faith and fair
dealing when Congress and the President (the latter at the behest
of Executive Branch officials) pursued and eventually adopted
legislation that reneged on a series of obligations defendant owed
to banks and savings institutions. See Local Okla. Bank, N.A. v.
United States, 452 F.3d 1371, 1377 (Fed. Cir. 2006); First
Nationwide Bank, 431 F.3d at 1344-45; First Heights Bank, FSB
v. United States, 422 F.3d 1311, 1316 (Fed. Cir. 2005); Centex
Corp., 395 F.3d at 1311.

81a
design and build military housing. 742 F.3d at 987-88.
This court largely denied the plaintiff’s claims, asserting that a “breach of the duty of good faith and fair
dealing claim against the Government can only be
established by a showing that it ‘specifically designed
to reappropriate the benefits [that] the other party
expected to obtain from the transaction, thereby abrogating the government’s obligations under the contract.’”
Metcalf Constr. Co., Inc. v. United States, 102 Fed. Cl.
334, 346 (2011) (quoting Precision Pine & Timber, 596
F.3d at 829). It reached this decision based on a
narrow interpretation of the Federal Circuit’s decision
in Precision Pine – one that held that a breach of the
covenant occurred only where there was a violation of
the underlying express contract. Id.
The Federal Circuit reversed. To be sure, that court
reemphasized that the “implied duty of good faith and
fair dealing cannot expand a party’s contractual duties
beyond those in the express contract or create duties
inconsistent with the contract’s provisions.” Metcalf
Constr., 742 F.3d at 991 (quoting Precision Pine &
Timber, 596 F.3d at 831). “The implied duty of good
faith and fair dealing is limited by the original bargain,” the Federal Circuit instructed, as it “prevents a
party’s acts or omissions that, though not proscribed
by the contract expressly, are inconsistent with the
contract’s purpose and deprive the other party of
the contemplated value.” Metcalf Constr., 742 F.3d
at 991.44 That said, the Federal Circuit rejected
defendant’s “unduly narrow view of the duty of good
faith and fair dealing,” id. at 992, to wit, that an
implied duty could be breached only where the
44

See Precision Pine & Timber, 596 F.3d at 830; First
Nationwide Bank, 431 F.3d at 1350; see also Tymshare, Inc. v.
Covell, 727 F.2d 1145, 1152 (D.C. Cir. 1984).

82a
plaintiff could identify a contract provision that
defendant violated. “That goes too far,” the Federal
Circuit indicated, stating that “a breach of the implied
duty of good faith and fair dealing does not require a
violation of an express provision in the contract.” Id. at
994 (emphasis in original).45 Nor does violation of the
covenant occur only where defendant’s actions were
“specifically targeted” to deprive the contracting partners with the benefit of the contract, as might occur in
some variation on the “old bait-and-switch.” Id. at 993
(quoting Precision Pine & Timber, 596 F.3d at 829).
Metcalf Construction confirms what other decisions
of this court have long held, to wit, that defendant may
breach the covenant of good faith and fair dealing even
if it does not breach a provision of the underlying
contract.46 This ruling is important. A contrary holding
45

The Federal Circuit rejected this court’s interpretation of
Precision Pine. In this regard, it adumbrated that:
[t]he passage cited by the trial court, after saying as
a descriptive matter that cases of breach “typically
involve some variation on the old bait-and-switch,”
Precision Pine, 596 F.3d at 829, says that the government “may be liable” – not that it is liable only – when
a subsequent government action is “specifically designed
to reappropriate the benefits the other party expected
to obtain from the transaction.” Id.
Metcalf Constr., 742 F.3d at 993.
46

See Chevron v. United States, 116 Fed. Cl. 202, 206 (2014);
N. Star Alaska Hous. Corp. v. United States, 76 Fed. Cl. 158, 188
(2007); Craig-Buff Ltd. P’ship v. United States, 69 Fed. Cl. 382,
388 (2006) (“a claim for a breach of the implied covenant of good
faith and fair dealing is not limited to specific contract terms”);
Nat’l Australia Bank v. United States, 63 Fed. Cl. 352, 354-55
(2004), aff’d, in part, rev’d in part on other grounds, 452 F.3d 1321
(Fed. Cir. 2006); Cuyahoga Metro. Hous. Auth., 65 Fed. Cl. at 543;
see also Bluebonnet Sav. Bank, F.S.B. v. United States, 266 F.3d
1348, 1355 (Fed. Cir. 2001); United States v. Basin Elec. Power

83a
would leave the covenant with no purpose or utility
whatsoever, except to confuse – a breach of the covenant would occasion no payment of additional damages.
See N. Star Alaska Hous., 76 Fed. Cl. at 188 (“[I]t does
not follow . . . that the covenant must be deemed
fulfilled unless the express terms of the contract are
breached.”). Established law indicates that this cannot
be the case.
(2) Application of Covenant
So was the covenant breached by defendant here?
Based upon the extensive record, the court firmly
believes that this was the case for several reasons.
To begin with, the essence of the Settlement
Agreement was to ensure the safety of Agent Dobyns
and his family – and, secondarily, that ATF employees
would not discriminate against Agent Dobyns. Based
on how ATF functioned, and given the intent underlying the Settlement Agreement, those assurances
took at least three forms. The first related to the risk
assessments that ATF regularly conducted – assessments designed to ensure that threats to agents were
identified, but not realized. The second involved protecting the identity of the agents and providing them
“backstopping” – both while they acted undercover and
after their work on particular investigations was at an
end. And, finally, other assurances focused on the interaction between fellow agents and their superiors –
interactions that potentially proved important when
life-and-death decisions hung in the balance.
Coop., 248 F.3d 781, 796 (8th Cir. 2001), cert. denied, 534 U.S.
1115 (2002) (“[s]ince good faith is merely a way of effectuating the
parties intent in unforeseen circumstances, the implied covenant
has ‘nothing to do with the enforcement of terms actually
negotiated’”).

84a
The ATF officials who entered into the Settlement
Agreement with Agent Dobyns understood all this, as
they had years of law enforcement experience with the
agency. They recognized that this was no ordinary
employment dispute and that the $373,000 being paid
to Agent Dobyns related to the fundamental failure of
ATF officials to act in conformity with the assurances
that had been given to Agent Dobyns and his family –
the same assurances that were given to all ATF agents
in the form of policies, procedures and orders designed
to promote agent safety. The record makes this
understanding clear. And yet it appears that certain
ATF officials – albeit not the ones who signed the
Settlement Agreement – set out to reappropriate the
benefits that Agent Dobyns expected to obtain from
the bargain; to act in a fashion designed to undercut
the Settlement Agreement’s purpose so as to “deprive
[Agent Dobyns] of the contemplated value.” Metcalf
Constr., 742 F.3d at 991.
Some of these ATF officials undermined that
bargain literally within weeks after it was first cut. On
October 31, 2007, SAC Newell, proceeding on the
flawed belief that Agent Dobyns had improperly used
his undercover identification, questioned NIBIN Chief
Pugmire and OPSEC Chief Walck as to whether the
identification was necessary. SAC Newell purportedly
expressed concern that the use of the identification
would “cause interagency relationship problems.”
(Curiously, while minimizing the risks Agent Dobyns
was experiencing at this time, SAC Newell continued
to bar Agent Dobyns from entering one of the Tucson
Field Offices because he believed that the agent’s mere
presence posed a risk for other personnel.) In early
November, Chiefs Pugmire, Vidoli and Walck determined that Agent Dobyns would be required to return
all identifications and license plates issued to him and

85a
his family. They took this action even though, at the
time of the Settlement Agreement, a June 22, 2007,
assessment still viewed Agent Dobyns as at risk of
harm. The subsequent IAD investigation revealed that
the information presented to, or available to, SAC
Newell and Chiefs Pugmire, Vidoli and Walck should
have made clear that risks were still present and that
backstopping was still necessary. Moreover, the IAD
investigation confirmed that this had been the only
instance in which Chief Vidoli ever withdrew the
backstopping of an ATF Agent.
Now, contrary to the detailed findings made by the
IAD investigation, an ATF review board summarily
found, on the eve of trial, that there were not “any
integrity or conduct issues” associated with Chiefs
Pugmire and Vidoli, and SAC Newell, in removing the
protections previously given to Agent Dobyns.47 But,
even that board acknowledged that the IAD investigation regarding the treatment of Agent Dobyns raised
serious questions concerning ATF’s policy for issuing
and withdrawing credentials used for undercover operations. Was the conduct of individuals like SAC Newell,
in withdrawing Agent Dobyns’ backstopping, negligent?
Certainly there are indications of this. However, the
critical point here is not whether these individuals
acted negligently, or even in bad faith – but whether
47

By comparison to the single paragraphs that constituted the
PRB’s memoranda clearing these individuals, Agent Trainor’s
IAD report on the removal of the backstopping provided hundreds
of findings, and was based upon hundreds of documents and five
months of interviews. That report concluded that there was
“no valid reason” to explain ATF’s withdrawal of the fictitious
identifications previously held by Agent Dobyns and his family.
Agent Trainor’s IAD findings were reviewed and approved by
SAC Golden on May 9, 2013, and forwarded to the PRB by
OPRSO Assistant Director Gleysteen on May 13, 2013.

86a
their lack of diligence and failure to cooperate, coming
little more than five weeks after the signing of the
Settlement Agreement, had the effect of putting Agent
Dobyns at risk, thereby breaching the covenant of good
faith and fair dealing. The court believes that it did.
See Malone v. United States, 849 F.2d 1441, 1445-46,
modified, 857 F.2d 787 (Fed. Cir. 1988) (government
breached covenant via its “lack of diligence and
interference with or failure to cooperate”); see also N.
Star Alaska Hous. Corp., 76 Fed. Cl. at 212.
Moreover, the withdrawal of the backstopping
revealed a more deep-seated problem – that, despite
the efforts reflected by the Settlement Agreement, ATF
still was inadequately prepared to respond systematically
and individually to the sorts of threats experienced by
Agent Dobyns and his family. Documentation of this
may be found in both of the IAD reports in question.
Indeed, nearly two years after the Settlement Agreement,
on June 18, 2009, the U.S. Office of Special Counsel,
working with the DOJ Inspector General, generally
sustained Agent Dobyns’ allegations regarding the
inadequate response to threats against him, finding
that ATF failed to investigate adequately and “needlessly and inappropriately” delayed its response to
additional threats made against him.48 As this report
48

In this regard, the Special Counsel indicated that:
I noted with concern the absence of any corrective
measures to address the failure to conduct timely and
thorough investigations into the death threats made
against SA Dobyns. ATF does not appear to have held
anyone accountable in this regard. Fully addressing
the problems and failures identified in this case
requires more than amending ATF policies and procedures. It requires that threats against ATF agent be
taken seriously and pursue aggressively and ATF
officials at all levels cooperate to ensure the timely and

87a
confirmed, ATF appeared to encounter potentially
critical problems not only in conducting risk assessments, but in recognizing the risks identified thereby
and in effectuating the steps taken to negate those
risks. The effect was to leave agents like Agent Dobyns
exposed. Put another way, it is evident that ATF
officials failed to follow through in implementing the
steps that were supposed to minimize the risks that
might affect Agent Dobyns and his family. In the
court’s view, this represented another instance in which
ATF violated the covenant of good faith and fair dealing.
The record in this case reveals other instances in
which the covenant was breached. This is certainly the
case with respect to actions taken by ASAC Gillett and
Agent Higman in regards to the investigation of the
August 10, 2008, fire at the Dobyns home. Although
the fire occurred less than eleven months after the
Settlement Agreement was signed, it is important to
recognize that the breach of the covenant did not occur
here because of the arson itself. Rather, the breach
occurred because of the way officials like ASAC Gillett
and Agent Higman functioned – and were allowed to
function – after the fire, especially in terms of how
Agent Dobyns was treated. In the court’s view, the
evidence showed that ASAC Gillett and Agent Higman
knew that Agent Dobyns was not responsible for the
fire, and still allowed him to be treated as a suspect as
a form of payback. Moreover, ATF officials knew, or
should have known, that individuals like ASAC Gillett
comprehensive investigation of threats leveled against
its own agents.
While most of the threats catalogued in the OIG report occurred
prior to the Settlement Agreement, it is noteworthy that the OIG
concluded that ATF had failed to address the concerns raised by
its report at least as of June 18, 2009.

88a
and Agent Higman should not have been allowed to
participate in the investigation – as it turned out their
conduct was not only reprehensible, but predictably
so. In donning blinders in this regard, ATF officials
compounded the potential harm that might have befallen
the Dobyns family. And acting in the aggregate, these
ATF officials and employees further reappropriated
essential features of the bargain represented by the
Settlement Agreement, thereby again breaching the
covenant of good faith and fair dealing.49
Now, the court is loath to conclude that every
alleged misfeasance and transgression occurring since
the Settlement Agreement was executed represented
yet another violation of the covenant – at least without
more proof. In part, that hesitancy derives not merely
from the passage of time, but from a variety of
intervening actions that may have broken the chain
of causation here – including both the gallant and
dubious responses of certain ATF officials to the arson
of the Dobyns home. Moreover, it cannot be overlooked
that some of the harm experienced by Agent Dobyns
and his family occurred at the hands of third parties –
including the yet identified arsonist. That said, it is
the court’s view that the actions taken by ATF officials
and agents during the time period proximate to the
execution of the Settlement Agreement severely undermined the intent of the agreement and thereby
49

As this court’s predecessor once stated, “[i]f the aggregate of
the actions of all of the agents would, if all done by one individual,
fall below the standard of good faith, [the government] for whom
the various agents acted should be held to have violated that
standard.” Struck Constr. Co., 96 Ct. Cl. at 221; see also N. Star
Alaska Hous. Corp., 76 Fed. Cl. at 212; Tecom, Inc. v. United
States, 66 Fed. Cl. 736, 769 (2005); Libertatia Assoc. Inc. v. United
States, 46 Fed. Cl. 702, 710 (2000).

89a
effectuated a breach of the covenant of good faith
and fair dealing. And those actions, and the covenant
breached thereby, entitle plaintiff to damages.50
C. Damages
It next remains to determine the damages to which
Agent Dobyns is owed. Plaintiff, of course, has the
burden of proving those damages. See Fifth Third
Bank v. United States, 518 F.3d 1368, 1374-75 (Fed.
Cir. 2008); San Carlos Irrigation & Drainage Dist. v.
United States, 111 F.3d 1557, 1563 (Fed. Cir. 1997).
Nevertheless, it is “well-settled” that “subject to certain controlling principles (for example, the recovery
of damages must not serve as a windfall to the nonbreaching party), determination of damages is a matter
within the trial court’s discretion.” Hi-Shear Tech. Corp.
v. United States, 356 F.3d 1372, 1382 (Fed. Cir. 2004);
see also Elk v. United States, 87 Fed. Cl. 70, 89 (2009).
“Damages for a breach of contract are recoverable
where: (1) the damages were reasonably foreseeable by
the breaching party at the time of contracting; (2) the
breach is a substantial causal factor in the damages;
and (3) the damages are shown with reasonable
certainty.” Ind. Mich. Power, 422 F.3d at 1373; see also
Citizens Fed. Bank v. United States, 474 F.3d 1314,
1318 (Fed. Cir. 2007); Energy Capital Corp. v. United
50

Some of the decisions of this court have treated breaches of
the covenant of good faith and fair dealing as material breaches
of the underlying contract. See D’Andrea Bros. LLC v. United
States, 109 Fed. Cl. 243, 262 (2013); see also Scott Timber, Inc. v.
United States, 86 Fed. Cl. 102, 111-12 (2009), rev’d on other
grounds, 692 F.3d 1365 (Fed. Cir. 2012). At least in a case like
this, the court’s view is that issues concerning the performance of
ATF officials who were not signatories of the Settlement
Agreement are better addressed as violations of the covenant of
good faith and fair dealing.

90a
States, 302 F.3d 1314, 1320 (Fed. Cir. 2002). Regarding foreseeability, the Federal Circuit has instructed –
“[w]hat is required is merely that the injury actually
suffered must be one of a kind that the defendant had
reason to foresee and of an amount that is not beyond
the bounds of reasonable prediction.” Citizens Fed.
Bank, 474 F.3d at 1321 (quoting 11 Corbin on Contracts § 56.7 at 108); see also Landmark Land Co., Inc.
v. FDIC, 256 F.3d 1365, 1378 (Fed. Cir. 2001). As for
causation, plaintiff must show that defendant’s breach
produced damage “inevitably and naturally, not possibly
nor even probably.” Ramsey v. United States, 101 F.
Supp. 353, 357 (Ct. Cl. 1951), cert. denied, 343 U.S. 977
(1952) (citing Myerle v. United States, 33 Ct. Cl. 1, 27
(1897)). In other words, it must show that “the damages
would not have occurred but for the breach.” Fifth
Third Bank, 518 F.3d at 1374; see also Cal. Fed. Bank
v. United States, 395 F.3d 1263, 1267 (Fed. Cir. 2005),
cert. denied, 596 U.S. 817 (2005); Spectrum Sciences &
Software, Inc. v. United States, 98 Fed. Cl. 8, 14 (2011).
Finally, as to reasonable certainty, “[c]are must be
taken lest the calculation of damages become a quixotic
quest for delusive precision or worse, an insurmountable barrier to any recovery.” Franconia Assocs., 61
Fed. Cl. at 746; see also Spectrum Sciences, 98 Fed. Cl.
at 14. “The ascertainment of damages is not an exact
science,” the Federal Circuit has stated, and “where
responsibility for damage is clear, it is not essential
that the amount thereof be ascertainable with absolute exactness or mathematical precision.” Bluebonnet
Sav. Bank, 266 F.3d at 1355; see also Restatement
(Second) of Contracts § 352, cmt. a (1981) (“[d]amages
need not be calculable with mathematical accuracy
and are often at best approximate”). “‘It is enough if
the evidence adduced is sufficient to enable a court or
jury to make a fair and reasonable approximation.’”

91a
Elec. & Missile Facilities, Inc. v. United States, 416
F.2d 1345, 1358 (Ct. Cl. 1969) (quoting Specialty
Assembling & Packing Co. v. United States, 355 F.2d
554, 572 (Ct. Cl. 1966)); see also Bluebonnet Sav. Bank,
266 F.3d at 1355. Thus, “[i]f a reasonable probability
of damage can be clearly established, uncertainty as to
the amount will not preclude recovery . . . .” Ace-Fed.
Reporters, Inc. v. Barram, 226 F.3d 1329, 1333 (Fed.
Cir. 2000) (quoting Locke v. United States, 283 F.2d
521, 524 (Ct. Cl. 1960)).51
In the case sub judice, the potential damages for the
breach of the covenant of good faith and fair dealing
fall into two basic categories: economic and noneconomic damages, with the latter including pain, suffering
and emotional distress. Plaintiff’s post-trial briefs
have not provided any degree of detail regarding the
economic damages he seeks, particularly insofar as the
breach of the covenant goes. Accordingly, the court
concludes that plaintiff is entitled to no recovery of
economic damages. More specific are plaintiff’s claims
that the breach of the covenant engendered pain and
suffering, as well as emotional distress, on his part.
Overall, while plaintiff’s original complaint sought
damages in excess of $4 million,52 he now seeks
51

See Bell BCI Co. v. United States, 570 F.3d 1337, 1340 (Fed.
Cir. 2009); Glendale Fed. Bank, FSB v. United States, 378 F.3d
1308, 1313 (Fed. Cir. 2004); Spectrum Sciences & Software, 98
Fed. Cl. at 14; Stovall v. United States, 94 Fed. Cl. 336, 346
(2010).
52

The original complaint sought $1.6 million for pain and
suffering incurred by Agent Dobyns and his family; $1.85 million
for lost wages; and $200,000 for attorney’s fees. Plaintiff’s first
amended complaint dropped Gwen Jones, Dale Dobyns and Jack
Dobyns from the lawsuit, but did not otherwise alter the claim for
relief. Plaintiff’s second amended complaint did not seek a
specific amount of damages, but instead sought “[t]otal damages

92a
damages totaling approximately $17.2 million. $7.2
million of this figure is attributable to pain, suffering
and emotional distress, with the remainder attributable to “economic damages.”
So where does the court go from here? Defendant
asserts that this court lacks jurisdiction to award
damages for pain and suffering, as those claims sound
in tort. See 28 U.S.C. § 1491(a)(1). And it cites cases to
that effect.53 But, it appears that defendant’s position
reflects a rather substantial overstatement of the law.
In Bohac v. Department of Agriculture, 239 F.3d
1334 (Fed. Cir. 2001), the Federal Circuit generally
summarized the decisional law involving the recovery
of damages for emotional distress in contract cases,
thusly:
Under the traditional contract law approach,
“[i]t is well established that, as a general rule,
no damages will be awarded for the mental
distress or emotional trauma that may be
caused by a breach of contract.” John D.
Calamari & Joseph
for ATF’s breach of the express and implied terms of the
Settlement Agreement, including, but not limited to the implied
covenant of good faith and fair dealing, to be established at trial.”
53

See Mata v. United States, 114 Fed. Cl. 736, 752 n.20 (2014);
Mastrolia v. United States, 91 Fed. Cl. 369, 381 (2010) (“[C]laims
for pain and suffering, emotional distress, and mental anguish
sound in tort. As such, this Court lacks jurisdiction to award
damages for pain and suffering and emotional distress.” (internal
quotation marks omitted)); Pratt v. United States, 50 Fed. Cl. 469,
482 (2001) (“The court lacks jurisdiction to award plaintiff’s
prayer for damages for emotional distress and pain and suffering.
Except in limited circumstances related to common carriers and
innkeepers not applicable here, the court cannot award damages
for the emotional consequences of a breach of contract because
such consequences are speculative as a matter of law.”).

93a
M. Perillo, The Law of Contracts § 14.5(b), at 549
(4th ed. 1998); see also Williston, Williston on Contracts
§§ 1338, 1341, at 200, 214; Restatement (Second) of
Contracts § 353. To be sure there are exceptions, such
as contracts of carriers and innkeepers with passengers and guests, contracts for the carriage or proper
disposition of dead bodies, and contracts for the
delivery of messages concerning death. Restatement
(Second) of Contracts § 353 cmt. a; 5 Arthur L. Corbin,
Corbin on Contracts § 1076, at 434 (1964). In these
cases, however, breach of the contract is particularly
likely to cause serious emotional disturbance. Restatement (Second) of Contracts § 353, cmt. a.
239 F.3d at 1340. While Bohac stated the general
rule in this regard, a number of the authorities cited
in the passage above hold that, in certain types of
cases, damages for emotional distress, and pain and
suffering, may be recovered if the nature of the
contract is such that its breach would be expected to
produce such damages. In this regard, Restatement
(Second) of Contracts § 353 states that: “Recovery for
emotional disturbance will be excluded unless the
breach also caused bodily harm or the contract or the
breach is of such a kind that serious emotional disturbance was a particularly likely result.” Id. (emphasis
added); see also id. at § 353, comment a; 24 Williston
§ 64:7.54 Cases have indicated that “the requisite
54

See Rivera Agredano v. United States, 70 Fed. Cl. 564, 577
(2006); see also Sheely v. MRI Radiology Network, P.A., 505 F.3d
1173, 1200 (11th Cir. 2007) (“[W]hen the nature of the contract is
such that emotional distress is foreseeable, emotional damages
will lie.”); Johnson v. State Farm Life Ins., 695 F. Supp. 2d 201,
212-13 (W.D. Pa. 2010) (same, discussing Pennsylvania law);
Dalkilic v. Titan Corp., 516 F. Supp. 2d 1177, 1195-96 (S.D. Cal.
2007) (same, discussing California law); Price v. Delta Airlines,
Inc., 5 F. Supp. 2d 226, 238 (D. Vt. 1998) (same, discussing

94a
emotional disturbance may come where the contract’s
express intent is either to enhance or to protect a
plaintiff’s mental state.” Pedroza v. Lomas Auto
Mall, Inc., 625 F. Supp. 2d 1156 (D.N.M. 2009) (citing
Restatement (Second) of Contracts § 353); see also
Jones v. Benefit Trust Life Ins. Co., 617 F. Supp. 1542,
1548 (D. Miss. 1985), aff’d, in part, rev’d, in part, 800
F.2d 1397 (5th Cir. 1986).
The court believes that the exception provided by
the Restatement ought to apply here – that is, that the
breach of the covenant here was “of such a kind that
serious emotional distress was a particularly likely
result.” After all, the breach of the covenant related to
a contract in which the underlying subject matter
involved, in part, the resolution of claims involving
emotional distress, as well as pain and suffering. And
the breach of that covenant – and the conduct that
Vermont law); Huskey v. Nat’l Broad. Co., Inc., 632 F. Supp. 1282,
1292-93 (N.D. Ill. 1986) (“[D]amages will be awarded for mental
suffering caused by the wanton or reckless breach of a contract to
render a performance of such character that the promisor had
reason to know when the contract was made that a breach would
cause such suffering, for reasons other than mere pecuniary
loss.”); Smith v. NBC Universal, 524 F. Supp. 2d 315, 327
(S.D.N.Y. 2007) (allowing damages where the express purpose
was “the mental and emotional well-being of one of the contracting parties”) (quoting 5 Corbin on Contracts § 1076, at 429 (1964
ed.)); Lamm v. Shingleton, 55 S.E.2d 810, 813 (N.C. 1949) (Where
contracts concern “the sensibilities of the party to whom the duty
is owed, that a breach of that duty will necessarily or reasonably
result in mental anguish or suffering, and it should be known to
the parties from the nature of the contract that such suffering
will result from its breach, compensatory damages therefor may
be recovered.”); see generally, Tannenbaum v. UNUM Life Ins. Co.
of Am., 2005 WL 645237, at *2 (E.D. Pa. March 18, 2005) (citing
Pennsylvania state cases); Wynn v. Monterey Club, 111 Cal. App.
3d 789, 799-801 (Cal. App. 1980) (citing California cases).

95a
effectuated that breach – plainly engendered its own
emotional distress, as well as pain and suffering. To
conclude that the Restatement rule would not apply to
such an instance would be to suggest that there should
be no recovery for the breach of a covenant of good
faith and fair dealing associated with a contract
resolving claims for emotional distress, and pain and
suffering. That makes no sense. There is no indication
that any of the cases cited by defendant remotely dealt
with circumstances like this. And, indeed, a number of
cases suggest that the Restatement rule ought to
apply to a case like this.55
Now, the question remains whether this court lacks
jurisdiction over breaches of covenants in which the
underlying contract involves the recovery of damages
for emotional distress, and pain and suffering. This
court has held that such jurisdiction lies for cases
involving common carriers and innkeepers – despite
the admonition in section 1492(a) that the court lacks
jurisdiction over cases “sounding in tort.”56 And despite
55

See Munday v. Waste Mgmt. of N. Am., Inc., 997 F. Supp.
681, 687 (D. Md. 1998) (breach of a settlement agreement to
resolve claims of mental anguish was of a kind likely itself to
induce severe emotional distress); see also Miranda v. Said, 836
N.W.2d 8, 19-20 (Iowa 2013) (“[w]here the contract is personal in
nature and the contractual duty or obligation is so coupled with
matters of mental concern or solicitude, or with the sensibilities
of the party to whom the duty is owed, that a breach of that duty
will necessarily or reasonably result in mental anguish or
suffering, and it should be known to the parties from the nature
of the contract that such suffering will result from its breach,
compensatory damages therefor may be recovered.”) (quoting
Meyer v. Nottger, 241 N.W.2d 911, 921 (Iowa 1976) (quoting
Lamm, 55 S.E.2d at 813)).
56

See Bohac, 239 F.3d at 1340; Iran Nat’l Airlines Corp. v.
United States, 360 F.2d 640 (Ct. Cl. 1966); see also Dalton v.
Sherwood Van Lines, Inc., 50 F.3d 1014, 1017 (Fed. Cir. 1995). In

96a
the same statutory language, this court has awarded
damages for emotional distress, as well as pain and
suffering, for cases involving the violation of treaties,
which are treated by this court as a form of contract.57
In the court’s view, the limitation involving torts
likewise does not prohibit the award of damages for
the breach of covenants associated with contracts,
such as occurred here. Logic suggests, indeed, that if
this court has jurisdiction to consider the breach of
covenants that flow from such agreements – and
decisional law suggests that it does58 – this court must
have jurisdiction to consider the damages that flow
thereupon. Sovereign immunity provides defendant no
solace in this regard – a contrary conclusion would
again cast doubt on the government’s ability to enter
into contracts that presume good faith and fair
dealing.59

Pratt, 50 Fed. Cl. at 482, this court suggested that it could award
damages for emotional distress, and pain and suffering, in “limited
circumstances related to common carriers and innkeepers.” The
court, however, provided no explanation for this exception.
57

See, e.g., Begay v. United States, 219 Ct. Cl. 599 (1979);
Hebah v. United States, 428 F.2d 1334 (Ct. Cl. 1970), as modified,
456 F.2d 696 (Ct. Cl.), cert. denied, 409 U.S. 870 (1972); Elk v.
United States, 70 Fed. Cl. 405 (2006); see also Richard v. United
States, 677 F.3d 1141, 1144 (Fed. Cir. 2012); Note, “A Bad Man is
Hard to Find,” 127 Harv. L. Rev. 2521, 2529 (2014).
58

This court, of course, has held so in this case. See Dobyns I,
91 Fed. Cl. at 419 (citing cases); see also, e.g., Outlaw v. United
States, 116 Fed. Cl. 656 (2014); Pucciariello v. United States, 116
Fed. Cl. 390, 402 (2014); Stovall v. United States, 71 Fed. Cl. 696,
699 (2006).
59

It is well-established that courts are “vested with a ‘virtually
unflagging obligation’ to exercise the jurisdiction given them.”
McCarthy v. Madigan, 503 U.S. 140, 146 (1992); see also Cohens
v. Virginia, 19 U.S. (6 Wheat.) 264, 404 (1821) (“We have no more

97a
This leaves the question of the amount of the
recovery here. The unusual nature of the inquiry
brings to mind the potential use here of the “jury
verdict method,” which is “most often employed when
damages cannot be ascertained by any reasonable
computation from actual figures.” Dawco Constr., Inc.
v. United States, 930 F.2d 872, 880 (Fed. Cir. 1991),
overruled on other grounds by Reflectone, Inc. v.
Dalton, 60 F.3d 1572 (Fed. Cir. 1995); see also United
States v. Smith, 94 U.S. 214, 219 (1876); Hi–Shear
Tech. Corp., 356 F.3d at 1376. In order to adopt the
jury verdict method, “[a] court must first determine
three things: (1) that clear proof of injury exists; (2)
that there is no more reliable method for computing
damages; and (3) that the evidence is sufficient for a
court to make a fair and reasonable approximation
of the damages.” Dawco, 930 F.2d at 880.60 “‘In
estimating damages, [this court] occupies the position
of a jury under like circumstances; and all that the
litigants have any right to expect is the exercise of the
court’s best judgment upon the basis of the evidence
provided by the parties.” Bluebonnet Sav. Bank, 266
F.3d at 1357 (quoting Specialty Assembling & Packing,
355 F.2d at 572 (citing United States v. Smith, 94 U.S.
214, 219 (1876))). The jury verdict offers a “means for
achieving a result that is fair and just to both parties
when neither party has been able to present an inderight to decline the exercise of jurisdiction which is given, than to
usurp that which is not given.”).
60

See also Grumman Aerospace Corp. v. Wynne, 497 F.3d 1350,
1358 (Fed. Cir. 2007); Bluebonnet Sav. Bank, 266 F.3d at 1357
(“We have also allowed so-called ‘jury verdicts,’ if there was clear
proof of injury and there was no more reliable method for
computing damages – but only where the evidence adduced was
sufficient to enable a court or jury to make a fair and reasonable
approximation.”).

98a
pendently complete or acceptable measure of damages.”
Bluebonnet Sav. Bank, 466 F.3d at 1359.
In the court’s view, the requirements for application
of the jury verdict method fully are met here, at least
insofar as the breach of the covenant involves damages
relating to Agent Dobyns’ mental distress, and pain
and suffering. First, clear proof of injury exists –
indeed, that proof appears to be overwhelming. In
the court’s view, there is more than ample evidence
that the covenant of good faith and fair dealing was
breached by ATF and that that breach produced
damages in the form of mental distress, and pain and
suffering. Second, there is no more reliable method for
computing damages with respect to that breach. This
is not a case in which the amount of damages recoverable here may be derived via the tabulation of receipts,
costs avoided, or other forms of economic proxies.61
Finally, as will be discussed in greater detail below, it
seems apparent that the evidence is sufficient for the
court to make a fair and reasonable approximation of
the damages.
So how do we bring this tour d’horizon to an end? In
the court’s view, the most reasonable starting point for
developing a jury verdict amount is to consider the
terms of the Settlement Agreement. Under that negotiated agreement, plaintiff received $373,000, plus
back pay. A majority of the $373,000 figure appears to
have related to the mental distress, as well as pain and
suffering, occasioned by the actions of ATF officials
that predated the settlement (approximately from
61

Cf. Ravens Grp., Inc. v. United States, 112 Fed. Cl. 39, 56
(2013); Servidone Constr. Corp. v. United States, 19 Cl. Ct. 346,
367 (1990), aff’d, 931 F.2d 860 (Fed. Cir. 1991); see also Dawco,
930 F.2d at 880; Joseph Pickard’s Sons Co. v. United States, 532
F.2d 739, 742 (Ct. Cl. 1976).

99a
2004 through 2007). And the assumption – indeed,
explicit in the agreement – was that the conduct of
ATF officials and employees that led to the agreement
would cease. Indeed, Agent Dobyns testified that he
would have demanded additional compensation if there
had been no assurance that the conduct in question
would cease.63 Various testimony also suggests that
about $173,000 of the $373,000, represented the
approximate amount that Agent Dobyns believed he
was entitled to receive in terms of non-damages –
such as mental distress, as well as pain and suffering.
In the court’s view, this leads, by extension, to the
conclusion that, under the jury verdict method, plaintiff is entitled to receive $173,000 – approximating the
62

62

Deputy Director Hoover testified that a portion of the
$373,000 represented out-of-pocket expenses incurred by Agent
Dobyns for various purposes, including expenses associated with
his moves. Neither Assistant Director Hoover nor Deputy Director
Carter were able to recollect other components of this figure. In
his testimony, Agent Dobyns indicated that at least $73,000 of
the $373,000 was associated with the moves and related costs.
63

In his testimony, Agent Dobyns testified that “[t]he promises
made to me by Mr. Carter and Mr. Hoover . . . [were] to make sure
that nothing like I had previously experienced with ATF ever
happened to me again or even happened to any other ATF agent
again.” He further answered this question:
Q. Agent Dobyns, if as part of that contract six years
ago ATF had reserved a right to with withdraw your
fictitious documents for any reason whatsoever, would
you have wanted to be paid more for ATF to have that
reservation of right?
A. Yes.
Agent Dobyns answered similarly in responding to questions
as to whether he would have modified the Settlement Agreement
to require the payment of additional compensation if he had
known how ATF would have addressed the investigation of the
arson.

100a
emotional distress, as well as pain and suffering, that
Agent Dobyns experienced in the period (approximately two years) while the covenant of good faith and
fair dealing was being breached.
There are several indicia that this $173,000 represents an appropriate recovery. First, the case law has
developed several factors to consider in assessing
damages for mental pain and suffering, including:
(i) the expected duration of the pain and suffering;
(ii) the intensity of the distress; (iii) the impact that
the pain and suffering has on the injured party’s
productivity and lifestyle; (iv) whether sedatives or
other drugs were used to relieve pain and whether
they were effective; and (v) whether the suffering was
occasioned by apprehension of impending death. See,
e.g., Harris v. Forklift Sys., Inc., 510 U.S. 17, 23 (1993);
Elk, 87 Fed. Cl. at 96; Juiditta v. Bethlehem Steel
Corp., 428 N.Y.S.2d. 535, 543 (N.Y. App. Div. 1980);
see also MacMillan v. Millennium Broadway Hotel,
873 F. Supp. 2d 546, 560-61 (S.D.N.Y. 2012); Baker v.
Socialist People’s Libyan Arab Jamahirya, 775 F.
Supp. 2d 48, 81-82 (D.D.C. 2011). As documented
throughout this opinion, Agent Dobyns plainly experienced intense mental distress as the result of the
breach of the covenant, particularly in 2008 – distress
that was heightened by the feelings exhibited by certain ATF officials who appeared bound and determined
to affect adversely one of their own.64 Moreover, it
64

Between December 28, 2005, and January 8, 2011, Agent
Dobyns met thirty-eight times with Dr. Linaman, a psychologist
licensed in Arizona. At least some of these sessions focused on
problems experienced by Agent Dobyns with his family, but the
record makes it impossible to determine which sessions focused
primarily or exclusively on these family problems, as opposed to
problems Agent Dobyns was experiencing with ATF. Between
August 2008, the month of the arson at his home, and January

101a
appears that virtually every aspect of Agent Dobyns’
personal and professional life was effected by the
mental anguish that the actions of these ATF agents
engendered. See Doe v. Chao, 306 F.3d 170, 180-81
(4th Cir. 2002), aff’d, 540 U.S. 614 (2004).
Second, various cases, including those arising under
the Federal Tort Claims Act, 28 U.S.C. §§ 1346(b),
2671-2680, suggest that the process of determining
damages associated with mental distress, and pain
and suffering awards should look to awards in similar
cases. See, e.g., Bravo v. United States, 532 F.3d 1154,
1162 (11th Cir. 2008); Muniz-Olivari v. Stiefel Labs,
Inc., 496 F.3d 29, 40-41 (1st Cir. 2007); DiSorbo v. Hoy,
343 F.3d 172, 183-86 (2d Cir. 2003); Jutzi-Johnson v.
United States, 263 F.3d 753, 758-79 (7th Cir. 2001);
see also Elk, 87 Fed. Cl. at 96. Of course, there are
limitations to this approach – as noted by one district
court, “[a] reported decision concerning a trial cannot
possibly relate the course of trial with the same detail
and flavor in which it was presented to the fact finder.”
Zurba v. United States, 247 F. Supp. 2d 951, 961 (N.D.
Ill. 2001), aff’d, 318 F.3d 736 (7th Cir. 2003). And this
case certainly is unique in so many problematic dimensions. Nevertheless, a review of the decisional law
suggests that the court’s determination of damages for
emotional distress, as well as pain and suffering, is

2011, Agent Dobyns reported consistent symptoms of anxiety,
depression, and uncertainty relating to his conflict with ATF. At
trial, Dr. Linaman further testified that Agent Dobyns’ primary
care physician prescribed Lexapro and Trazodone, both drugs
used to treat anxiety and depression. While it is unclear, from the
record, that Agent Dobyns met the formal criteria for a diagnosis
of Post-Traumatic Stress Disorder, there is little doubt that he
experienced symptoms of depression and anxiety.

102a
reasonable as compared to the awards made in similar
cases, surveyed below.65
D. Defendant’s Counterclaim
In its counterclaim, defendant asserts a breach of
contract claim, to wit, that Agent Dobyns violated his
employment contract and, in doing so, violated various
Federal regulations and ATF orders, by publishing a
book based upon his experiences as an agent, and by
contracting his story to create a motion picture.
Defendant must carry the burden of proof on its

65

Lancaster v. Norfolk & W. Ry. Co., 773 F.2d 807 (7th Cir.
1985), cert. denied, 480 U.S. 945 (1987) (affirming judgment of
$850,000 under Federal Employer’s Liability Act (FELA), 45
U.S.C. §51, et seq., for railroad employee who suffered emotional
and physical abuse by supervisor); Welch v. United Parcel Serv.,
2011 WL 7403649 (E.D.N.Y. 2011) (employer retaliated against
employee for complaining about disability discrimination;
although jury held that employee did not have a disability within
the meaning of the Americans With Disabilities Act of 1990, 104
Stat. 327, it awarded $200,000 in damages because employee
suffered emotional distress due to defendant’s retaliation);
Gonzalez v. Dallas Cnty., Texas, 2010 WL 5814195 (Dist. Tex.
Nov. 19, 2010) (deputy constable who was pressured to give false
testimony before grand jury suffered retaliation and was
harassed by supervisors; awarded $132,500 for emotional pain
and suffering, mental anguish, loss of enjoyment of life); Werner
v. Kalamazoo Cmty. Mental Health & Substance Abuse Servs.,
2006 Mealey’s Jury Verdicts & Settlements 2596, 06-CV-0310
(W.D. Mich. 2006) (employee terminated for filing complaints
with the U.S. Dept. of Education about deficiencies in employer’s
health services program; awarded $150,000 for injury to
reputation, mental anxiety and emotional distress); Daily v.
Kaiser Found. Hosp., 2003 Mealey’s Jury Verdicts & Settlements
259, BC234153 (Cal. Super. 2003) (employee awarded $150,000
for emotional distress when she complained about patient care
and patient confidentiality issues).

103a
counterclaim. The court concludes that defendant
has failed to meet this burden.
66

It is undisputed that on June 9, 2006, Agent Dobyns
executed a contract with Fox concerning rights to his
“life story,” and that on May 18, 2007, he executed a
contract with The Crown Publishing Group concerning
a book, provisionally titled “Almost Angels.” Both
projects related to his experiences with the Black
Biscuit investigation. It is further undisputed that,
absent the Settlement Agreement, Agent Dobyns was
required to comply with a variety of regulations and
ATF Orders before he signed these contracts. Moreover,
there is no question that, at the time these contracts
were signed, ATF Order 9000.1A provided that no
employee of ATF should publish books or articles
based upon information obtained as an employee of
ATF, unless that employee obtained authorization
from the Assistant Director and the Office of Chief
Counsel. The pre-publication submission requirement
of ATF Order 9000.1A was meant to assist ATF in
protecting classified, sensitive or otherwise protected
information from being released to the public by ATF
agents or other employees.
It is also undisputed, however, that the contracts
discussed above were signed before September 20,
2007, the date on which the Settlement Agreement in
question was executed. In critical terms this agreement stated thusly:

66

See, e.g., Trans Ocean Van Serv. v. United States, 426 F.2d
329, 355 (Ct. Cl. 1970); Int’l Harvester Co. v. United States, 342
F.2d 432, 447 (Ct. Cl. 1965); Miglionico v. United States, 108 Fed.
Cl. 512, 524 (2012); Alli v. United States, 83 Fed. Cl. at 276; G.M.
Shupe, Inc. v. United States, 5 Cl. Ct. 662, 740 (1984).

104a
This Agreement is entered into by Jay
Dobyns (hereafter Employee) and the U.S.
Department of Justice, Bureau of Alcohol,
Tobacco, Firearms and Explosive (hereafter
ATF or Agency) to fully resolve and settle any
and all issues and disputes arising out of
Employee’s employment with ATF, including,
but not limited to the Agency Grievance filed
by the Employee, the Employee’s complaints
to the Office of Special Counsel, and his
complaints to the Department of Justice’s
Office of Inspector General.
(Emphasis added.) As part of the settlement, ATF
further agreed that: (i) it would consider requests by
Agent Dobyns for outside employment “in a manner
consistent with Agency practice;” and (ii) it would “not
pursue discipline against [Agent Dobyns] for any
matter that is currently under investigation by the
Department of Justice’s Office of Inspector General
(OIG) or ATF’s Office of Professional Responsibility
and Security Operations (OPRSO).”
Before the Settlement Agreement was signed, a
number of individuals at ATF knew about Agent
Dobyns’ forthcoming book. Deputy Director Domenech,
ATF’s Chief Operating Officer and its number-two
ranking official, knew about the book project as early
as February of 2007. And he continued to hear rumors
about the book when he became the SAC for the
Washington Field Office in mid-February of 2007. In
May of 2007, Agent Sullivan (who was responsible for
threat, risk and vulnerability assessments) also knew
about the book, having obtained information about
the project on the Internet. In emails, he contacted
Richard Horgan, the vice-president of Crown/Random
House, to request further information about the book

105a
and was given that information. Knowledge of the
book project then spread to Agent Bernard Conley,
another OPSEC official, and up the chain to Chief Walck
and her supervisor Chief Rosebrock. All this happened
before the Settlement Agreement was executed.
To be sure, Deputy Director Carter testified at trial
that he did not discuss any book or media projects with
Agent Dobyns at the time they signed the Settlement
Agreement. But he also acknowledged that, before he
signed the agreement, he conducted no due diligence
with anyone at ATF regarding the scope of the preexisting claims he was waiving in the Settlement
Agreement – claims that it would appear would relate
to the aforementioned contracts. Moreover, while
Assistant Director Hoover believed that Agent Dobyns’
activities relating to his media projects were not
“under investigation” at the time the agreement was
signed, he admitted that it would not have been
acceptable to begin such an investigation after the
Settlement Agreement was signed if ATF officials had
previously known about the book. And, as indicated
above, ATF officials did know about the book.
Defendant thus should not be allowed to premise its
claims on the Settlement Agreement.
Defendant primarily bases its counterclaim on
Snepp v. United States, 444 U.S. 507 (1980), a per
curiam decision. In that case, Snepp published a book
about his experiences as a CIA agent in South Vietnam.
Snepp published this account without submitting it to
the CIA for prepublication review – despite the fact
that he had “executed an agreement promising that he
would ‘not . . . publish . . . any information or material
relating to the Agency, its activities or intelligence
activities generally, either during or after the term of
[his] employment . . . without specific prior approval

106a
by the Agency.’” Id. at 508. Defendant brought suit to
enforce the agreement, seeking a declaration that Snepp
had breached the contract, an injunction requiring
him to submit future writings for prepublication review,
and an order imposing a constructive trust for defendant’s benefit on all profits that Snepp might earn from
publishing the book in violation of his fiduciary
obligations to the CIA. Id.
The district court found that Snepp had “willfully,
deliberately and surreptitiously breached his position
of trust with the CIA and the [1968] secrecy agreement” by publishing his book without submitting it for
prepublication review. 456 F. Supp. 176, 179 (E.D. Va.
1978). It found that Snepp deliberately misled CIA
officials into believing that he would submit the book
for prepublication clearance and that the publication
of the book had “caused the United States irreparable
harm and loss.” Id. at 180. The district court, therefore, enjoined future breaches of Snepp’s agreement
and imposed a constructive trust on his profits. Id. The
Fourth Circuit affirmed the district court’s finding
that Snepp had breached his employment agreement,
and it upheld the injunction against further violations
of its prepublication agreement, but refused to uphold
the district court’s imposition of a constructive trust.
595 F.2d 926, 935 (4th Cir. 1979).
In a per curiam opinion, the Supreme Court granted
certiorari to “correct the judgment from which both
parties seek relief.” 444 U.S. at 507. The Court noted
that the agreement signed by Snepp specifically recognized that he was entering into a trust relationship
and that he would not publish any information relating to the Agency without submitting the information
for clearance. Id. at 510-11. “Undisputed evidence in
this case,” the Court moreover found, “shows that a

107a
CIA agent’s violation of his obligation to submit
writings about the Agency for prepublication review
impairs the CIA’s ability to perform its statutory
duties.” Id. at 512. The Court determined that the
imposition of a constructive trust was appropriate
under the circumstances, stating:
A constructive trust . . . protects both the
Government and the former agent from unwarranted risks. This remedy is the natural and
customary consequence of a breach of trust. It
deals fairly with both parties by conforming
relief to the dimensions of the wrong. If the
agent secures prepublication clearance, he
can publish with no fear of liability. If the
agent publishes unreviewed material in
violation of his fiduciary and contractual
obligation, the trust remedy simply requires
him to disgorge the benefits of his faithlessness. Since the remedy is swift and sure, it is
tailored to deter those who would place sensitive information at risk.
Id. at 515. On this basis, the Court held that the
district court had correctly imposed “a constructive
trust on Snepp’s profits.” Id. at 516.
For a variety of reasons, however, Snepp does not
support defendant’s counterclaim. First, unlike the
facts in that case, plaintiff here did not execute a
contract preventing him from divulging any information associated with his work with the ATF. Nor did
defendant here seek to enjoin the prepublication of
the book in question. Nor did it otherwise meet the
requirements for the creation of a constructive trust.67
67

A constructive trust arises when “the defendant (i) has been
unjustly enriched (ii) by acquiring legal title to specifically

108a
Indeed, there is no indication that defendant here was
eligible for the sort of equitable relief obtained by the
agency in Snepp – or that such relief is even obtainable
in this court.68 Moreover, unlike what happened with
identifiable property (iii) at the expense of the claimant or in
violation of the claimant’s rights . . . .” Restatement (Third) of
Restitution & Unjust Enrichment § 55 cmt. a (2011); see also
Caryl A. Yzenbaard, George Gleason Bogert, George Taylor Bogert,
The Law of Trusts and Trustees § 471 (2014). A constructive
trust, however, ought not be imposed where the party seeking the
trust comes to court with unclean hands. See United States v.
Emor, 2013 WL 3005366, at *14 (D.D.C. 2013); United States v.
$3,000 in Cash, 906 F. Supp. 1061, 1066 (E.D. Va. 1995). As Chief
Judge (later Justice) Cardozo stated many years ago, “a constructive trust is the formula through which the conscience of equity
finds expression.” Beatty v. Guggenheim Exp. Co., 122 N.E. 378,
387 (N.Y. 1919).
68

Defendant appears to leap over questions regarding whether
this court has jurisdiction to afford the sorts of relief it seeks.
Other cases have established that this court lacks the equitable
jurisdiction, for example, to create constructive trusts at the
behest of plaintiffs. See Frank & Breslow, LLP v. United States,
43 Fed. Cl. 65, 68 (1999); Last Chance Mining Co. v. United
States, 12 Cl. Ct. 551, 555 (1987), aff’d without op., 846 F.2d 77
(Fed. Cir.), cert. denied, 488 U.S. 823 (1988); see also Carney v.
United States, 462 F.2d 1142, 1145 (Ct. Cl. 1972). And there is no
indication that this court’s counterclaim jurisdiction extends
farther. See 28 U.S.C. § 1503; Shippen v. United States, 654 F.2d
45, 47 (Ct. Cl. 1981) (holding that defendant may not seek
declarations via its counterclaims); see also 28 U.S.C. § 2508.
Even if this court could impose a constructive trust, various
cases hold that a mere breach of contract does not constitute the
sort of wrongdoing that gives rise to imposition of a constructive
trust. See Amendola v. Bayer, 907 F.2d 760, 763 (7th Cir. 1990)
(holding that a mere breach of contract did not constitute “wrongdoing” for purposes of imposing a constructive trust); see also Islip
U-Slip LLC v. Gander Mountain Co., 2014 WL 795981 (N.D.N.Y.
Feb. 27, 2014). And, of course, defendant offers no support suggesting that relief of this sort has been ordered ever in this court.

109a
the CIA in Snepp, when No Angel was published in
early 2009, the only significant objection raised by any
ATF official was with the cover, which listed Agent
Dobyns title as “Agent” – a problem that was cured by
the publisher, at ATF’s request, upon the printing of
the next edition of the book.69
Most importantly, by way of contradistinction to
Snepp, the parties here signed a Settlement Agreement
that retrospectively waived defendant’s rights to
seek compensation for the alleged violations, by Agent
Dobyns, of ATF Orders and procedures, including
those orders requiring the review of publications. ATF
officials signed that Settlement Agreement knowing
full well that there had been disputes involving the
69

A number of ATF officials, including the then Deputy
Director, were aware of the book project as early as 2006, but took
no action to prohibit its publication. ATF did not seek to prohibit
the publication as part of the September 2007 Settlement Agreement. On December 4, 2008, Chief Rowley sent a memorandum
to Agent Dobyns in which he noted the existence of the book and
requested that Agent Dobyns: (i) identify the party or parties
with whom he had contracted to promote or distribute the book;
(ii) provide a “prospectus, summary or manuscript of the books;”
and (iii) provide the details of any arrangements made to promote
the book. On February 6, 2009, Chief Rowley sent Agent Dobyns
a further memorandum indicating that while Agent Dobyns had
properly submitted a request for outside employment associated
with prior speaking engagements, he had not submitted a request
to write a book. Notably, while this memorandum discussed
various regulations concerning outside employment, it did not
specifically prohibit Agent Dobyns from publishing the book.
Instead, it directed him to (i) submit an outside employment
request with a copy of the most recent manuscript; (ii) take action
to remove the subtitle “ATF Special Agent” from the cover of the
book; and (iii) inform his publisher that ATF employees are
prohibited to use their ATF title for the promotion of teaching,
speaking and writing engagements, and that “this prohibition
applies to [him].” Agent Dobyns complied with these requests.

110a
application of ATF Orders and procedures to Agent
Dobyns. The book and media contracts that Agent
Dobyns signed with Crown Publishing and Fox were
executed more than a year before that Settlement
Agreement took effect. And ATF officials knew about
those contracts before the Settlement Agreement was
signed. That being the case, the court’s view is that
defendant should not be heard to complain about
projects that were already in the works when the
Settlement Agreement was executed, and to seek
compensation that originates from the efforts that
those contracts represent. And that this is true even if
certain of the moneys in question derive from activities
(e.g., the printing of the books and the marketing
thereof) that occurred after the Settlement Agreement
was executed.70 To hold otherwise, would be to provide
defendant with a windfall that is most undeserving.
In sum, while this matter might have been handled
better by all concerned, it would appear that defendant’s counterclaim, nevertheless, suffers from numerous

70

Viewed in breach of contract terms, defendant can hardly
claim that the damages it seeks “were reasonably foreseeable by
the breaching party at the time of contracting.” Ind. Mich. Power
Co., 422 F.3d at 1373. For one thing, it is unclear what “contract”
defendant is talking about – plaintiff’s employment contract with
ATF as it existed before the Settlement Agreement; as modified
by that agreement (and the waivers contained therein); or
perhaps some “modified” employment contract that included only
the provisions that benefited ATF, but did not account for the
conduct of the agency (and officers like ASAC Gillett and Agent
Higman) thereafter. To support such a claim, defendant, at a
minimum, should have provided proof of damages that were
segregated only to the alleged breach – and that would not
include, for example, all of the royalties that Agent Dobyns might
receive in the future.

111a
flaws – both factual and legal. The court concludes
that defendant is entitled to – nothing.71
III. CONCLUSION
“The United States wins its point whenever justice
is done its citizens in the courts.” So wrote Solicitor
General Frederick Lehman in the government’s brief
in Brady v. Maryland, 373 U.S. 83, 87 (1962), in words
now carved into the office rotunda of the Attorney
General. Presumably, what holds true for the citizenry
in general ought to hold true for Federal agents who
risk their lives in law enforcement. But if that is so,
how does one explain this case?
Unfortunately, how certain ATF officials acted in
the aftermath of the Settlement Agreement bears
little resemblance to the lofty sayings carved into the
facades of the Department of Justice. What happened
here is more reminiscent of a Franz Kafka novel, “The
71

Based on the foregoing, the court need not consider the First
Amendment implications of defendant’s counterclaim. To be sure,
defendant has “a freer hand in regulating the speech of its
employees than it has in regulating the speech of the public at
large.” Waters v. Churchill, 511 U.S. 661, 671 (1994) (plurality
opinion); accord Snepp, 444 U.S. at 509 n.3. But, the unique facts
in this case – which include not only the circumstances associated
with the Settlement Agreement, but also ATF’s willingness to
highlight its investigative techniques while publicly promoting
Agent Dobyns’ actions in the media (in shows like America’s
Most Wanted) – cast doubt on the notion that the same sort of
compelling interests that supported the result in Snepp would
support the harsh result defendant would have the court reach
here. See generally, United States v. Nat’l Treasury Employees
Union, 513 U.S. 454 (1995); Mary-Rose Papandrea, “Leaker
Traitor Whistleblower Spy: National Security Leaks and the
First Amendment,” 94 B.U. L. Rev. 449, 523-24 (2014) (“The
government is not entitled to condition federal employment as it
pleases.” (citing cases)).

112a
Trial.” There, Kafka depicts a totalitarian state in
which the government suppressed freedom via a
deluge of circuitous and irrational process. One of the
techniques employed was the “non-final acquittal.”
Kafka describes these acquittals thusly: “That is to
say, when [the accused] is acquitted in this fashion the
charge is lifted from [his] shoulders for the time being,
but it continues to hover above [him] and can, as soon
as an order comes from on high, be laid upon [him]
again.” Id. at 158. Experiences like these unfortunately
bring to mind those that Agent Dobyns experienced in
the years following the execution of the Settlement
Agreement – a time that should have been one of
healing and reconciliation, but that instead gave certain
ATF officials and agents the opportunity to harm
Agent Dobyns further. In the court’s view, the actions
of these ATF employees indisputably breached the
covenant of good faith and fair dealing. That breach
caused Agent Dobyns to suffer mental distress, as well
as pain and suffering, which, in turn, entitles him to
the damages awarded below. Hopefully, this will bring
this Kafkaesque story to an end.
72

Based on the foregoing, the court finds that
defendant did not breach the Settlement Agreement,
but did breach the covenant of good faith and fair
dealing. Based on the breach of the covenant, the court
finds that plaintiff is entitled to damages in the
amount of $173,000. The court further finds that
defendant is not entitled to recover anything with
respect to its counterclaim.73
72

Franz Kafka, The Trial (Willa & Edwin Muir, trans., Alfred
A. Knopf, rev. ed. 1992).
73

By separate order, the court will direct the Clerk of Court to
serve a copy of this opinion upon the Attorney General of the
United States, the Office of Professional Responsibility for the

113a
74

IT IS SO ORDERED.

s/Francis M. Allegra
Francis M. Allegra
Judge

Department of Justice, and the Office of the Inspector General of
the Department of Justice. The transmittal letter should call
attention to this opinion, and, in particular, to footnote 25 thereof.
See 28 C.F.R. § 0.39 (2013); see generally, United States v.
Hasting, 461 U.S. 499, 506 n.5 (1983); United States v. Bartko,
728 F.3d 327, 342-43 (4th Cir. 2013). Until it receives a final
response from the Department of Justice, the court will reserve
the question whether one or more of defendant’s attorneys acted
in violation of the court’s rules and should be disciplined
thereunder.
74

This opinion shall be published, as issued, after September
15, 2014, unless the parties identify protected and/or privileged
materials subject to redaction prior to that date. Any such
materials shall be identified with specificity, both in terms of the
language to be redacted and the reasons for each redaction
(including appropriate citations to authority). This deadline will
not be extended for any reason.

114a
ACRONYMS
ACRONYM
ASAC
ATF
CFI
DAD
DOJ
EPS
IAD
NIBIN
OFO
OIG
OMO
OPGA
OPRSO
OPSEC
OSC
PCSO
PGA
PRB
RAC
ROI
SA
SAC

Assistant Special Agent in Charge
Bureau of Alcohol, Tobacco, Firearms,
and Explosives
Chief Fire Investigator
Deputy Assistant Director
Department of Justice
Office of Enforcement Programs
and Services
Internal Affairs Division
National Integrated Ballistic
Information Network
Office of Field Operations
Office of the Inspector General
Outlaw Motorcycle Organization
Office of Public and Government
Affairs
Office of Professional Responsibility
and Security Operations
ATF Operations Security
Office of Special Counsel
Pima County Sheriff’s Office
Public and Government
Affairs Office
Professional Review Board
Resident Agent in Charge
Report of Investigation
Special Agent
Special Agent in Charge

115a
SEPD
SIR
SOD

Security Emergency
Programs Division
Significant Incident Report
Special Operations Division

116a
APPENDIX C
IN THE UNITED STATES COURT OF
FEDERAL CLAIMS
————
No. 08-700C
————
JAY ANTHONY DOBYNS,
Plaintiff,

v.
THE UNITED STATES,

Defendant.
————
Contract case; Cross-motions for summary
judgment – RCFC 56; Existence of genuine issues
of material fact precluded entry of judgment as a
matter of law; Trial ordered.
————
Filed Under Seal: October 1, 2012
Reissued: October 16, 20121
————
OPINION
James Bernard Reed, Baird, Williams & Greer,
Phoenix, AZ, for plaintiff.

1

An unredacted version of this opinion was issued under seal
on October 1, 2012. The parties were given an opportunity to
propose redactions, but no such proposals were made. Nonetheless, the court has incorporated some minor changes into this
opinion.

117a
David Allen Harrington, Civil Division, United
States Department of Justice, Washington, D.C., with
whom was Acting Assistant Attorney General Stuart
F. Delery, for defendant.
ALLEGRA, Judge:
This contract dispute suit is before the court on
plaintiff’s motion for partial summary judgment and
defendant’s cross-motion for summary judgment. In
this case, an agent of the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) alleges that, following
a highly successful undercover operation, ATF failed
to protect him and his family from threats and violence.2 He asserts that ATF’s actions (and lack thereof)
violated an agreement he had with the agency settling
a prior employment dispute, thereby giving rise to
contract claims over which this court has jurisdiction
under the Tucker Act, 28 U.S.C. § 1491. Defendant,
meanwhile, counterclaims that plaintiff breached the
contract, federal regulations, and ATF orders by publishing a book based upon his experiences as an agent
and contracting his story and consulting services to
create a motion picture.
Summary judgment is appropriate when there is no
genuine dispute as to any material fact and the moving party is entitled to judgment as a matter of law.
See RCFC 56; Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 247-48 (1986). Disputes over facts that are not
outcome-determinative will not preclude the entry of
summary judgment. Id. at 248. However, summary
judgment will not be granted if “the dispute about a
material fact is ‘genuine,’ that is, if the evidence is
2

For a further description of the nature of the claims at issue
in this case see Dobyns v. United States, 91 Fed. Cl. 412, 415-17
(2010).

118a
such that a reasonable [trier of fact] could return a
verdict for the nonmoving party.” Id.; see also Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
587 (1986); Becho, Inc. v. United States, 47 Fed. Cl.
595, 599 (2000).
When making a summary judgment determination,
the court is not to weigh the evidence, but to “determine whether there is a genuine issue for trial.”
Anderson, 477 U.S. at 249; see also Agosto v. Immigration
& Naturalization Serv., 436 U.S. 748, 756 (1978) (“[A]
[trial] court generally cannot grant summary judgment based on its assessment of the credibility of the
evidence presented.”); Am. Ins. Co. v. United States, 62
Fed. Cl. 151, 154 (2004). The court must determine
whether the evidence presents a disagreement sufficient to require fact finding, or, conversely, is so onesided that one party must prevail as a matter of law.
Anderson, 477 U.S. at 250-52; see also Ricci v. DeStefano,
557 U.S. 557, 586 (2009) (“‘Where the record taken as
a whole could not lead a rational trier of fact to find
for the nonmoving party, there is no genuine issue for
trial.’” (quoting Matsushita, 475 U.S. at 587)). Where
there is a genuine dispute, all facts must be construed,
and all inferences drawn from the evidence must be
viewed, in the light most favorable to the party
opposing the motion. Matsushita, 475 U.S. at 587-88
(citing United States v. Diebold, 369 U.S. 654, 655
(1962)); see also Stovall v. United States, 94 Fed. Cl.
336, 344 (2010); L.P. Consulting Grp., Inc. v. United
States, 66 Fed. Cl. 238, 240 (2005). “‘Where, as here, a
court rules on cross-motions for summary judgment,
it must view each motion, separately through this
prism.’” Pew Forest Prods. v. United States, 2012
WL 1574109, at *3 (Fed. Cl. May 7, 2012) (quoting
Carolina Plating Works, Inc. v. United States, 102 Fed.
Cl. 555, 559 (2011)).

119a
A careful review of the briefs on these cross-motions
for summary judgment indicates that underlying all
the claims and counterclaims are a host of genuine
issues of material fact that preclude this court from
entering summary judgment as to any aspect of this
case. Rather, it would appear that these questions –
involving the meaning of key provisions in the settlement agreement, whether the agreement in question
was breached, the quantum and categories of any
damages owed, and the resolution of defendant’s
counterclaim – are suitable only for resolution at trial.
That said, the court notes, in passing, that defendant’s argument regarding the availability of tort-like
damages in this case appears to repeat, albeit in
summary judgment terms, some of the arguments that
this court already rejected in holding that it had
jurisdiction over this case.
See Dobyns, 91 Fed. Cl. at 417-18; see also SGX-92X003 v. United States, 74 Fed. Cl. 637, 655 (2007).
These arguments are no more persuasive the second
time around.3 Indeed, they are among several found in
defendant’s briefs that now, and for any future trial,
are governed by law-of-the-case considerations. See
Christianson v. Colt Indus. Operating Corp., 486 U.S.
800, 815-16 (1988); see also Alli v. United States, 2012
WL 1708307, at *4 n.3 (Fed. Cl. May 15, 2012).
Defendant also claims that “Mr. Dobyns, despite 18
months of discovery, has yet to specify the damages he
will seek at trial.” In support of this assertion, it cites
to plaintiff’s response to questions that defendant
posed to him during his deposition. What defendant
3

That plaintiff has offered enough evidence to survive defendant’s motion is, of course, no predictor of whether he will actually
be able to prove his entitlement to tort-like damages at trial.

120a
failed to reveal, until prompted by an order of this
court, is that in answer to defendant’s discovery
requests plaintiff supplied: (i) several formal claims
that he filed with defendant shortly before he filed his
complaint in this case, in which plaintiff claimed a
total of approximately $4.05 million in damages (with
this figure broken down into subfigures associated
with particular categories of damages); and (ii) approximately a thousand pages of cost/reimbursement documents.4 These documents give defendant’s claim of
lack of specificity on this point a somewhat hollow ring.
Based upon the foregoing, plaintiff’s motion for partial
summary judgment is hereby DENIED and defendant’s cross-motion for summary judgment is hereby
DENIED. On or before October 16, 2012, the parties
shall file a joint status report proposing a trial date, a
trial location and a schedule for pretrial filings.5
IT IS SO ORDERED.
s/Francis M. Allegra
Francis M. Allegra
Judge

4

While Mr. Dobyns did not definitively respond, at his
deposition, to questions regarding the quantum of damages he
seeks, this is not surprising given the nature of his damages
claim. It appears that, at this deposition, defendant failed to ask
Mr. Dobyns about any of the formal claims for damages that he
filed prior to filing suit in this case. At any rate, the other
evidence in the record raises questions of fact regarding the
damages potentially owed here. Compare Barrera v. W. United
Ins. Co., 2012 WL 359748, at *6-7 (D. Nev. Feb. 2, 2012).
5

The court intends to unseal and publish this opinion after
October 15, 2012. On or before October 14, 2012, each party shall
file proposed redactions to this opinion, with specific reasons
therefor.

121a
APPENDIX D
IN THE UNITED STATES COURT OF
FEDERAL CLAIMS
————
No. 08-700C
————
JAY ANTHONY DOBYNS,
Plaintiff,

v.
THE UNITED STATES,

Defendant.
————
Contract case; Motion to dismiss under RCFC
12(b)(1) and (b)(6); Jurisdiction; Tort claim arising
primarily under contract; Breach of settlement
agreement; Agreement to comply with applicable
laws; Breach of covenant of good faith and fair
dealing; Failure to state a claim; Twombly and Iqbal
examined; Impact on Conley; Plausibility standard;
Second amended complaint stated plausible breach
claims; Freedom of Information Act.
————
(Filed: January 15, 2010)
Reissued: February 1, 20101
————
OPINION
1

An unredacted version of this opinion was issued under seal
on January 15, 2010. The parties were given an opportunity to
propose redactions, but no such proposals were made.

122a
James Bernard Reed, Baird, Williams & Greer,
Phoenix, AZ, for plaintiff.
Kent Christopher Kiffner, Civil Division, United
States Department of Justice, Washington, D.C., with
whom was Assistant Attorney General Tony West, for
defendant.
ALLEGRA, Judge:
In this case, an agent of the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF) alleges that,
following a highly successful undercover operation,
ATF failed to protect him and his family from threats
and violence, and otherwise subjected him to a hostile
work environment. He asserts that ATF’s malfeasance
and misfeasance in these and other regards violated
an agreement he had with the agency settling a prior
employment dispute, thereby giving rise to contract
claims over which this court has jurisdiction under
the Tucker Act, 28 U.S.C. § 1491. Defendant argues
otherwise, registering its objections in a motion to
dismiss almost all of plaintiff’s claims under RCFC
12(b)(1) and (b)(6).
I. BACKGROUND
A brief recitation of the facts provides necessary
context.2
Plaintiff, Jay Anthony Dobyns, has been employed
as a Special Agent with ATF since 1987 and has
performed extensive undercover investigative work.
For a period of twenty-one months, between 2001 and
2003, plaintiff was the lead undercover agent in “Operation Black Biscuit,” an operation that infiltrated
2

These facts are drawn from plaintiff’s complaint and, for
purposes of this motion, are assumed to be correct. See Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 556 (2007) (discussed below).

123a
the Hell’s Angels motorcycle gang. Operation Black
Biscuit represented the first-ever penetration of the
Hell’s Angels and led to the indictment of more than
sixteen members of that organization. During the
operation, plaintiff was stationed in ATF’s Tucson,
Arizona field office and lived locally with his family.
Following the conclusion of the operation, plaintiff’s
identity became publically known, subjecting him to
threats and retaliation from members and associates
of the Hell’s Angels.
At or around this time, plaintiff’s relationship
with his employer deteriorated. Plaintiff alleges that,
from 2004 to 2007, ATF ignored numerous retaliatory
threats made against him and his family by the Hell’s
Angels, and took insufficient and ineffective action to
protect plaintiff and his family or to “backstop” their
identities. Plaintiff alleges that when he complained
to his3 superiors about this treatment, he became the
target of widespread retaliatory actions within ATF,
which included character attacks on his personal and
professional reputation, among them claims that he
was psychologically unfit to perform his job. At or
around this time, plaintiff filed an agency grievance
with ATF, as well as complaints with ATF’s Office of
Special Counsel and the Department of Justice’s Office
of Inspector General (OIG).

3

As described in a report referenced in plaintiff’s complaint,
“[b]ackstopping is essentially the covert establishment of a
fictitious identity for the agent.” Office of the Inspector General,
U.S. Dept. of Justice, OIG Report on Allegations by Bureau of
Alcohol, Tobacco, Firearms and Explosives Special Agent Jay
Dobyns, at 3 (2008) (hereinafter “OIG Report”). Under this process, fictitious items of identification are provided to the agent
and his or her family members, and various other fictitious records
(e.g., voter registration) are generated. Id.

124a
On September 20, 2007, plaintiff entered into a
settlement agreement with ATF which, as stated
therein, was intended “to fully resolve and settle any
and all issues and disputes rising out of [plaintiff’s]
employment with [ATF].” The settlement agreement
provided that plaintiff would receive $373,000 in “full
and final settlement for any and all claims that have
been brought or could have been brought up to the date
of [the] Agreement.” More than this, ATF undertook
several prospective obligations
• In paragraph 2, ATF agreed that “[s]hould any
threat assessment indicate that the threat to
[plaintiff] and his family has increased from
the assessment completed in June 2007, the
[ATF] agrees to fully review the findings with
[plaintiff] and get input from [plaintiff] if a
transfer is necessitated.”
• In paragraph 6, “[plaintiff] agrees that he will
comply with [ATF] requirements and will seek
permission for any outside employment, including speaking, writing, teaching or consulting.”
Correspondingly, “[ATF] agrees that it will handle such requests in a manner consistent with
[ATF] practice and procedure.”
• In paragraph 10, ATF agreed “that it will comply with all laws regarding or otherwise affecting
[plaintiff’s] employment by the agency.”
Additionally, paragraph 13 of the agreement provided
for an administrative remedy in the event of a dispute
over the settlement, ultimately authorizing an “appeal
to the Equal Employment Opportunity Commission
(EEOC) for a determination as to whether the
Department has complied with the terms of the
[settlement agreement].”

125a
In August, 2008, plaintiff’s home in Tucson was
destroyed by a fire. Plaintiff and his family fortunately
were spared. The fire was subsequently determined
to be arson. Plaintiff believes this fire was set by
members of the Hell’s Angels (or their agents) with the
intent to kill him and his family in retaliation for his
involvement with Operation Black Biscuit. He avers
that ATF’s response to this incident was wholly inadequate, unreliable and inconsistent with established
ATF procedures. Specifically, he alleges that a single
ATF investigator was dispatched belatedly to the
scene, thirty hours after the incident, and that ATF’s
pursuit of the investigation was halting and erratic
first, it refused to get involved at all, then it took over
the investigation from the local police, and, later, it
shifted the investigation to the Federal Bureau of
Investigation. Plaintiff further alleges that, although
ATF internal procedures require that a threatened
agent receive support and information from ATF following an incident, he received none. Plaintiff complained
to his supervisor regarding ATF’s poor handling of the
incident and its failure to follow internal protocols
concerning the investigation.
Plaintiff alleges that on the same day he lodged
these complaints, he learned that ATF had named him
as a suspect in the arson and attempted murder of his
family. He allegedly told his supervisor that, to clear
his name, he was willing to submit to a polygraph,
make all his personal information available for investigation and provide a verifiable alibi. However, he
avers that ATF ignored this offer and refused to strike
him from the suspect list. Plaintiff further alleges that
his supervisors attempted to manipulate the official
investigative finding as to the cause of the fire from
arson to “undetermined,” in an attempt to shift atten-

126a
tion away from the agency’s inadequate response and
investigation.
On September 2, 2008, the OIG released a report
concerning plaintiff’s complaints of mistreatment. The
OIG report concluded that, between 2004 to 2007, ATF
had responded inappropriately in investigating the
threats against plaintiff and in relocating plaintiff and
his family. OIG Report, supra, at 1, 11, 15, 19. In this
regard, the report found
With regard to ATF’s response to specific
threats against Dobyns, we found that ATF
appropriately decided to relocate Dobyns and
his family to Santa Maria, California, in
September 2004, following the receipt of the
first of four specific threats made against
him. However, due to a series of miscommunications among the ATF managers responsible
for implementing this decision, the transfer
was handled as a standard change of duty
station rather than an emergency relocation.
As a result, Dobyns and his family were not
provided appropriate support resources to
protect their identities and location that
normally accompany an emergency relocation. Upon receipt of another threat, ATF
became aware that the move to Santa Maria
had been mishandled. As a result, ATF relocated Dobyns and his family to Los Angeles
with the appropriate safeguards in place.
With regard to the three other threats, we
found that ATF needlessly and inappropriately delayed its responses to two of the
threats. We also concluded that ATF should
have done more to investigate two of the
threats.

127a
Id. at 1. In so concluding, the OIG determined that, in
responding to various threats made against plaintiff
during this period, ATF had not always followed
its internal procedures for assessing, evaluating and
responding to threats against agents. Among these
were ATF Order 3210.7C, which concerns reporting
procedures for threats against agents; ATF Order
3250.1A, which sets forth emergency move procedures
when an agent receives a threat; and ATF Order
3040.2, which provides additional guidance regarding
assessment of threats against ATF agents. Id. at 3-6.
The OIG opined that ATF should have taken threats
against Agent Dobyns and his family “more seriously,”
id. at 11; see also id. at 15; and that its responses to
various threats were “inadequate,” “incomplete,” and
“unnecessarily” or “needlessly” delayed, id. at 15, 19.
On October 2, 2008, plaintiff (and his family) filed
suit in this court, seeking damages for breach of contract and other ATF actions. On December 30, 2008,
defendant moved to dismiss this complaint under
RCFC 12(b)(1), 12(b)(2) and 12(b)(6). After the motion
was fully briefed, the court issued an order setting a
status conference. In response to that order, on April
1, 2009, plaintiff filed a motion to file a first amended
complaint, in which only he was listed as a plaintiff.
The court granted the latter motion following a status
conference held on April 15, 2009. On May 15, 2009,
defendant filed a notice that it was renewing its
motion to dismiss. On May 19, 2009, plaintiff filed a
motion to further amend his pleadings. On May 20,
2009, the court granted this second motion to amend
and established a briefing schedule on the defendant’s
renewed motion to dismiss. Following the completion
of briefing, oral argument on the motion was held on
September 9, 2009.

128a
II. DISCUSSION
Plaintiff’s original complaint contained numerous
legal defects it listed twenty-seven private individuals
as defendants; presented a number of claims that
solely sounded in tort, e.g., harassment, discrimination, slander, defamation; asserted contract claims on
behalf of individuals (Agent Dobyns’ wife and children) who lacked privity with the United States; and
invoked a variety of statutes, e.g., the Crime Victims’
Rights Act, 18 U.S.C. § 3771, the violations of which
do not give rise to jurisdiction in this court either
independently or under the Tucker Act, 28 U.S.C.
§ 1491(a)4. His first amended complaint corrected
some, but not all, of these problems. But, these are not
the complaints before the court. And defendant
acknowledges as it must that most of the deficiencies
it previously cited have been remedied in plaintiff’s
second amended complaint. That most recent complaint views plaintiff’s claims almost entirely through
the prism of alleged breaches of the 2007 settlement
agreement. Nevertheless, defendant persists in seeking to dismiss virtually all the counts of this most

4

For a brief sampling of the many cases demonstrating these
deficiencies, see, e.g., Jentoft v. United States, 450 F.3d 1342, 1349
(Fed. Cir. 2006) (court lacks jurisdiction over claims sounding
solely in tort); Brown v. United States, 105 F.3d 621, 624 (Fed.
Cir. 1997) (court lacks jurisdiction over suits against Federal
officials); Chancellor Manor v. United States, 331 F.3d 891, 899
(Fed. Cir. 2003) (no contract jurisdiction absent privity); Loveladies
Harbor, Inc. v. United States, 27 F.3d 1545, 1554 (Fed. Cir. 1994)
(indicating that outside of contract, a substantive right enforceable against the United States for money damages must be based
on a “money-mandating” statute).

129a
recent complaint, either as ones over which this court
lacks jurisdiction or those which fail to state a claim.5
A. Jurisdiction – RCFC 12(b)(1)
Defendant first argues that, despite the refinements
made by the two successive amendments, the majority
of plaintiff’s claims still sound in tort and thus must
be dismissed for lack of jurisdiction. To be sure,
plaintiff continues to raise claims involving misrepresentation, slander, harassment and defamation. Yet,
as is evident from the second amended complaint, all
the aforementioned claims, save one, now arise in the
context of alleged breaches of the settlement agreement.
The Tucker Act waives sovereign immunity in all
actions brought in this court “founded either upon the
Constitution, or any Act of Congress or any regulation
of an executive department, or upon any express or
implied contract with the United States . . . in cases
not sounding in tort.” 28 U.S.C. § 1491(a)(1) (emphasis
added). As the highlighted terms indicate, this court
lacks jurisdiction to entertain tort claims, which,
instead, are generally heard by district courts under
the Federal Tort Claims Act, 28 U.S.C. §§ 1346(b)(1),
2671. See Shearin v. United States, 992 F.2d 1195,
1197 (Fed. Cir. 1993). Yet, in Bird & Sons, Inc. v.
United States, 420 F.2d 1051, 1054 (Ct. Cl. 1970),
the Court of Claims stated that “‘an action may be
maintained in this court which arises primarily from
a contractual undertaking regardless of the fact that
the loss resulted from the negligent manner in which
5

Plaintiff asserts that defendant should be estopped from
seeking to dismiss his second amended complaint because
defendant’s counsel had agreed to the changes made by plaintiff.
As discussed at oral argument, the court has considered this
argument and finds it to be without merit.

130a
defendant performed its contract’” (quoting Chain Belt
Co. v. United States, 115 F. Supp. 701, 711-12 (Ct. Cl.
1953)). More recently, the Federal Circuit has instructed
that “[i]t is well established that where a tort claim
stems from a breach of contract, the cause of action is
ultimately one arising in contract, and thus is properly
within the exclusive jurisdiction of the Court of Federal
Claims . . .” Awad v. United States, 301 F.3d 1367,
1372 (Fed. Cir. 2002); see also Wood v. United States,
961 F.2d 195, 197 (Fed. Cir. 1982) (“Where the claim
is essentially for breach of contact and the liability
depends on the government’s alleged promise, jurisdiction is based on the Tucker Act not on the Federal Tort
Claims Act.”); SGS-92-X003 v. United States, 74 Fed.
Cl. 637, 655 (2006).6
6

In Chain Belt, the Court of Claims explained the rationale for
this rule thusly
While it is true that this court does not have jurisdiction over claims sounding primarily in tort, an action
may be maintained in this court which arises primarily
from a contractual undertaking regardless of the fact
that the loss resulted from the negligent manner in
which defendant performed its contract. Chippewa
Indians of Minnesota v. United States, 91 Ct. Cl. 97,
130, 131. A tortious breach of contract is not a tort
independent of the contract so as to preclude an action
under the Tucker Act. 28 U.S.C.A. §§ 1346, 2401, 2402.
United States v. Huff, 5 Cir., 165 F.2d 720, 723. In the
Huff case, the Government had leased lands occupied
by others as grazing lands under leases. The Government desired the land for military purposes, and it was
agreed that it would have the right to let down any
wire on the then existing wire fences but that following
the crossing of the fences by troops, the Government
would re-staple the wire and leave the fences in as good
condition and repair as they were at the time of entry
on the premises by the Government. The Government
failed to restaple the fences in a reasonable time and

131a
Hoping to distinguish these cases, defendant seizes
upon snippets from two prior decisions of this court.
On brief, it asserts that “the Second Amended Complaint is ‘nothing more than an attempt to reframe
certain of [Mr. Dobyns’] tort claims as arising under’
his Settlement Agreement with ATF,” quoting Edelmann
v. United States, 76 Fed. Cl. 376, 381 (2007). It likewise suggests that “parties cannot ‘disguise or mask a
substantive claim in tort as one in contract in order to
attempt to secure claims court jurisdiction,’” quoting
Reforestacion de Sarapiqui v. United States, 26 Cl. Ct.
177, 187 (1992), aff’d, 985 F.2d 583 (Fed. Cir. 1992). It
is difficult, though, to understand what solace defendant derives from these cases. They hardly stand for the
proposition that a plaintiff may not frame its claims so
as to bring them within this court’s jurisdiction. Nor
do they suggest that claims which, on their face,
appear proper should be dismissed if, when bathed in
a skeptical acid, an underlying “tactical motivation” is
revealed.7
Both cases, rather, involved tort claims that purportedly derived from implied-in-fact, oral agreements
contracts, as it turns out, that were found not to exist.
the grazing tenants were damaged. The court held that
this failure of the Government was a tortious breach of
contract but that such a breach was not a tort independent of the contract such as would preclude action
under the Tucker Act. See also Keifer & Keifer v.
Reconstruction Finance Corp., 306 U.S. 381, 59 S. Ct.
516, 83 L.Ed. 784.
Chain Belt, 115 F. Supp. at 711-12.
7

One is reminded of Holmes “[a] man may have as bad a heart
as he chooses, if his conduct is within the rules. In other words,
the standards of the law are external standards.” Oliver Wendell
Holmes, Jr., The Common Law 110 (Dover ed. 1991).

132a
See Edelmann, 76 Fed. Cl. at 381; Reforestacion de
Sarapiqui, 26 Cl. Ct. at 188-898. These cases thus
represent no grand departure from the well-established line of Federal Circuit decisions discussed above
(nor could they), but instead stand for the unremarkable proposition that a tort claim cannot arise “primarily”
from a contract if there is none. The situation here, of
course, is quite different. There is an express written
contract here and, defendant’s pettifoggery notwithstanding, plaintiff’s core claims are based upon the
alleged breach of that agreement (or the covenants
associated therewith). That should be and is enough.9
As a fallback position, defendant asserts that
plaintiff has insufficiently interlaced his claims with
the allegedly-breached terms of the settlement agreement. While the second amended complaint could be
clearer in this regard, ultimately, there is little mystery
as to which portions of the settlement agreement (a
scant six pages in length) are claimed to have been
breached. To dispel any ambiguity in this regard, one
need only juxtapose the complaint against the settlement agreement (which defendant submitted to the
court for consideration as part of its motion and which
8

In Reforestacion de Sarapiqui, this court briefly considered
whether such claims could be based upon a written agreement
between the parties, but discounted that theory as plaintiff had
admitted that the written agreement was not breached by the
United States. 26 Cl. Ct. at 188.
9

For a strikingly similar case, see SGS-92-X003, 74 Fed. Cl. at
655 (no lack of jurisdiction where claim alleged that government
negligently breached promises to maintain the secrecy of informant’s identity and protect her from harm or injury, where “complaint
is framed as a breach of contract action, not a negligence or
intentional tort action”); see also Bird & Sons, 420 F.2d at 1054
(“where an alleged ‘negligent act’ constitutes a breach of a contractually created duty, the Tucker Act does not preclude relief”).

133a
the court deems part of the second amended complaint)10. Doing so, it is readily apparent that various
provisions of the complaint, in particular, assert that
ATF did not comply with paragraph 2 of the settlement agreement in terms of how it approached the
assessment of threats to plaintiff and his family,
including that posed by the alleged arson attack on
their home. Plaintiff also asserts that he did not timely
receive payment of the amounts required to be paid
under paragraph 3 of the settlement agreement. In
addition, he makes out a dozen or so other separate
and related claims that defendant breached paragraph
10 of the agreement, which states that “[t]he Agency
agrees that it will comply with all laws regarding or
10

At oral argument, defendant admitted that it could not rely
upon this agreement in its arguments, yet deny plaintiff that
opportunity. This court, in fact, has often considered the content
of a contract attached to a complaint in considering a motion to
dismiss. See, e.g., Phang v. United States, 87 Fed. Cl. 321, 324
(2009); Patterson v. United States, 84 Fed. Cl. 583, 585 n.1 (2008);
Commonwealth Edison Co. v. United States, 46 Fed. Cl. 29, 46
(2000), aff’d, 271 F.3d 1327 (Fed. Cir. 2001), cert. denied, 525 U.S.
1096 (2002); see also Tellabs, Inc. v. Makor Issues & Rights, Ltd.,
551 U.S. 308, 322 (2007). Even though it submitted the settlement agreement for the court’s consideration, defendant argues
that plaintiff has not met the standard for pleading a contract
claim set out in RCFC 9(k). The latter rule states that “[i]n
pleading a claim founded on a contract . . . , a party must identify
the substantive provisions of the contract . . . on which the party
relies.” Id. It goes on to state in language not cited by defendant
that “[i]n lieu of a description, the party may annex to the complaint a copy of the contract . . . , indicating the relevant
provisions.” Id. In the court’s view, a comparison of the second
amended complaint to the settlement agreement, not to mention
defendant’s arguments on brief, leaves little doubt which substantive provisions of the agreement are operative here. See
Mendez- Cardenas v. United States, 88 Fed. Cl. 162, 168 (2009)
(describing the requirements of RCFC 9(k)).

134a
otherwise affecting [Mr. Dobyns’] employment by the
[ATF].”11 These include assertions (Second Amended
Complaint, ¶ 148) that the agency has, since the settlement agreement was executed in 2007, failed to take
steps to: (i) prevent ATF managers from retaliating
against plaintiff and otherwise creating “hostile work
conditions” for him; (ii) protect plaintiff and his family,
including failing to provide him and his family with
adequate covert identification in violation of “ATF
agent safety protection policy;” (iii) investigate properly
the arson of plaintiff’s home; and (iv) refused timely
to comply with nine requests for information under the
Freedom of Information Act. Finally, the complaint
asserts that (id. at ¶ 148) the “ATF’s continuing,
selective enforcement and application of ATF’s media
policy” violated the settlement agreement, with the
latter reference tied to paragraph 6 of the agreement,
in which ATF agreed that it would handle requests for
speaking requests “in a manner consistent with
Agency practice and procedure.”
Defendant takes no issue, at least in terms of
jurisdiction, with plaintiff’s claim that he was not paid
on a timely basis in breach of paragraph 3 of the
11

Defendant also flatly errs in asserting that the settlement
agreement in question is not the sort of “contract” upon which
jurisdiction may be premised under the Tucker Act. The decisional law on this point is decidedly to the contrary. See Stovall
v. United States, 71 Fed. Cl. 696, 701-02 (2006) (stating that
“decisional law leaves no doubt that settlement agreements
generally fall within” the definition of express or implied contract
with the United States as used by the Tucker Act); see also Greco
v. Dep’t of Army, 852 F.2d 558, 560 (Fed. Cir. 1988) (“It is
axiomatic that a settlement agreement is a contract.”); Cook v.
United States, 85 Fed. Cl. 820, 822-23 (2009); Greenhill v. United
States, 81 Fed. Cl. 786, 790 (2008); Taylor v. United States, 73
Fed. Cl. 532, 545 (2006).

135a
settlement agreement. Nor does it seriously contest,
for jurisdictional purposes, plaintiff’s claim that ATF
violated its media policy. But, it strenuously contests
plaintiff’s reliance upon paragraph 10 of the settlement agreement in asserting that the violation of
various statutes, regulations and agency policies gave
rise to a compensable breach of the settlement agreement. The plain language of the agreement, however,
suggests otherwise, as it states that ATF “agrees that
it will comply with all laws regarding or otherwise
affecting [Mr. Dobyns’] employment by the Agency.”
Under contract construction principles, of course, that
plain meaning is ordinarily controlling.12 Defendant,
moreover, offers no competing construction of this language. Indeed, it does not argue that it is ambiguous,
except seemingly to say that the language cannot
mean what it says. The latter jeremiad, however, is
little more than an invitation to ignore the language
altogether, which the court is not at liberty to do, for it
must instead “interpret the contract in a manner that
gives meaning to all of its provisions.” McAbee Constr.,
97 F.3d at 1435.13 Despite defendant’s entreaties, the
12

See Stockton E. Water Dist. v. United States, 583 F.3d 1344,
1362 n.35 (Fed. Cir. 2009) (“Ordinarily when a provision is found
to have a plain meaning, that is deemed to conclusively establish
the parties intent.”); McAbee Constr. Inc. v. United States, 97 F.3d
1431, 1434-35 (Fed. Cir. 1996) (same); Ace Constructors, Inc. v.
United States, 499 F.3d 1357, 1361 (Fed. Cir. 2007) (same);
Alaska Lumber & Pulp Co. v. Madigan, 2 F.3d 389, 392 (Fed. Cir.
1993) (“if the provisions are clear and unambiguous, they must
be given their plain and ordinary meaning”); Gould, Inc. v. United
States, 935 F.2d 1271, 1274 (Fed. Cir. 1991).
13

See also United Int’l Investigative Servs. v. United States, 109
F.3d 734, 737 (Fed. Cir. 1997) (the court “must interpret [a
contract] as a whole and ‘in a manner which gives reasonable
meaning to all its parts’” (quoting Granite Constr. Co. v. United
States, 962 F.3d 998, 1003 (Fed. Cir. 1992), cert. denied, 506 U.S.

136a
court thus cannot render this language “surplusage.”
Granite Constr., 962 F.2d at 1003.
Nor is the clause in question too general to be
enforced. This is not a case, like several cited by
defendant, in which special construction rules come
into play requiring that the incorporation of laws by
reference be specific. See, e.g., Northrop Grumman
Info. Tech., Inc. v. United States, 535 F.3d 1339, 1345
(Fed. Cir. 2008); Smithson v. United States, 847 F.2d
791, 794 (Fed. Cir. 1988), cert. denied, 488 U.S. 1004
(1989); see also St. Christopher Assocs., L.P. v. United
States, 511 F.3d 1376, 1384 (Fed. Cir. 2008). These
cases do not involve clauses in which the United States
expressly agreed to comply with one or more categories
of laws, but rather instances in which the plaintiff
sought to imply as much based upon provisions indicating, for example, that an agreement was “subject
to” a given set of regulations. See, e.g., Smithson, 847
F.2d at 794. It was in the latter context that the
Federal Circuit opined in Northrop Grumman, 535
F.3d at 1345, that “the language used in a contract to
incorporate extrinsic material by reference must explicitly, or at least precisely, identify the written material
being incorporated and must clearly communicate

1048 (1993))); Arizona v. United States, 575 F.2d 855, 863 (Ct. Cl.
1978) (“[A]n interpretation which gives a reasonable meaning to
all parts will be preferred to one which leaves a portion of it
useless, inexplicable, inoperative, void, insignificant, meaningless, superfluous, or achieves a weird and whimsical result.”);
Spectrum Sciences and Software, Inc. v. United States, 84 Fed.
Cl. 716, 735 (2008) (same); Franconia Assocs. v. United States, 61
Fed. Cl. 718, 730 (2004) (same).

137a
that the purpose of the reference is to incorporate the
referenced material into the contract.”14
The situation here is starkly different. To begin
with, paragraph 10 of the settlement agreement does
not purport to incorporate, by reference, any particular statutes or regulations. Rather, by design, it
sweeps more broadly, undoubtedly to afford plaintiff a
contractual remedy should ATF, in the future, not
comply with all laws regarding or affecting his employment.15 And it is precisely that remedy which plaintiff
now seeks to invoke a remedy not unlike that afforded
private disputants under similarly-worded contract
clauses.16 Whether it was wise for ATF to agree to such
a provision here one way in which defendant attempts
14

Moreover, in Northrop Grumman, the Federal Circuit
specifically rejected the notion that incorporations by reference
had to be accomplished through some “magic words,” stating “a
requirement that contract language be explicit or otherwise clear
and precise does not amount to a rule that contracting parties
must use a rote phrase or a formalistic template to effect an
incorporation by reference.” 535 F.3d at 1345.
15

Although defendant does not argue otherwise, it should be
noted that, in a variety of contexts, the word “laws” has been
construed to include not only statutes, but properly promulgated
regulations, court decisions and other actions having the effect of
law. See, e.g., City of New York v. FCC, 486 U.S. 57, 63 (1988).
16 16

See Green v. Begley Co., 2008 WL 4449065, at *4 (S.D. Ohio
Sept. 29, 2008) (breach of contract action existed where defendant
allegedly failed to comply with “all applicable laws, ordinances,
rules and regulations”); Int’l Gateway Exch., LLC v. Western
Union Fin. Servs., 333 F. Supp. 2d 131, 145-56 (S.D.N.Y. 2004)
(party could pursue damages for breach of agreement to “comply
in all material respects with all banking and consumer protection
laws and regulations”); see also Shurland v. Bacci Café & Pizzeria
on Ogden, Inc., 259 F.R.D. 151, 163 (N.D. Ill. 2009); Beringer v.
Standard Parking O’Hare Jt. Venture, 2008 WL 4890501, at *6
(N.D. Ill. Nov. 12, 2008).

138a
to frame this issue is, of course, quite immaterial.
What is relevant is that the agency did so agree.17
Hence, it appears that breaches of paragraph 10 of the
settlement agreement do give rise to contract claims
under the Tucker Act and that plaintiff has properly
invoked this jurisdiction as to such claims.18
Finally, defendant claims that this court lacks
jurisdiction over various claims made by plaintiff that
defendant violated the covenant of good faith and fair
dealing associated with the settlement agreement.
Plaintiff asserts that the agency’s harsh treatment of
him subsequent to the settlement agreement violated
the covenant of good faith and fair dealing associated
with the portions of that agreement that promoted
him, assigned him to a new position, terminated various
disciplinary actions pending against him, ordered
various matters expunged from his personnel file, and
resolved various discrimination and retaliation claims
then pending against the agency.19 But, in a well17

Defendant’s assertion that no reasonable person would agree
to such sweeping language seems strangely off key given the
government’s practice of regularly requiring the persons with
whom it deals to do the same thing. See 48 C.F.R. § 52.212-4(q)
(requiring procurement contractors to “comply with all applicable
Federal, State and local laws, executive orders, rules and
regulations applicable to its performance under this contract”);
24 C.F.R. § 883.310(b)(6) (making a similar requirement for
recipients of Federal housing assistance).
18

As will be discussed below, this is not to say that all of the
claims raised by plaintiff relate to violations of “laws regarding
or otherwise affecting [Mr. Dobyns’] employment by the [ATF].
19

In this regard, he avers, inter alia, that ATF “knowingly and
willfully allowed managers to perpetuate a hostile work environment . . . , including harassment and whistle-blower retaliation”
(¶ 37); “knowingly and willfully continued prior or then-existing
internal affairs investigations, along with reformatting and
ordering new internal affairs investigations into [him] on over

139a
rehearsed argument, defendant claims that plaintiff
cannot predicate jurisdiction upon a breach of the covenant absent corresponding violations of the underlying
agreement. This court and the Federal Circuit, however,
have repeatedly rejected this argument.20 They have
done so reasoning, inter alia, that “[s]uch covenants
require each party . . . ‘not to act so as to destroy the
reasonable expectations of the other party regarding
the fruits of the contract.’” Info Sys. & Networks, 81
Fed. Cl. at 750 (quoting Centex, 395 F.3d at 1304); see
also Market St. Assocs. L.P. v. Frey, 941 F.2d 588, 594
(7 Cir. 1991) (Posner, J.) (indicating that a breach of
the covenant occurs when there has been “sharp dealing”). The rationale of these cases fits plaintiff’s case
like a glove that defendant, with one hand restored
plaintiff to his proper position and emoluments, but,
with the other, frustrated his enjoyment of the
same. Such a claim manifestly may be maintained in
this court. Defendant’s arguments to the contrary are
unpersuasive.
While plaintiff’s second amended complaint is no
model of clarity, the question here is not whether
plaintiff could have exhibited better draftsmanship.
Rather, it is whether the second amended complaint,
when viewed overall, adequately invokes this court’s
jurisdiction. And, the answer to that question is yes.
eleven different occasions” (¶ 38); and “sought to add to the
[family’s] misery . . . by serving Dobyns with a relocation transfer”
(¶ 143).
20

See Centex Corp. v. United States, 395 F.3d 1283, 1304 (Fed.
Cir. 2005); Jay Cashman, Inc. v. United States, 88 Fed. Cl. 297,
308 (2009); Info. Sys. & Networks Corp. v. United States, 81 Fed.
Cl. 740, 750-51 (2008), aff’d, 2009 WL 4755696 (Fed. Cir. Dec. 14,
2009); North Star Alaska Housing Corp. v. United States, 76 Fed.
Cl. 158, 188 (2007).

140a
Accordingly, the court must deny that portion of
defendant’s motion predicated upon RCFC 12(b)(1).21
B. Failure to State a Claim
Defendant’s arguments under RCFC 12(b)(6) particularly as framed at oral argument raise serious questions
regarding the standard to be employed by this court in
assessing whether plaintiff’s complaint fails to state a
claim. In one way or another, those arguments revolve
around the notion that despite its 147 counts and
43 typed pages, plaintiff’s complaint lacks specificity
that it is, to quote one of defendant’s briefs, “nothing
more than ‘an unadorned, the defendant-unlawfullyharmed-me accusation.’” (quoting Ashcroft v. Iqbal,
129 S. Ct. 1937, 1949 (2009)). This is true, defendant
asseverates, both because of the complaint’s lack of
factual specificity, as well as its failure to establish
nexuses between the actions averred and the breach of
particular paragraphs in the settlement agreement at
issue. Defendant grounds these claims on the new
pleading precision it argues is demanded by two recent

21

Defendant asserts that the administrative review procedure
set forth at paragraph 13 of the settlement agreement represents
plaintiff’s sole remedy for breach of the settlement agreement. In
support of this argument, it cites Doe v. United States, 513 F.3d
1348, 1355-56 (Fed. Cir. 2008). But, that case involved a statute
which, by its terms, offered the “exclusive” procedure for dealing
with breaches of a collective bargaining agreement, id. at 1355
(citing 5 U.S.C. § 7121(a)(1)), and thus is inapposite. Various
cases in this court have correctly refused to construe contract
clauses as precluding relief that would otherwise lie under the
Tucker Act, unless the language to that effect is unmistakable.
See, e.g., Patterson v. United States, 84 Fed. Cl. 583, 585 (2008);
Greenhill v. United States, 81 Fed. Cl. 786, 791 (2008). That is not
the case here.

141a
Supreme Court cases Twombly and Iqbal. A full
discussion of those cases is thus in order.22
1. Standard of review
In Twombly, the Supreme Court held that allegations of parallel conduct by competitors, without more
specifics, were insufficient to plead an antitrust violation under the Sherman Act, 15 U.S.C. § 1. 550 U.S. at
548-49. While the Court disclaimed any intent to
require the “heightened fact pleading of specifics,” id.
at 570, it opined that, to state a claim under Rule
12(b)(6), a plaintiff must plead “enough facts to state
a claim to relief that is plausible on its face.” 550 U.S.
at 570.23 “[A] complaint attacked by a Rule 12(b)(6)
motion to dismiss does not need detailed factual
allegations,” the Court further explained, id. at 555
(citing the language in Rule 8), yet “[f]actual allegations must be enough to raise a right to relief above
the speculative level” and cross “the line from conceivable to plausible.” Id. In so holding, the Court
rejected that portion of Justice Black’s opinion in
Conley v. Gibson, 355 U.S. 41, 45-46 (1957), in which
he wrote of “the accepted rule that a complaint should
not be dismissed for failure to state a claim unless it
appears beyond doubt that the plaintiff can prove no
set of facts in support of his claim which would entitle
him to relief.” Twombly held that “[t]he phrase is best
forgotten as an incomplete, negative gloss on an
22

To say the least, these cases have drawn considerable
attention. See, e.g., “Statistical Information on Motions to Dismiss
re Twombly/Iqbal: Dec 2009) and “Caselaw Study on Post-Iqbal
Cases (Rev. 1/12/10)” both available at http://www.uscourts.gov/
rules (as last viewed on Jan. 12, 2010 at 1:15 pm).
23

Both RCFC 12 and RCFC 8, which will be discussed in
greater detail below, are virtually identical to their federal rules
counterparts.

142a
accepted pleading standard,” 550 U.S. at 563, one that
merely “described the breadth of opportunity to prove
what an adequate complaint claims, not the minimum
standard of adequate pleading to govern a complaint’s
survival.” Id.
Two years later, in Iqbal, the Supreme Court
clarified that Twombly’s “plausibility” standard applies
to all civil cases.24 Iqbal concerned claims by a Muslim
that aliens who were detained on immigration charges
following the September 11 attacks were selectively
placed in their restrictive conditions depending upon
their race and religion. 129 S. Ct. at 1951. The Court
found that the allegations in the complaint were
insufficient to state a discrimination claim under the
“plausibility” standard. Id. at 1952.
The Court began “by identifying the allegations in
the complaint that are not entitled to the assumption
of truth.” Id. at 1951. Employing language from
Twombly, it described such allegations in this case, the
paragraphs describing the prongs of a constitutional
discrimination claim as those “that offer[] ‘labels and
conclusions’ or ‘a formulaic recitation of the elements
of a cause of action.’” Id. at 1949 (quoting Twombly,
550 U.S. at 555). Such “bare assertions,” which do no
more than state legal conclusions, are “not entitled to
be assumed true,” the Court concluded they, rather,
are “disentitle[d] . . . to the presumption of truth” even
if cast in the form of a factual allegation. 129 S. Ct. at
1951 (citing Twombly, 550 U.S. at 555). Having culled
24

Notably, Iqbal was decided over the dissent of Justice Souter,
the author of the majority opinion in Twombly, who characterized
the 5-4 majority opinion as “bespeak[ing] a fundamental misunderstanding of the enquiry that Twombly demands.” 129 S. Ct.
at 1959; see also Smith v. Duffey, 576 F.3d 336, 340 (7 Cir. 2009)
(making this same observation).

143a
these legal conclusions from the complaint, the Court
proceeded to evaluate the remainder thereof under the
“plausibility” standard. That standard “is not akin to
a ‘probability requirement,’” the Court explained, and
“asks for more than a sheer possibility that a defendant has acted unlawfully.” Iqbal, 129 S. Ct. at 1949.
Inter alia, it provides that “[w]here a complaint pleads
facts that are ‘merely consistent with’ a defendant’s
liability, it ‘stops short of the line between possibility
and plausibility of entitlement to relief.’” Id. at 1949
(quoting Twombly, 550 U.S. at 557). Determining
whether this line is passed is a “context-specific task
that requires the reviewing court to draw on its judicial experience and common sense.” Id. at 1949-50;
see also Petro-Hunt, LLC v. United States, 2009 WL
3765495, at *19 (Fed. Cl. Nov. 6, 2009). That said,
“where the well-pleaded facts do not permit the court
to infer more than the mere possibility of misconduct,
the complaint has alleged but has not ‘show[n]’ that
the pleader is entitled to relief.” 129 S. Ct. at 1950
(quoting Fed. R. Civ. P. 8(a)(2)).
In combination, Twombly and Iqbal prescribe a twopronged approach to evaluating the sufficiency of a
complaint the court must first disregard any legal conclusions, such as the recitation of legal formulae, and
then must subject the surviving allegations, presumed
to be true, to the “plausibility” standard. See Kenney
Orthopedic, LLC v. United States, 88 Fed. Cl. 688, 697
(2009). While this much is clear, “Iqbal and Twombly
contain few guidelines to help the lower courts discern
the difference between a ‘plausible’ and an implausible
claim and a ‘conclusion’ from a ‘detailed fact.’” Riley v.
Vilsack, 2009 WL 3416255, at *7 (W.D. Wis. Oct. 21,
2009); see also Courie v. Alcoa Wheel & Forged Prods.,
577 F.3d 625, 630 (6 Cir. 2009). This lack of guidance
has caused the courts to “reach varying conclusions

144a
about whether notice pleading remains or has been
supplanted by something new.” A. Benjamin Spencer,
“Understanding Pleading Doctrine,” 108 Mich. L. Rev.
1, 7 (2009) (hereinafter “Spencer”); see also “Pleading
Standards,” 123 Harv. L. Rev. 252, 261-62 (2009).25
The disparate judicial thinking on this subject may be
arrayed over a spectrum, with the placement of a given
decision dependent upon three variables. The first
variable involves the extent to which a given court
adheres to the “notice pleading” concept in Conley or,
conversely, how that court views what was abrogated
in Twombly. The second concerns how a court defines
what sort of claims are vel non entitled to be presumed
true where, for example, the line is drawn between
factual claims and mere recitations of legal elements.
The last variable focuses on how restrictively a given
court has applied the “plausibility” standard first
25

The Third Circuit has explained how this confusion was
engendered, thusly
What makes Twombly’s impact on the Rule 12(b)(6)
standard initially so confusing is that it introduces a
new “plausibility” paradigm for evaluating the sufficiency of complaints. At the same time, however, the
Supreme Court never said that it intended a drastic
change in the law, and indeed strove to convey the
opposite impression; even in rejecting Conley’s “no set
of facts” language, the Court does not appear to have
believed that it was really changing the Rule 8 or Rule
12(b)(6) framework.
Phillips v. County of Allegheny, 515 F.3d 224, 230 (3d Cir. 2008);
see also Commercial Money Ctr., Inc. v. Ill. Union Ins. Co., 508
F.3d 327, 337 n.4 (6 Cir. 2007) (“We have noted some uncertainty
concerning the scope of Bell Atlantic Corp. v. Twombly. . .”);
Spencer, supra, at 7; see generally Smith, 576 F.3d at 339-40
(noting that Twombly is “fast becoming the citation du jour in
Rule 12(b)(6) cases”); Robert L. Rothman, “Twombly and Iqbal: A
License to Dismiss,” 35 Litig. 1 (2009).

145a
enunciated in Twombly and then elaborated upon in
Iqbal. See Spencer, supra, at 7-8. This last variable is
dominant, as it has the potential of driving the other
two.
On one end of that spectrum are decisions that
construe Twombly and Iqbal in minimalist terms.
These cases continue to view the Rule 8(a) pleading
standard in forgiving terms, refusing to budge from all
or nearly all the traditional concepts identified with
notice pleading26 many of these decisions unflinchingly
continue to cite precedents that predate the Supreme
Court’s decisions, some going so far as to quote the
very “no set of facts” language in Conley that, of
course, was jettisoned in Twombly.27 On the other end
of the spectrum are decisions that view the Supreme
Court opinions as having established a fundamentally-

26

See Tamayo v. Blagojevich, 526 F.3d 1074, 1083 (7 Cir. 2008)
(stating that Twombly “did not . . . supplant the basic noticepleading standard”); Mull v. Abbott Labs., 563 F. Supp. 2d 925,
930 (N.D. Ill. 2008) (“[T]he Court did not adopt a fact-pleading
standard to supplant the notice-pleading standard that has long
applied in federal court.”).
27

See, e.g., Grand River Enters. Six Nations, Ltd. v. Beebe, 574
F.3d 929, 935 (8 Cir. 2009) (“The motion should be granted if ‘it
appears beyond doubt that the plaintiff can prove no set of facts
which would entitle him to relief.’” (quoting Taxi Connection v.
Dakota, Minn. & E. R.R. Corp., 513 F.3d 823, 826 (8 Cir. 2009)));
White v. Gregory, 2009 WL 4506593, at *1 (S.D. Ga. Dec. 3, 2009);
Anderson v. United States, 2009 WL 4722229, at *3 (E.D. Wash.
Dec. 2, 2009) (citing Pillsbury, Madison and Sutro v. Lerner, 31
F.3d 924, 928 (9 Cir. 1994)); DePhillips v. United States, 2009 WL
4505882, at *1 (D. Md. Nov. 23, 2009) (citing Herlihy v. Ply-Gem
Indus., Inc., 752 F. Supp. 1282, 1285 (D. Md. 1990)); see also
NicSand, Inc. v. 3M Co., 507 F.3d 442, 460 (6 Cir. 2007) (Martin,
J., dissenting).

146a
different, significantly-heightened pleading standard.28
These decisions hold that the adoption of the “plausibility” standard worked a sea change, supplanting
Conley’s notice pleading in favor of a modified factpleading standard that denies the presumption of
truth to any claim that has any significant legal
dimension.29 Some of these decisions, moreover, could
be viewed as exhibiting an increased willingness to
discount individual factual allegations as implausible.
See, e.g., Mayor and City Council of Baltimore v. Wells
Fargo Bank, N.A., 2010 WL 46401, at *2-3 (D. Md.
Jan. 6, 2010); Feeley v. Total Realty Mgmt, 2009 WL
2902505, at *4-5 (E.D. Va. Aug. 28, 2009).
Between the ends of this spectrum (some might say
between the horns of this dilemma), there is, of course,
a middle. The cases in this central sector perceive
varying degrees of tension between the “notice pleading” requirement of Conley and at least some iterations
of the “plausibility” standard and assumption-of-truth
28

See, e.g., Kasten v. Ford Motor Co., 2009 WL 3628012, at *2
(E.D. Mich. Oct. 30, 2009) (“Together, Iqbal and Twombly form a
substantial departure from the traditional standard set forth by
Justice Black in Conley . . .”).
29

See, e.g., Travel Agent Comm. Antitrust Litigation, 583 F.3d
896, 911 (6 Cir. 2009) (construing Twombly as requiring a plaintiff
to plead enough specific facts “to raise a reasonable expectation
that discovery will reveal evidence” establishing a claim); id.
at 912 (Merritt, J., dissenting) (stating that the majority has
“seriously misapplied the new standard by requiring not simple
‘plausibility,’ but by requiring the plaintiff to present at the pleading stage a strong probability of winning the case”); Riley, 2009
WL 3416255, at *1 (in Twombly, “the Supreme Court ‘retired’ the
standard from Conley with little fanfare,” thereby “reinvigorat[ing]
motion practice under Fed. R. Civ. P. 12(b)(6)”); Cacho-Torres v.
Miranda-Lopez, 2009 WL 1034873, at *2 n.1 (D.P.R. Apr. 16,
2009) (“Twombly abrogated the standard for notice pleading
established in Conley . . .”).

147a
principle. They recognize that a given complaint
might not be viewed as crossing the “plausibility”
threshold unless it pleads significantly more facts
than might have been previously thought necessary.
They ponder how, to use the words of Twombly, a court
should strike the balance between holding that “a
complaint . . . does not need detailed factual allegations,” but that “[f]actual allegations must be enough
to raise a right to relief above the speculative level.”
550 U.S. at 555. Finally, while recognizing that Iqbal
makes clear that the new standard applies to all civil
cases, these cases hint at the prospect that the standard might resonate differently depending upon the
legal and factual scenario encountered.31
30

Defendant’s position, perhaps not surprisingly,
leans toward the side of the spectrum that views
Twombly and Iqbal as having significantly heightened
pleading standards. Yet, for several reasons, this court
believes that a middle of the road perspective one that
views the Supreme Court as having made several
significant changes, to be sure, but not as having, sub
silentio, entirely reworked Rule 8 represents the most
accurate statement of the law.
Under this view, the basic concept of notice pleading, as construed in Conley, survives. As Justice Black
once wrote, “[t]he Federal Rules of Civil Procedure do
30

See, e.g., Phillips, 515 F.3d at 231; McShane v. Merchants
Ins. Co., 2009 WL 3837245, at *2 (W.D. Pa. Nov. 16, 2009).
31

See, e.g., Smith, 576 F.3d at 339-40; Brace v. Massachusetts,
2009 WL 4756348, at *6 (D. Mass. Dec. 10, 2009); see also U.S. ex
rel. Grubbs v. Kanneganti, 565 F.3d 180, 185 (5 Cir. 2009) (“The
new reading raises a hurdle in front of what courts had previously
seen as a plaintiff’s nigh immediate access to discovery modest in
its demands but wide in its scope.”); Tooley v. Napolitano, 2009
WL 3818372, at *1 (D.C. Cir. Nov. 17, 2009).

148a
not require a claimant to set out in detail all the facts
upon which he bases his claim.” Conley, 355 U.S. at 47.
This approach stems directly from the language of
Rule 8(a)(2), which, virtually since its adoption, has
stated that a claim for relief need contain only “a short
and plain statement of the claim showing that the
pleader is entitled to relief.”32 Any notion that the
Supreme Court intended to go farther that is, to
replace the notice pleading standard in Conley with
some heightened form of fact-pleading is belied by
that part of Twombly in which the Court stated that
“once a claim has been stated adequately, it may be
supported by showing any set of facts consistent with
the allegations in the complaint.” 550 U.S. at 561. This
statement would not be accurate, of course, if all the
facts “consistent with the allegations in the complaint”
had to be in the complaint, ab initio. One arguing
otherwise must deal with the line of decisions that
post-dates Twombly in which the Court has reaffirmed
the traditional notice pleading concept enunciated in
Conley. A few weeks after it decided Twombly, the
Supreme Court thus held in Erickson v. Pardus, 551
U.S. 89, 93 (2007) (per curiam), that under Rule 8,
“[s]pecific facts are not necessary; the statement need
only ‘give the defendant fair notice of what the . . .
claim is and the grounds upon which it rests.’”33 As
32

The Supreme Court in Swierkiewicz v. Sorema N.A., 534 U.S.
506, 512 (2002), compared this general language in Rule 8 to
the “greater particularity” required by Rule 9(b). The latter rule
states that “[i]n alleging fraud or mistake, a party must state
with particularity the circumstances . . .” See also RCFC 8(b).
33

In Erickson, the Court held that a prisoner’s pro se complaint
stating that the doctor’s decision to withhold his prescribed
Hepatitis C medication was “endangering his life” and causing
“continued damage to [his] liver,” was a sufficient allegation of
substantial harm to survive a motion to dismiss. 551 U.S. at 91,

149a
these and other recent decisions attest, the notice
standard neither requires a claimant to “plead facts
establishing a prima facie case” nor to “set forth
all facts on which he relies to support his claim.”
Swierkiewicz, 534 U.S. at 511-13. To view the law
otherwise is to take a grand somersault backwards
toward the form/code pleading rules that Rule 8, not
to mention the remainder of the 1937 rules, were
designed to replace.34 Yet, there is no indication that

94. It rejected the heightened pleading standard used by the court
of appeals as “departing in [a] stark . . . manner from the pleading
standard mandated by the Federal Rules of Civil Procedure.” Id.
at 90. For other post-Twombly decisions reaffirming the notice
pleading standard, see Bridge v. Phoenix Bond & Indem. Co., 128
S. Ct. 2131, 2135 n.1 (2008); Iqbal, 129 S. Ct. at 1940; Tellabs,
551 U.S. at 319; see also Thomas v. Rhode Island, 542 F.3d 944,
948 n.4 (1 Cir. 2008); Petro-Hunt, 2009 WL 3765495, at *19;
Spencer, supra, at 6-7.
34

In 1943, Judge Charles Clark of the Second Circuit, who the
Supreme Court has described as one of the “principal draftsman”
of the Federal Rules, Gulfstream Aerospace Corp. v. Mayacamas
Corp., 485 U.S. 271, 283 (1988), remarked that one of the
principal purposes of the form pleading concept was to induce
admissions. Charles E. Clark, “Simplified Pleading,” 2 F.R.D.
456, 460 (1943). He noted, however, that over time, the practice
was viewed as “at best wasteful, inefficient, and time-consuming,
and at most productive of confusion as to the real merits of the
cause and even of actual denial of justice.” Id. Commenting on the
advent of notice pleading, Judge Clark further explained
This is a sound approach so far as it goes; but content
must still be given to the word “notice.” It cannot be
defined so literally as to mean all the details of the
parties’ claims, or else the rule is no advance. The
notice in mind is rather that of the general nature of
the case and the circumstances or events upon which
it is based, so as to differentiate it from other acts or
events, to inform the opponent of the affair or
transaction to be litigated but not of details which he

150a
the Supreme Court intended, sans an actual modification of Rule 8, such a retrogression. See Iqbal, 129 S.
Ct. at 1950 (“Rule 8 marks a notable and generous
departure from the hyper-technical, code-pleading regime
of a prior era.”).
As an added point in its favor, the more measured
reading of Rule 8 (and the Supreme Court’s interpretations thereof) is reinforced by the remainder of the
Federal Rules of Civil Procedure, particularly the
provisions for discovery, pretrial and summary judgment. See Clark, 2 F.R.D. at 468 (the new pleading
rules “fit in naturally with, and are supplemented by,
rules for discovery, pre-trial, and summary judgment”). This interpretation recognizes that “discovery,”
as the name implies, serves more than to verify facts
already known (and pled). Rather, as noted by the
drafters of Rule 26, “[t]he purpose of discovery is to
allow a broad search for facts, the names of witnesses,
or any other matters which may aid a party in the
preparation or presentation of his case.” Fed. R. Civ.
P. 26(b) advisory committee notes, 1946 amend.; see
also Osage Tribe of Indians of Okla. v. United States,
84 Fed. Cl. 495, 497 (2008). The year after these
comments were written, the Supreme Court emphasized that “[m]utual knowledge of all the relevant facts
gathered by both parties is essential to proper litigation.” Hickman v. Taylor, 329 U.S. 495, 507 (1947)35.
should ascertain for himself in preparing his defense
and to tell the court of the broad outlines of the case.
Id. at 460-61.
35

In Hickman, of course, the Supreme Court also famously
stated “No longer can the time-honored cry of ‘fishing expedition’
serve to preclude a party from inquiring into the facts underlying
his opponent's case.” Id. at 507; see also United States v. Procter
& Gamble, Co, 356 U.S. 677, 682-83 (1958). A set of well-known

151a
For discovery to have that leveling effect particularly,
where there is an initial informational imbalance
among the parties, and, especially, where one of the
litigants is a government agency that has privileged
access to information36 a claimant must not be
required, ab initio, to aver all or nearly all the facts
commentators has described the relationship between the new
pleading and discovery rules adopted in 1937 in interesting
terms, thusly
To understand the significance of the changes made by
the discovery rules, it should be remembered that
under the prior procedure the means by which parties
could narrow the issues and discover information
needed to prepare for trial were very limited. Under
the philosophy that a judicial proceeding was a battle
of wits rather than a search for the truth, each side was
protected to a large extent against disclosure of its
case. As already pointed out, the federal rules relieved
the pleadings of their top heavy burden of formulating
issues and disclosing facts. Under the procedure
installed by the rules, the pleadings were called upon
only to give notice generally of the issues involved in
the case. The discovery procedures of Rules 26 to 37,
together with pretrial hearings under Rule 16, provide
the means for determining the precise issues and
obtaining the information that each party needs to
prepare for trial.
8 Charles Alan Wright, Arthur R. Miller & Richard L. Marcus,
Federal Practice and Procedure § 2001 (2d ed. 1990) (hereinafter
“Wright, Miller & Marcus”).
36

One of the reasons why Congress passed the Freedom of
Information Act, 5 U.S.C. § 552, was “‘to prevent a citizen from
losing a controversy with an agency because of some obscure and
hidden order or opinion which the agency knows about but which
has been unavailable to the citizen simply because he has no way
in which to discover it.’” Renegotiation Bd. v. Bannercraft
Clothing Co., 415 U.S. 1, 30 (1974) (quoting S. Rep. No. 813, 89th
Cong., 1st Sess. 7 (1965)).

152a
subservient to its claims. See al-Kidd v. Ashcroft, 580
F.3d 949, 977 (9 Cir. 2009) (“Twombly and Iqbal do not
require that the complaint include all facts necessary
to carry the plaintiff’s burden.”). Rather, the “simplified notice pleading standard relies on liberal discovery
rules and summary judgment motions to define disputed facts and issues and to dispose of unmeritorious
claims.” Swierkiewicz, 534 U.S. at 512.37 It does not, as
defendant seemingly would have it, “collapse discovery, summary judgment and trial into the pleading
stages of a case.” Petro-Hunt, 2009 WL 3765495, at
*19; see also Riley, 2009 WL 3416255, at *9 (“Thus
after Iqbal and Twombly, a court assessing the sufficiency of the complaint should ask: if all the facts
the plaintiff alleges in his complaint are accepted as
true, but all the conclusions are rejected, is it still
plausible . . . to believe that additional discovery will
fill in whatever gaps are left in the complaint?”
(emphasis in original)).
Nonetheless, it cannot and should not be denied
that Twombly and Iqbal did more than repackage old
37

See also Leatherman v. Tarrant County Narcotics
Intelligence and Coordination Unit, 507 U.S. 163, 168-69 (1993)
(noting that in the absence of an amendment to Rule 8 imposing
a “heightened pleading standard,” “federal courts and litigant
must rely on summary judgment and control of discovery to weed
out unmeritorious claims sooner rather than later”); Conley, 355
U.S. at 47-48 (“‘[n]otice pleading’ is made possible by the liberal
opportunity for discovery and the other pretrial procedures
established by the Rules to disclose more precisely the basis of
both claims and defense and to define more narrowly the disputed
facts and issues.”); 5 Wright, Miller & Marcus, supra, at § 1202.
Indeed, in Twombly, the Court commented that an otherwise
“well-pleaded complaint may proceed even if it strikes a savvy
judge that actual proof of those facts is improbable, and that
recovery is very remote and unlikely.” 550 U.S. at 556.

153a
notice-pleading standards in new terminology. In
abrogating the “no set of facts” language from Conley,
the Court plainly intended that Rule 8(a) be construed
less hospitably of a fashion that would not so readily
“unlock the doors of discovery for a plaintiff armed
with nothing more than conclusions.” Iqbal, 129 S. Ct.
at 1950. But, a review of these twin opinions, and the
many cases decided in their aftermath, suggests that,
properly construed, the impact of the new standards
falls most heavily on two relatively narrow bands of
cases those few in which the rejected Conley language
might otherwise have been salvific and those involving
complex claims with multiple factual facets, especially
those in which “factually suggestive” allegations are
needed to distinguish between legal and actionable
conduct. At least some courts have concluded that
these bands are what Justice Kennedy had in mind
in Iqbal when, writing on behalf of the majority, he
wrote that “determining whether a complaint states a
plausible claim will . . . be a context-specific task.” 129
S. Ct. at 1950; see also Cooney v. Rossiter, 583 F.3d
967, 971 (7 Cir. 2009) (citing this passage and indicating that “the height of the pleading requirement is
relative to circumstances”); al-Kidd, 580 F.3d at 97476 (drawing a distinction between the allegations in
Iqbal and a more typical civil rights case); Courie, 577
F.3d at 630 (“Exactly how implausible is ‘implausible’
remains to be seen, as such a malleable standard will
have to be worked out in practice.”); Spencer, supra, at
14 (“it appears that legal claims that apply liability
to factual scenarios that otherwise do not bespeak
wrongdoing will be those that tend to require greater
factual substantiation to traverse the plausibility
threshold”); see generally, Riley, 2009 WL 3416255, at
*8 (“So long as the plaintiff avoids using legal or

154a
factual conclusions, any allegations that raise the
complaint above sheer speculation are sufficient.”).
All this tends to show that, beyond the few specific
changes they wrought, Twombly and Iqbal probably
are best seen merely as restating, in slightly different
terms, propositions long held.38 After all, the most
lenient interpretations of Conley aside, it has never
been the case that “[t]hreadbare recitals of the elements of a cause of action, supported by mere conclusory
statements” were sufficient to state a claim. Iqbal,
129 S. Ct. at 1949.39 And, if this is true, it becomes
important to recognize, then, what these cases do not
hold. Mainly and specifically, they do not treat the
newly-minted “plausibility” paradigm as altering the
way in which courts should apply other long-standing
38

See Aktieselskabet AF 21 November 2001 v. Fame Jeans Inc.,
525 F.3d 8, 15 (D.C. Cir. 2008) (concluding that Twombly “leaves
the long-standing fundamentals of notice pleading intact”);
Limestone Dev. Corp. v. Village of Lemont, 520 F.3d 797, 803-04
(7 Cir. 2008) (cautioning that Twombly “must not be overread”).
39

A small sampling of prior cases that have made this point
includes Palda v. General Dynamics Corp., 47 F.3d 872, 875 (7
Cir. 1995) (“A complaint which consists of conclusory allegations
unsupported by factual assertions fails even the liberal standard
of Rule 12(b)(6).”); Gooley v. Mobil Oil Corp., 851 F.2d 513, 515 (1
Cir. 1988) (stating that even under the liberal notice pleading
standard, a plaintiff is still required to “set forth factual allegations, either direct or inferential, respecting each material element
necessary to sustain recovery under some actionable legal theory”);
In re Plywood Antitrust Litigation, 655 F.2d 627, 641 (5th Cir.
1981) (“Despite the liberality of modern rules of pleading, a
complaint still must contain either direct or inferential allegations respecting all the material elements necessary to sustain a
recovery under some viable legal theory.”); Abrams v. Carrier
Corp., 434 F.2d 1234, 1251 (2d Cir. 1970), cert. denied, 401 U.S.
1009 (1971) (“mere conclusions of law [are] insufficient under
Rule 8(a)”).

155a
pleading requirements. Thus, the Supreme Court did
not, by requiring plausibility, transmogrify the “short
and plain” pleading requirement of Rule 8 into a
pedantical one that requires the extensive pleading of
specific facts or every variation or corollary of a claim.
Nor did the Court really alter how the presumption of
truth accorded factual allegations has been applied for
more than a half century either in defining what is
“factual” or in allowing courts more liberty to secondguess factual allegations in the guise of applying the
new plausibility standard. See Courie, 577 F.3d at
629-30. In short, that these well-established rules
were restated in the context of decisions that made
other changes does not mean that they themselves
were changed. See McShane, 2009 WL 3837245, at *2
(“nothing in Twombly or Iqbal has changed other pleading standards for a Rule 12(b)(6) motion to dismiss”).
Having completed this tour d’horizon, the court
must now consider the impact of this new standard on
the second amended complaint before it.
2. Plaintiff’s Complaint
Recall, defendant asserts that “[t]he vast majority of
the allegations [in] the Second Amended Complaint
are conclusions that have no factual support in [the]
pleading.” It contends that plaintiff has failed to
demonstrate, with adequate specificity, which duties
imposed by the contract were breached by defendant.
Nor, it claims, has plaintiff provided enough factual
details regarding the specific actions that effectuated
the alleged breaches. However, a review of the second
amended complaint, in light of the pleading requirements of RCFC 8, suggests that defendant’s arguments
are mistaken.

156a
Before proceeding, first, a bit more context is
required. Although not precisely grouped in this
fashion, the claims in plaintiff’s second amended complaint readily can be organized into five categories, to
wit, that ATF:
• failed to ensure timely payment of the settlement amounts;40
• has allowed ATF managers and others to perpetuate a hostile work environment for plaintiff,
characterized by individual and institutional
reprisals (including threats of relocation transfers), harassment, discrimination, slander,
defamation, whistle-blower retaliation, the selective enforcement of ATF’s media policy, and the
misuse of personnel review and internal affairs
mechanisms;41
• has failed to take adequate steps to protect
plaintiff and his family, characterized by the
agency’s failure to follow internal agency policy
and procedures relating to threats against
employees, properly notify plaintiff of known
and credible threats, provide proper security
backstopping, and reissue essential protective
documents necessary to obtain and maintain
covert residency locations and safe daily
existence;42

40

See Second Amended Complaint ¶¶ 35-36; 40; 148 (bullet
point 1).
41

Id. at ¶¶30-31; 33(B)-(F), (P)-(S), (V), (DD); 37-41; 125; 143;
148 (bullet points 2, 11, 13).
42

Id. at ¶¶ 28-29; 33(I)-(O), (AA), (CC); 78; 85; 148 (bullet
points 3-4, 9-10).

157a
• has failed to take a variety of steps to
investigate properly the arson fire, including
failing to perform the investigation in a
reasonable and timely manner, improperly
listing plaintiff as a suspect, and manipulating
the official investigative findings;43 and
• has failed to respond to nine separate requests
for information filed under the Freedom of
Information Act, 5 U.S.C. § 552.44
Some of these assertions interlock thus, for example,
plaintiff avers that ATF’s handling of the arson is one
example of the “malicious reprisals” to which he has
been subjected. In the end, plaintiff claims a variety of
“[d]irect and consequential damages” relating to these
breaches of the contract, as well as the covenant of
good faith and fair dealing.
While, again, defendant admits that plaintiff’s
timely payment assertion states a claim, it contends
that the remainder of plaintiff’s claims lack specificity
and/or are inadequately tethered to specific provisions
in the settlement agreement. But, at its roots, this
argument explicitly and implicitly relies upon several
foundational premises that this court has now
rejected.
Most fundamentally, defendant operates on the
assumption that Twombly and Iqbal ushered in a new
era of heightened pleading standards that necessarily
require, inter alia, much more in the way of detailed
43

Id. at ¶¶ 30; 33(G)-(H), (W)-(BB); 71-85 (detailing facts
surrounding ATF’s investigation of the arson at Agent Dobyn’s
home); 96; 124-25; 144; 148 (bullet points 5-6, 8).
44

Id. at ¶¶ 33(v); 148 (bullet point 13). The appendix to this
opinion sets forth the pertinent portions of paragraphs 33 and
148 of the Second Amended Complaint.

158a
factual allegations. But, as demonstrated, this is not
so. While plaintiff makes a few allegations that are
not entitled to the assumption of truth, none of these
proves pivotal.45 Second, in contending that the complaint contains inadequate cross-references to the
specific portions of the settlement agreement that
were allegedly breached, defendant again ignores the
broad sweep of paragraph 10 of the agreement. Its
view of that paragraph is based on a cramped construction that this court has now rejected. Moreover,
it is simply not true, as defendant suggests, that
plaintiff failed to plead any more specificity as to the
policies that were violated. Indeed, paragraph 33 of
the second amended complaint cites three specific
orders (ATF Orders 3040.1, 3040.2 and 3210.7) that
were allegedly violated and incorporates by references
the findings in the OIG report indicating that ATF had
failed to comply with its policies, procedures and
orders.46 Third, defendant relies upon the notion again
rejected above that one alleging the breach of the
covenant of good faith and fair dealing must cite a
specific provision of the contract that is breached.
Defendant’s error in this regard is particularly
important as to plaintiff’s contention that he has
been subject to a hostile work environment. Finally,
45

See, e.g., id. at ¶¶ 33(a) (concluding that the settlement
agreement was breached; 147 (concluding that the settlement
agreement contained express and implied terms); 149 (concluding
that ATF caused harm to plaintiff).
46

Contrary to defendant’s claims, plaintiff was not required, at
the pleading stage, to cite every single statute, regulation and
policy that allegedly was violated by ATF’s conduct. See County
of El Paso, Texas v. Jones, 2009 WL 4730303, at *23-24 (W.D.
Tex. Dec. 4, 2009) (noting that plaintiff is not “required to
reference specific statutes in its Complaint” provided that the
allegations in the complaint provide adequate notice).

159a
defendant discounts much of the factual detail in the
complaint because it involves events that predate the
settlement agreement. The allegations in question,
however, are closely linked to other facts that postdate that agreement. In combination, these allegations aver that the patterns and practices that gave
rise to the settlement agreement continued, unabated,
thereafter. Moreover, even a cursory reading of the
complaint reveals dozens of factual assertions regarding ATF’s handling of the arson of plaintiff’s home an
event that occurred after the execution of the settlement agreement in question.
Based upon these and other observations and taking
the factual components of plaintiff’s allegations as
true plaintiff has alleged sufficient facts to allow the
court to find that his core breach of contract/covenant
claims are plausible. This is not to say that all of
plaintiff’s claims meet the plausibility standard. Plainly,
there remain in his second amended complaint certain
less-developed, stray allegations that either sound
entirely in tort or otherwise are totally divorced from
the settlement agreement. See Second Amended
Complaint at ¶¶ 33(t) (claim regarding ATF’s failure
to cooperate with OIG during its investigation); 148
(bullet point 7) (failure to implement OIG recommendations). These claims must be dismissed. Additionally,
for several reasons, the court finds that plaintiff’s
FOIA claims are not proper. For one thing, unlike many
other claims raised by plaintiff, the FOIA statute does
not appear to be a law “regarding or otherwise
affecting [Mr Dobyns’] employment by the Agency.”
Moreover, despite the broad language of the settlement agreement, the court is hesitant to consider this
matter as Congress has conferred on the district courts,
and not this court, the responsibility for enforcing the
FOIA statute. See 5 U.S.C. § 552(a)(4)(B); see also

160a
Instrument Sys. Corp. v. United States, 546 F.2d 357,
359 (Ct. Cl. 1976). Finally, the court believes that, to
the extent they are relevant to this case, plaintiff’s
unfulfilled FOIA requests have been overtaken by
events and will be fulfilled, if it is appropriate to do so,
by the discovery that will follow this ruling. For all
these reasons, the court dismisses, for failure to state
a claim under RCFC 12(b)(6), plaintiff’s FOIA claims.
Otherwise, the court believes that this case, in the
main, should proceed. Research reveals breach-ofcontract complaints far less detailed than plaintiff’s
that have survived scrutiny under the dismissal
standards outlined in Twombly and/or Iqbal.47 While
47

See, e.g., Scott v. Infostaf Consulting, Inc., 2009 WL 3734137,
at *3 (W.D. Pa. Nov. 6, 2009); Lindstrom & McKenney, Inc. v.
Netsuite, Inc., 2009 WL 3754155, at *5 (E.D. Mo. Nov. 5, 2009);
Arime Pty, Ltd. v. Organic Energy Conversion Co., LLC, 2009 U.S.
Dist. LEXIS 99345, at *16-19 (W.D. Wash. Oct. 26, 2009); DeFebo
v. Andersen Windows, Inc. and Home Depot, 2009 U.S. Dist.
LEXIS 87889, at *10-14 (E.D. Pa. Sept. 24, 2009); White Mule
Company v. ATC Leasing Co., LLC, 540 F. Supp. 2d 869, 900
(N.D. Ohio 2008); see also Transport Int’l Pool, Inc. v. Ross Stores,
Inc., 2009 U.S. Dist. LEXIS 32424, at *4-8 (E.D. Pa. Apr. 15,
2009). One commentator has suggested that contract claims are
not substantially affected by the new pleading standards because
they tend to be straightforward and do not require the claimant
to plead facts showing that otherwise unobjectionable conduct
was, in the circumstances presented, wrongful. Spencer, supra,
at 33-34. In this regard, the cited article explains
The key dividing line seems to be between claims that
require suppositions to connote wrongdoing and those
based on facts that indicate impropriety on their own.
For example, contract claims appear to be the kind of
claim for which suppositions are not necessary to state
a valid claim. To prove a breach-of-contract claim, . . .
one need establish the existence of a contract, the
breach of a duty by the defendant, and resulting harm.
The plaintiff need not suppose any of these to be the

161a
it goes without saying (almost) that each case stands
on the particulars of the complaint at issue, these
cases, nevertheless, collectively belie the notion that a
plaintiff must jump through considerably more hoops
now, in pleading a breach of contract claim, than was
the case previously. In this court’s view, plaintiff’s
contract claims have “enough heft” to traverse the new
“plausibility” standard, Twombly, 550 U.S. at 557, and
enough factual detail to put defendant on notice as to
the basic nature of the claims raised, so as to allow this
case to proceed to discovery.
III. CONCLUSION
This court need go no farther. Based on the
foregoing, the court GRANTS, in part, and DENIES,
in part, defendant’s motion to dismiss. On or before
February 8, 2010, the parties shall file a joint status
report indicating how this case should proceed, to
include a joint discovery plan. 48
IT IS SO ORDERED.
s/ Francis M. Allegra
Francis M. Allegra
Judge

case; she has first-knowledge of these facts if they
indeed exist and may simply relate them to the court
to state a claim.
Id. at 33.
48

It is the court’s intent to unseal and publish this opinion after
January 29, 2010. On or before January 29, 2010, each party shall
file proposed redactions to this opinion, with specific reasons
therefor.

162a
APPENDIX
EXCERPTS FROM PLAINTIFF’S SECOND
AMENDED COMPLAINT
32. The current and historical bad acts of ATF
supervisors have now contributed to an attempted
murder of Dobyns and Family in the form of the arson
and destruction of their home and belongings and to
the ongoing damages they have suffered or are
suffering.
33. With a presentation of facts displaying ATF’s
bad actions against Dobyns and Family, Plaintiff will
prove facts and elements which include but are not
limited to the following, in demonstrating ATF’s violation of the express and implied terms of the Settlement
Agreement, including the implied covenant of good
faith and fair dealing:
A) ATF’s breach of contract with Dobyns, the
contract being the Settlement Agreement between
and among the parties);
B) ATF’s ongoing use of reprisals;
C) ATF’s ongoing creation of a hostile work
environment;
D) ATF’s ongoing harassment and discrimination;
E) ATF’s ongoing use of relocation transfers as a
reprisal;
F) ATF’s ongoing use of slander and defamation;
G) ATF’s failure to assess and respond to the
incident of arson of the Dobyns family home in
any reasonable, timely or effective manner;

163a
H) ATF’s ongoing failure to investigate the arson
event in any reasonable and timely or effective
manner;
I)

ATF’s ongoing failure to follow internal agency
policy and procedure related to threats against
employees;

J)

ATF’s ongoing failure to follow federal law
related to victim witness notifications and support;

K) ATF’s concealment of past and current information regarding threats to the health and
safety of Dobyns and Family;
L)

ATF’s ongoing failure to make proper notifications of known and credible information regarding
threats or danger to Dobyns;

M) ATF’s ongoing failure to develop any form of
database or \ control documents, organized
threat assessments, or reasonable techniques
needed to maintain the status of location of
suspects known to have threatened violence
against Dobyns and Family;
N) ATF’s ongoing failure to provide proper security
backstopping, and intended with reasonable
expectation to risk the health and lives of Dobyns
and Family from known threats of violence;
O) ATF’s failure to reissue essential protective
documents necessary to obtain and maintain
covert residency locations and safe daily existence;
P) ATF’s improper use of internal legal resources
and attorneys (Office of Chief Counsel and its
staff attorneys) against Dobyns;
Q) ATF’s willful, intentional and retaliatory use of
internal mechanisms to defame Dobyns and to

164a
destroy his reputation and credibility (Office of
Internal Affairs, Professional Review Board);
R) ATF’s failure to remove persons known to ATF
to be involved in Dobyns’s complaints as material witnesses, adversely affecting the career
of Dobyns, and the failure of ATF supervisors
and attorneys to recuse themselves from this
dispute despite being material witnesses;
S)

ATF’s acts of empowering material witnesses to
retaliate against Dobyns, with those witnesses
ordering internal investigations and predetermining investigation outcomes and disciplinary
measures against Dobyns;

T)

ATF’s failure to cooperate with the Office of
Inspector General for the Department of Justice,
while investigating allegations made by Dobyns
against ATF;

U) ATF’s known and intentional withholding of
information critical to Dobyns’s decision making
process prior to executing the Settlement Agreement contract, including violations of the federal
Freedom of Information Act (“FOIA”), 5. U.S.C.
Section 552, et seq., as enhanced by the January
21, 2008 Presidential Executive Order regarding FOIA requests, requiring a presumption of
disclosure, as implemented by Office of the
Attorney General Memorandum for Heads of
Executive Departments and Agencies regarding
FOIA, dated March 19, 2009, and which violations include a failure to respond to the following
FOIA requests submitted by Plaintiff: [listing
nine requests];
V) ATF’s selective application of internal policies
and procedures against Dobyns;

165a
W) ATF’s current failure to reasonably investigate
the arson of the home of Dobyns and Family;
X) ATF’s current inaction and indecision (mismanagement) leading to a delayed response to the
investigation of the arson of the home of Dobyns
and Family by outside agencies;
Y) ATF’s current classification of Dobyns as a
suspect in the arson fire, either formally or
informally (an act of retaliation);
X) ATF’s current failure to take any meaningful
investigative steps to eliminate Dobyns from
the arson suspect list, intentionally compounding the distress caused by ATF to Dobyns and
Family in a time of crisis, and constituting an
additional act of retaliation;
AA) ATF’s violation of federal laws and statutes,
which laws and statutes include those affording
protections to victims of and witnesses to criminal acts, along with violations of HIPAA laws,
obstruction of justice, acting as an accessory
after the fact, defamation and conspiracy;
BB) ATF’s unlawful attempt to manipulate the
official findings of a state and federal criminal
(arson) investigation in order to intentionally
damage Dobyns;
CC) ATF’s overall disregard for the physical,
mental, emotional and financial safety and well
being of Dobyns and Family;
DD) ATF’s past uncorrected and ongoing tolerance
for mismanagement, fraud, waste and abuse,
and ATF’s abuse of authority and whistleblower
reprisals, all with reasonable cause to believe
that these actions would cause significant

166a
damages to Dobyns and to Family, all which
constitute breaches of contract terms with
Dobyns, whether express or implied;
EE) All pursuant to which ATF has knowingly
engaged in and caused damages to Dobyns; and
37. Among those allegations of breach, is that ATF
knowingly and willfully allowed managers to perpetuate a hostile work environment for Dobyns, including
harassment and whistleblower retaliations against
Dobyns.
38. ATF has knowingly and willfully continued
prior or then existing internal affairs investigations,
along with reformatting and ordering new internal
affairs investigations into Dobyns on over eleven
different occasions.
39. ATF ordered the recall of fictitious and covert
identifications for Dobyns and his wife that were
specifically designed and issued to protect the security
of Dobyns and Family.
* * *
Count 1 Breach of Contract (Settlement Agreement)
145. Plaintiff re alleges each and every allegation
stated above and incorporates the same herein as
though set forth at length.
146. Prior to the filing of this lawsuit, Plaintiff Jay
Dobyns entered into a Settlement Agreement with
ATF.
147. Within the Settlement Agreement are express
terms of performance and implied terms of good faith
and fair dealing.
148. ATF breached the Settlement Agreement with
Agent Dobyns and caused injury to him by doing so.

167a
Examples of those breaches include, but are not
limited to:
• ATF attorney Eleanor Loos’s failure to ensure
timely payment of the settlement amounts, as
required by the Agreement, thereby forcing
counsel for Agent Dobyns to threaten to take
enforcement action under the Agreement.
• ATF’s failure to perform express representations made by ATF Managers Ronald Carter
and William Hoover to take enforcement actions
with respect to the Agreement, including a
commitment to take active steps to instruct
senior ATF managers not to retaliate, harass or
create hostile work conditions in any way
against Agent Dobyns.
• Operations Security’s improper and dangerous
recall of covert identification documents of
Agent Dobyns, which Agent Dobyns had been
issued and were using to conceal their identities
and location.
• Operation Security’s failure to “backstop” Agent
Dobyns subsequent to the Agreement, violating
an implied term of adequate agent protection
and forcing Agent Dobyns had to make application to the Pima County Superior Court Judge
to request covert protections for his house title
and other confidential protections.
• ATF’s continued refusal to remove Agent
Dobyns from a list of suspects in the arson of his
Tucson, Arizona home.
• ATF’s continued failure to properly investigate
the arson and to take protective measures for
Agent Dobyns’s family and for Agent Dobyns

168a
himself, including a continuing failure to
formulate a list of persons of interest for the
arson and questions regarding same. These
failures by ATF constitute violations of ATF
Order 3210.7C and the investigation obligation
components of ATF Order 3040.1 and 3040.2,
and accordingly constitute continuing instances
of breach of the Settlement Agreement.
• ATF’s continuing failure to take any responsive
or corrective actions with respect to any of the
findings of neglect and abuse by ATF towards
Agent Dobyns in the Report by Office of
Inspector General, dated September 22, 2008,
entitled “OIG Report on Allegations by Bureau
of Alcohol, Tobacco, Firearms and Explosives
Special Agent Jay Dobyns.”
1. The particular OIG findings call for remediation
in the form of correction and/or discipline of
responsible managers of Dobyns, neither of
which has occurred.
2. It further requires proactive directives to other
managers of Dobyns to act promptly and fully in
compliance with ATF policies, procedures and
Orders with respect to assessment of threats
and acts of violence directed against ATF agents.
ATF’s failure to take those proactive, remedial
measures, constitutes a continuing breach of the
Settlement Agreement.
• ATF’s misconduct and lack of investigation
and followup with respect to the arson of the
Dobyns’s home, in violation of ATF “written
policies and procedures that govern the treatment of threats made against its agents” as
referenced in the OIG Report at page 1.

169a
• ATF’s continuing breaches of policy to protect
against and investigate acts of violence directed
against ATF agents include ATF‘s failures to
take any form of safety outreach and “check in”
with Agent Dobyns.
• ATF’s continuing failure to provide backstopping of Agent Dobyns and his family in the form
of covert identification and all of the private and
public records involved in thorough agent safety
backstopping, and ATF’s continuing failure to
correct the grossly improper withdrawal of
covert ID’s for Agent Dobyns, all constitute continuing violations of ATF agent safety protection
policy and violations of the Settlement Agreement.
The nature of those backstopping requirements
are described in detail at pages 2 3 of OIG’s
September 22, 2008 Report.
• ATF’s continuing actions by ATF indicating
disregard for the seriousness of the arson on the
Dobyns’s home and a continuing failure to cure
injuries done to SA Dobyns’s professional standing and reputation. These ATF actions include
internal and apparently (at least in the eyes of
ATF senior managers) humorous disregard for
media reports of the damage to Agent Dobyns’s
home from the arson.
• ATF’s bad faith failure to respond to nine
separate Freedom of Information Act (FOIA)
requests by Agent Dobyns, impairing Agent
Dobyns’s ability to confirm the level of investigative effort by ATF regarding the arson of the
Dobyns’s home and impairing of Agent Dobyns’s
ability to confirm ATF’s compliance with or violations of the Settlement Agreement.

170a
1. Those same FOIA violations by ATF also violate
the January 21, 2009 Presidential Executive
Order “Memorandum for the Heads of Executive
Departments and Agencies re: Freedom of
Information Act.”
2. Additionally, the continuing violation of ATF
with respect to Agent Dobyns’s FOIA requests
violates March 19, 2009 Attorney General
Guidelines on FOIA, creating a presumption of
disclosure, as articulated by President Obama
in his January 21, 2009 Memorandum on FOIA.
ATF’s standing violation of the Attorney General
Guidelines on FOIA in turn constitutes a breach
of the Settlement Agreement.
• ATF’s continuing, selective enforcement and
application of ATF’s media policy against Agent
Dobyns in an arbitrary and capricious manner,
intended to violate and undermine the outside
employment authorization by ATF for Agent
Dobyns as called for in the Settlement Agreement
and in a manner inconsistent with prior directives of ATF to Agent Dobyns to participate
in favorable media publicity with respect to
Operation Black Biscuit, and further and finally,
with respect to Agent Dobyns, selectively undermining recent internal ATF directives to seek
favorable media for ATF. All of these activities
constitute continuing, standing, uncorrected and
un remediated breaches by ATF of the
Settlement Agreement.
149. As a direct result of the breach of the settlement agreement, ATF proximately caused forseeable
injuries to Agent Dobyns in an amount of damages to
be determined at trial.

171a
APPENDIX E
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2015-5020, 2015-5021, 2017-1214
————
JAY ANTHONY DOBYNS,
Plaintiff-Cross-Appellant,
v.
UNITED STATES,
Defendant-Appellant.
————
Appeals from the United States Court of
Federal Claims in No. 1:08-cv-00700-FMA,
Senior Judge Francis M. Allegra,
Judge Patricia E. Campbell-Smith.
————
ON PETITION FOR REHEARING EN BANC
————=
Before PROST, Chief Judge, NEWMAN, LOURIE,
BRYSON1, DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, and STOLL, Circuit Judges*.
PER CURIAM.

1

Circuit Judge Bryson participated only in the decision on the
petition for panel rehearing.
*

Circuit Judge Hughes did not participate.

172a
ORDER
Cross-Appellant Jay Anthony Dobyns filed a
petition for rehearing en banc. The petition was
first referred as a petition for rehearing to the panel
that heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 1, 2019.
April 24, 2019
Date
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

173a
APPENDIX F
IN THE UNITED STATES COURT OF
FEDERAL CLAIMS
————
No. 08-700 C
————
JAY ANTHONY DOBYNS,
v.
THE UNITED STATES.
————
JUDGMENT
Pursuant to the court’s Opinion, filed August 25,
2014,
IT IS ORDERED AND ADJUDGED this date, pursuant to Rule 58, that the plaintiff recover of and
from the United States, damages in the amount of
$173,000.00.
August 28, 2014
Hazel C. Keahey
Clerk of Court
By: /s/ Debra L. Samler
Deputy Clerk
NOTE: As to appeal, 60 days from this date, see RCFC
58.1, re number of copies and listing of all plaintiffs.
Filing fee is $505.00.

174a
APPENDIX G
SETTLEMENT AGREEMENT
This Agreement is entered into by Jay Dobyns
(hereafter Employee) and the U.$. Department of
Justice, Bureau of Alcohol, Tobacco, Firearms and
Explosive (hereafter ATF or Agency) to fully resolve
and settle any and all issues and disputes arising
out of Employee’s employment with ATF, including,
but not limited to the Agency Grievance filed by
the Employee, the Employee’s complaints to the Office
of Special Counsel, and his complaints to the. Department of Justice’s Office of Inspector General. To that
end, the parties hereby freely and voluntarily agree to
the terms set forth below:
1. The Agency will promote the Employee to Grade
14 retroactive for a period of one year from the date
this Agreement is fully executed by the parties. The
Employee twill deceive full back pay and benefits for
this one year period.
2. The Agency will reassign the Employee to a NIBIN
Coordinator position in Tucson, Arizona. Should any
threat assessment indicate that the threat to the
Employee and his family has increased from the assessment completed in June 2007, the Agency agrees to
fully review the findings with the Employee and get
input from the Employee if a transfer is necessitated.
3. The Agency will pay to the Employee the sum
of Three Hundred Seventy-Three Thousand Dollars
($373,000.00) in full and final settlement for any and
all claims that have been brought or could have been
brought up to the date this Agreement is executed by
the parties. Except for the lump sum set forth in this
paragraph and the back pay set forth in paragraph 1
above, the Employee and his representative are not

175a
entitled to any other monies, expenses, costs, attorney
fees, or any damages or relief regarding any matter
that is subject to this Agreement, its preparation and
its execution, or otherwise regarding the Employee=s
employment with the Agency. Payment of these monies
will be by electronic funds transfer within 35 days of
this agreement being fully executed by the parties to
the bank account where the Employee’s salary is
deposited. The deposit will be in the amount stated
above without deduction for taxes. The agency will
issue a Form 1099 Misc to the Employee and payment
of any taxes duo are the responsibility of the Employee.
4. The agency agrees that it will not pursue discipline against the Employee for any matter that is
currently under investigation by the Department of
Justice’s Office of Inspector General (OIG) or ATF‘s
Office of Professional Responsibility and Security
Operations (OPRSO).
5. In exchange for the promises set forth in this
Agreement, the Employee, by his signature below,
agrees to withdraw and/or dismiss with prejudice his
Agency Grievance, his discrimination/retaliation complaints, any Whistleblower claims , any complaints
filed by the Employee with the Office of Special Counsel,
and any other complaints the Employee could have
raised regarding his employment with the Agency as
of the date this agreement is executed by the parties.
6. The Employee agrees that he will comply with
Agency requirements and will seek permission for
any outside employment, including speaking, writing,
teaching or consulting. The Agency agrees that it will
handle such requests in a manner consistent with
Agency practice and procedure.

176a
7. Upon deposit of the monies to be paid to the
Employee under the terms of paragraphs 1 and 3
above, the Employee releases and discharges the
United States, the Department of Justice, the Bureau
of Alcohol, Tobacco, Firearms and Explosives, and
their employees, agents and officials, in both their
individual and official capacities, from any and all
liability, claims, causes of action, etc., resulting from
or relating to, in any way whatsoever, the subject
Matter of this Agreement, or otherwise concerning
Appellant=s employment with the Agency, including
underlying actions and claims, including his complaints of discrimination and retaliation.
8. The Agency agrees to expunge from the Employee’s Official Personnel; File (OPF) and informal
personnel folders such as those that may be kept by
supervisors or Division offices, any documents related
to the matters being settled here by the parties,
including but not ‘limited to documents about the
Employee’s mental health, the Employee’s truthfulness or the Employee’s credibility. The parties understand
that documents about such matters may be contained
in and will be maintained by ATF’s OPRSO as well as
ATF’s Office of Chief Counsel.
9. ATF and Employee agree that this Agreement
and its terms and conditions are to be confidential.
This Agreement will not be released except as agreed
to by both parties, and as necessary to implement this
Agreement, or by ATF in accordance with applicable
provisions of the Privacy Act or pursuant to legal
process. The Agency and the Employee acknowledge
and Understand that this confidentiality clause does
not preclude either party from discussing the Agreement to the extent necessary based on a legitimate
need-to-know basis. To this end, ATF’s pledge of confi-

177a
dentiality pertains to official business and the principals
involved in this action the Employee’s supervisors,
counsel, and the Human Resources Division. Routine
conversations, beyond ATF’S or the Employee’s control,
by rank and file co-workers, shall not constitute a
breach of this Agreement.
10. This Agreement does not constitute an admission by the Agency or Employee of any violation of law,
rule or regulation or any wrongful acts or omissions.
The Agency agrees that it will comply with all laws
regarding or otherwise affecting the Employee’s employment by the Agency.
11. The parties agree that the terms of this Agreement are unique to the facts and circumstances of this
case and will not establish any precedent whatsoever
except as is necessary to implement the terms and
conditions of the Agreement and as required by law.
This Agreement may not be used as a basis by either
party, any individual, or any representative or organization for seeking or justifying similar terms in any
subsequent case.
12. No modification, waiver, or alteration whatsoever of any of the provisions of this Agreement shall
be binding, unless in writing and executed by both
parties. This Agreement constitutes the entire agreement by and between the parties. No other promises
are binding unless in writing and signed by the
parties.
13. The parties understand that if Employee believes
the Bureau has failed to comply with the terms of
this Agreement, Employee shall notify the Director,
Department of Justice Equal Employment Opportunity Staff, Justice Management Division, in writing,
of the alleged noncompliance with this Agreement

178a
within 30 days of when Employee knew or should have
known of the alleged noncompliance. Employee may
request that the terms of the Agreement be specifically
implemented or, alternatively, that the Complaint be
reinstated for further processing. Further processing
will begin from the point processing ceased under the
terms of the Agreement. Any claims that the Bureau
is not complying with the terms of this Agreement
must be addressed to:
Vontell D. Frost-Tucker, Director
Department of Justice
Equal Employment Opportunity Staff
Justice Management Division
1110 Vermont Avenue, NW, Suite 620
Washington, DC 20530
If the Department has not responded to Employee
in writing, or if Employee is not satisfied with the
Department’s attempt to resolve the matter, Employee
may appeal to the Equal Employment Opportunity
Commission (EEOC) for a determination as to whether
the Department has complied with the terms of the
Agreement. Employee’s appeal may be filed 35 days
after service of the allegations of noncompliance on the
Department, but not later than 30 days after receipt of
the Department’s written response to the allegations
of noncompliance.
13. This Agreement will be fully executed on the
date of the last signature below.
For the Employee:
/s/ Jay Dobyns
Jay Dobyns
Date: August 21, 2007

179a
For the Agency:
/s/ Ronnie A. Carter
Ronnie A. Carter
Deputy Director
Date: 9/20/07
/s/ William J. Hoover
William J. Hoover
Assistant Director Field Operations
Date: 9/20/07

180a
APPENDIX H
[LOGO]
U.S. OFFICE OF SPECIAL COUNSEL
1730 M Street, N.W., Suite 218
Washington, D.C. 20036-4505
202-254-3600
June 18, 2009
The President
The White House
Washington. D.C. 20500
Re: OSC File No. DI-07-0367
Dear Mr. President:
The Office of Special Counsel received a disclosure
from a Special Agent with the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF), Department
of Justice (DOJ). The whistleblower, Special Agent
Jay Dobyns, alleged that ATF did not have adequate
policies and procedures for reviewing and responding
to threats of violence made against its agents and their
families. Special Agent Dobyns also alleged that AFT
failed to respond to and investigate death threats
against him and his family in a thorough and timely
manner.
In accordance with a referral pursuant to 5 U.S.C.
§ 1213(c) and (d), the Attorney General was required
to conduct an investigation into these disclosures.
Former Attorney General Alberto Gonzalez tasked the
DOJ, Office of Inspector General (OIG) with conducting the investigation and writing the report. As
discussed further in the enclosed report and Analysis
of Disclosure, the OIG investigation partially substantiated the whistleblower’s allegations.

181a
The OIG concluded that ATF “needlessly and inappropriately delayed” its response to and investigation
of threats against its own agent and that the agency
should have done more to investigate threats. The OIG
also concluded that ATF’s policies and procedures for
the management of threats were generally adequate.
In this case, however, a misunderstanding among
ATF officials resulted in Special Agent Dobyns and
his family being relocated under standard relocation
procedures, rather than under emergency relocation
procedures as had been recommended. An emergency
relocation would have ensured that protective measures were taken to shield the identity and location of
Special Agent Dobyns and his family.
The OIG recommended that ATF amend its policies
to prevent similar miscommunication in the future.
ATF concurred with the recommendation and has
amended its policies and training materials to ensure
that ATF personnel are aware of the new policy.
I have reviewed the original disclosures and the
reports. Based on that review, I have determined that
the agency report contains all of the information
required by statute and that the findings appear to be
reasonable.
Notably absent from the report, however, is any
statement from ATF regarding action taken to address
the failure to adequately investigate the threats made
against Special Agent Dobyns. If ATF is to fully
address the issue, threats against agents must be
pursued aggressively and officials at all levels must
cooperate in any investigation. The protection of its
own agents is critical to the success of ATF’s mission
to protect the nation from violent crime and enforce
federal criminal laws regulating the firearms and
explosives industries.

182a
As required by law, 5 U.S.C. § 1213(e)(3), I have sent
a copy of the report and the whistleblower’s comments
to the Chairman of the Senate and House Committees
on the Judiciary. I have also sent copies to the Ranking
Member of each Committee. A copy of the report and
whistleblower’s comments has been placed in our
public file and the case closed. OSC’s public file is now
available online at www.osc.gov.
Respectfully,
/s/ William E. Reukauf
William E. Reukauf
Associate Special Counsel
Enclosures

183a
[LOGO]
U.S. OFFICE OF SPECIAL COUNSEL
1730 M Street, N.W., Suite 218
Washington, D.C. 20036-4505
202-254-1600
Analysis of Disclosures, Agency Investigation and
Report, Whistleblower Comments, and Comments of
the Special Counsel
Summary—OSC File No. D1-07-0367
Special Agent (SA) Jay Dobyns, the whistleblower in
this case, alleged that the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) did not have sufficient
policies and procedures for the review and response to
threats of violence made against its agents and their
families. SA Dobyns also alleged that ATF failed to
investigate threats made against him. The investigation, conducted by the Department of Justice (DOJ),
Office of the Inspector General (OIG), partially
substantiated SA Dobyns’ allegations. OIG concluded
that ATF’s policies and procedures on threats of
violence to its personnel were generally adequate, but
that because of a misunderstanding among management officials in this case, SA Dobyns was relocated in
September 2004, under the procedures for a standard
Permanent Change of Station (PCS), rather than
under emergency relocation procedures as had been
recommended. Further, the OIG substantiated SA
Dobyns’ allegations regarding the inadequate response to threats against him finding that ATF failed
to adequately investigate and “needlessly and inappropriately” delayed its response to additional threats
made against him.

184a
The Whistleblower’s Disclosures
SA Dobyns disclosed that ATF management did not
protect its agents and their families from verified and
credible threats of violence. SA Dobyns, an ATF agent
for approximately 22 years, alleged that management
repeatedly failed to respond to credible threats to his
life and to the well-being of his family from known
criminals. SA Dobyns alleged that management’s
failure to promptly evaluate threats to agents, inform
agents of the threats, and take appropriate action to
ensure the safety of the agents and family members
was the result of ATF’s lack of procedures and
protocols delineating the appropriate actions and
responses. Mr. Dobyns alleged that ATF management’s inaction constituted gross mismanagement
resulting in a continued substantial and specific
danger to public safety.
SA Dobyns contended that due to ATF’s inaction and
mismanagement of multiple, credible threats against
him and his family, he was forced to take extraordinary measures for their protection. The threats
stemmed from his undercover work on projects such as
Operation Black Biscuit, for which SA Dobyns spent
21 months undercover infiltrating the Hells Angels
biker gang,1 Project Safe Neighborhood (an anti-gang
and anti-violence project) and the Violent Crime
Interdiction Team (VCIT) initiative. After the conclusion of Operation Black Biscuit, ATF’s general threat
assessments in July 2003 and January 2004
1

As a result of his work and the work of other agents on this
case, thousands of pieces of evidence were seized and over 55
Hell’s Angels members were arrested or subsequently surrendered to authorities. In recognition of his work and sacrifice on
Operation Black Biscuit, SA Dobyns was awarded the “Top Cop”
award by the National Association of Police Officers in 2004.

185a
determined the threat level to be Critical. Because of
the generalized nature of the threats, SA Dobyns
stayed in Arizona, believing that the threats were
speculative.
On August 31, 2004, SA Dobyns’ view of the threats
against him and his family changed. While working
undercover on VCIT, SA Dobyns and a partner were
at a local establishment known for illegal activity
when he had a verbal confrontation with Robert
McKay, a known member of the Hell’s Angels. Mr.
McKay told SA Dobyns that the Hell’s Angels were
following him, knew where he lived, where he worked,
and that he had a wife and children. Mr. McKay
finished by saying that SA Dobyns “would run from
the Hell’s Angels for the rest of his life” and that “he
was going to get hurt.”
He immediately reported this specific threat to ATF
management and was told that he would have to leave
the area. Notwithstanding the urgency of the circumstances, SA Dobyns reported that ATF did not move
him until late December 2004, approximately 120 days
later. In the interim, on September 20, 2004, SA
Dobyns learned that Chris Duchette, a violent individual whose home invasion crew SA Dobyns infiltrated,
had also threatened his life. An informant told investigators that Mr. Duchette personally wanted to
kill SA Dobyns. Mr. Dobyns alleged that ATE never
thoroughly investigated the threat or interviewed Mr.
Duchette. Instead, ATF attempted to minimize the
threats by telling SA Dobyns that Mr. Duchette was in
jail even though ATF’s report on Duchette stated that
it was unknown if he was receiving any outside
assistance. SA Dobyns was told that the agency was
already going to relocate him and to maintain a
heightened sense of awareness.

186a
In December 2004, ATF finally moved SA Dobyns
and his family to the Los Angeles area, because of the
McKay threat. SA Dobyns alleged the Duchette threat
was never thoroughly investigated. He also alleged
that ATF relocated him to Los Angeles under standard
PCS procedures for monetary reasons without providing any protection from future harm in the form of
backstopping.2 Thus, his contact information and
home address were easily obtainable on the Internet.
In order to protect his family, SA Dobyns moved
several times at his own expense in the hopes of
making any search for him and his family more
difficult. After three moves, however, SA Dobyns
purchased a home that required the use of his own
name.
On November 3, 2005, Federal Bureau of Investigation (FBI) agents interviewed a member of the Mara
Salvatrucha (MS-13) gang in prison in Virginia. The
gang member informed the agents that the Hell’s
Angels and Aryan Brotherhood had offered him money
several times to kill SA Dobyns and were actively
“shopping” a contract to murder SA Dobyns and torture his daughter. According to information provided
by SA Dobyns, the inmate described SA Dobyns’ physical appearance, the spelling of his name, and details
about his family even though SA Dobyns had never
worked on any project involving MS-13. The inmate
also informed the FBI of a “hit list” in the Arizona
prison system and that SA Dobyns was on that list.

2

Backstopping is a term used to indicate methods and procedures used to protect an agent by breaking the continuity of
information available about the agent, thereby making it difficult
to locate the agent.

187a
The risk assessment of ATF’s Office of Operational
Security (OPSEC) found the threat to be Critical, definite and made by parties (Hell’s Angels, Aryan Brotherhood, and MS-13) with the capability, intent, and
history to act upon it.
The same day the threat determination was made,
November 3, 2005, ATF’s Chief of Operational Security, Madison Townley, notified SA Dobyns and ATF
management of the threat. Chief Townley also informed SA Dobyns that his contact information was
easily locatable due to the lack of backstopping his
relocation to California, SA Dobyns stated that Chief
Townley expressed his concern about ATF’s lack of
caution.
After his November 3, 2005, conversation with Chief
Townley, SA Dobyns explained that he did not hear
from anyone in ATF management concerning the
agency’s plans to protect him and his family until two
weeks later. In the interim, when he tried to obtain
information about ATF’s plans to protect him and his
family, he was told to be patient. After waiting two
weeks, SA Dobyns decided to move his family on his
own. When James Crowell, Special Agent-in-Charge
(SAC), finally contacted him on November 17, 2005, to
tell him that ATF would place him in a hotel, SA
Dobyns was already in the process of moving. He
informed SAC Crowell of his decision to move. SAC
Crowell told him that he had made a mistake and that
ATF would not be responsible for his family’s safety.
SA Dobyns alleged that ATF’s inconsistent approach
and the agency’s failure to communicate promptly and
act was due to a lack of defined threat assessment and
response procedures and left him with little recourse
other than to take steps to protect his family on his
own. Accordingly, he moved his family back to Arizona

188a
at his own expense, but continued working in Los
Angeles.
In March 2006, after determining that the Los
Angeles area was too dangerous for SA Dobyns, ATP
detailed him for one year to Washington, D.C., despite
the presence of some of the strongest and most violent
membership of MS-13, the same gang that had been
approached to kill SA Dobyns. In April 2006, SA
Dobyns met with Chief Townley, who informed him
that Security Staff had conducted a risk assessment
and determined that, due to the threats against his
life, it would be highly improbable that he would ever
be able to return safely to the western United States.
Additionally, on November 16, 2006, OPSEC received an intercepted letter from an inmate in the
Arizona prison system that detailed death threats
against SA Dobyns’ and threatened to rape his wife.
The letter’s author, Kevin Augustiniak, is a Hell’s
Angels member, incarcerated and awaiting trial for
murder. Much of the evidence gathered against Mr.
Augustiniak was obtained through Operation Black
Biscuit and SA Dobyns was scheduled to testify as a
witness for the prosecution in his murder trial. SA
Dobyns alleged that ATF management was aware of
these threats, but did not contact him about them or
ATF’s assessments.
The Report of the U.S. Department of Justice
Former Attorney General Alberto Gonzalez tasked
DOJ’s OIG with conducting the investigation and
writing the report on these allegations. The OIG
report concludes that ATF policies and procedures
governing the management of threats made against its
agents are generally adequate. However, in this case,
the report found that a series of miscommunications

189a
by ATF managers resulted in SA Dobyns’ receiving a
standard relocation in September 2004, in response to
a threat against his life, instead of the recommended
emergency relocation. As a result, neither SA Dobyns
nor his family received the backstopping support and
assistance to ensure their identities were protected.
The report also concludes that ATF “needlessly
and inappropriately” delayed its response to violent
threats made against SA Dobyns and his family, and
that ATF should have conducted timely and thorough
investigations into those threats. The report describes
the ATE policies and procedures at issue as well as the
agency’s response to the threats made against SA
Dobyns. A brief summary of the OIG’s report follows.
ATF Procedures.
The OIG report describes the ATF policies which
govern the agency’s response to threats to its agents.
Under ATE Order 3210.7C, on investigative priorities,
and procedures, Special Agents are to report threats
to the highest level in their field office, in most cases
the SAC. The SAC is required to then immediately
contact the Chief of the Special Operations Division
(SOD) by a secure telephone and follow up the
telephone call with a Significant Activity Report (SAR)
sent by facsimile. Additionally, ATF’s Joint Support
Operations Center forwards the SAR to the Headquarters Division Chiefs whose programs are involved,
including the Chief, Intelligence Division. The SOD
Chief notifies the appropriate ATF Executive staff
members of the threat. When an investigation is no
longer considered sensitive, a final report is submitted
to the SAC by the Special. Agent assigned to the,
matter, and that report is forwarded to Headquarters.
ATF Order 3250.1A sets forth procedures regarding
emergency moves in cases where a threat has been

190a
made against an undercover Special Agent. Under Order 3250.1A, threats are to be verified through a field
division-initiated threat assessment. The OIG report
describes the process stating that when a threat is verified, the SAC prepares a memorandum for the Deputy
Assistant Director/Field Operations (DAD/FO), through the Chief of the Intelligence Division, outlining
the threat and any action taken. The DAD/FO then
determines whether to authorize an emergency move
based on the threat. If an emergency move is authorized, the DAD/FO notifies the SOD Chief as well as
additional ATF management staff. The agent being
moved prepares a memorandum regarding his or her
preferences for relocation. The policy did not state that
the notification of the emergency move must be in
writing.
In June 2005, ATF issued Order 3040.2 which
includes additional policy on assessing threats made
against its agents. According to the report, under this
Order, OPSEC is the primary point of contact for
threats against ATF employees. In brief, OPSEC is
responsible for coordinating the information relevant
to the threat, conducting a risk assessment, and recommending actions to reduce or negate the threat. The
Order lays out a chain of command through which the
threat is communicated to OPSEC: 1) employees must
report threats to their first-line supervisor, 2) the firstline supervisor immediately reports the threat to
the SAC or Division Chief, and 3) SACS and Division
Chiefs report the threats to OPSEC. The report to the
OPSEC must be a memorandum and must include the
information requirements set out by the Order; those
requirements are listed by the OIG in its report.
OPSEC then conducts a risk assessment and prepares
its response.

191a
In the Summer of 2003, as the investigative phase
of Operation Black Biscuit was concluding, ATF
conducted a pre-emptive, routine threat assessment to
determine if any ATF personnel were in danger because of their work on the case. OPSEC concluded
generally that, in the ease of SA Dobyns who was the
lead undercover agent in Operation Black-Biscuit,
there was some potential for retaliation by Hell’s
Angels or their associates. Due to this risk assessment,
OPSEC recommended that SA Dobyns move out of the
area for a while and that he be given an assignment
away from the West Coast which would allow him to
maintain low visibility. Because the threat assessment was general in nature, and there was no evidence of any specific threats against him, SA Dobyns
successfully argued with ATF that he should be allowed to remain in Tucson.
OIG reports that the first in a series of threats made
against SA Dobyns was made by. Mr. McKay on
August 31, 2004. Mr. McKay, a Hell’s Angels member,
saw SA Dobyns at a Tucson bar while he was working
on another case. Mr. McKay confronted SA Dobyns
and told him that he was a “marked” man and that he
would spend his life running from the Hell’s Angels.
SA Dobyns immediately reported the threat and Mr.
McKay was arrested the next day on charges of
threatening a federal agent. The McKay threat was
also reported through the proper channels pursuant to
ATF policy. SOD Chief Carlos Sanchez was informed
of the threat and requested a risk assessment from
OPSEC. OPSEC determined that the threat level was
Critical and recommended that the Dobyns family
receive an emergency move with full backstopping to
protect their, identities and new address.

192a
SOD Chief Sanchez agreed with OPSEC’s recommendation for an emergency relocation and recommended to the DAD/FO Dewey Webb, that after an
assignment to ATF headquarters, SA Dobyns be transferred to an area outside the Western United States.
DAD/FO Webb was responsible for authorizing an
emergency move. The report notes that then-SAC of
ATF’s Undercover Branch, Kim Balog, stated that she
and her supervisor, Deputy Chief John Cooper,
participated in the discussions regarding the McKay
threat and recommended an emergency relocation.
She also reported that there were several meetings
with SOD Chief Sanchez, Deputy Chief Cooper and
DAD/FO Webb where they discussed the resources
necessary to safely relocate the Dobyns family.
DAD/FO Webb told the OIG that he agreed with
OPSEC’s recommendation for an emergency move and
that he had told Chief Sanchez a number of times that
the move should be “covert.” DAD/FO Webb confirmed
for the OIG that he signed a memorandum authorizing
a PCS for SA Dobyns, but explained that this
document is required regardless of whether an agent’s
move is standard or emergency in nature. Under the
procedures of Order 3250.1A, DAD/FO Webb was
required to notify the SAC of the Undercover Branch,
Kim Balog, and the SOD Chief of the emergency move.
The investigation verified that he informed SOD Chief
Sanchez of his decision, and although he could not
specifically recall informing SAC Balog that he
authorized the emergency move, DAD/FO Webb felt
that notification to SOD Chief Sanchez was sufficient
because SAC Balog reported to him.
Both SOD Chief Sanchez and SAC Balog reported to
the O1G that DAD/FO Webb did not inform them that
he had authorized an emergency move. In fact, SOD

193a
Chief Sanchez informed OIG investigators that he
interpreted the PCS memorandum as confirmation
that an emergency relocation had been denied.
DAD/FO Webb did not recall if he notified the
Assistant Director or the Financial Manager/Deputy
Chief Financial Officer that he had authorized an
emergency move as required under ATF Order
3250.1A. He did, however, recall contacting the
Financial Management Division about Dobyns’
transfer and discussing the availability of approximately $200,0004300,000 to SOD Chief Sanchez for
backstopping. DAD/FO Webb assumed that the move
was proceeding on an emergency basis and that Chief
Sanchez would come to him if any difficulties arose.
SOD Chief Sanchez, in turn, believed that DAD/FO
Webb had disagreed with his recommendation and
authorized only a standard move. Thus, he proceeded
accordingly, advising SAC Balog and Deputy Chief
John Cooper that SA Dobyns’ move was to be handled
as a standard transfer. The Dobyns family was
relocated in September 2004.
The OIG also reviewed the management of SA
Dobyns’ move with Assistant Director of Field
Operations (AD/FO) Michael Bouchard. AD/FO Bouchard reported that he had approved a transfer for SA
Dobyns and that it was his understanding he would
receive an emergency relocation. It was not until
November 2005, during a meeting with SA Dobyns
regarding threats made by Mr. Mallaburn that AD/FO
Bouchard became aware that SA Dobyns had received
a standard move. According to the report, AD/FO
Bouchard ordered that SA Dobyns be transferred with
full backstopping to Washington, D.C. for one year
and, thereafter, that he be relocated to Los Angeles.
Under the backstopping procedures, SA Dobyns
received instruction on how to manage a wide range of

194a
personal information, including the purchase or sale of
a home or car, how to register a vehicle, or register
children for school. He also received from OPSEC a
new Social Security card and credit card. In addition,
his personal information on databases such as AutoTrack and Lexis/Nexis was to be monitored. AD/FO
Bouchard informed OIG investigators that once
OPSEC determined that SA Dobyns had been sufficiently backstopped in Los Angeles, he authorized a
transfer back to the West Coast.
OIG concluded that the miscommunication among
DAD/FO Webb, Chief Sanchez and AD/FO Bouchard
caused the SA Dobyns’ move to be mishandled. The
report finds that these three ATF officials failed to
follow-up with each other to ensure the relocation was
properly carried out. Instead, they assumed their
subordinates would effect the emergency relocation. In
order to clarify the procedure and prevent future
errors due to miscommunication, the GIG recommended that ATF revise its policy to require that
notifications of an emergency relocation be made in
writing by the DAD/FO and the AD/FO. The OIG also
recommended that ATF ensure that officials handling
emergency relocations understand that a PCS memorandum is required for all moves regardless of
whether or not the agent is moved on an emergency
basis.
ATF concurred with the recommendation to amend
its policies to require that notifications of emergency
relocations be in writing. ATF Order 3040.2 has been
revised to require that any actions taken by affected
employees’ directorates must be in writing. This
revision was necessary to ensure that management
decisions are fully understood and implemented. In
addition, in January 2009, OPSEC began the process

195a
of updating all Special Agent/Industry Operations
Investigator. Basic, Supervisory; and Enhanced Undercover Operations training courses to ensure that all
personnel affected by the revised policy are fully
briefed and aware of the new requirements.
Response by ATF to the Threats
In September 2004, a convicted felon and source for
SA Dobyns, reported to the Agent-in-Charge of the
Tucson Field Office, Sigberto Celaya, that Chris
Duchette, a recent cellmate of his, had described in
detail how he wanted to shoot SA Dobyns. While
working undercover, SA Dobyns had purchased firearms from Mr. Duchene and was scheduled to testify
at his trial. The source believed the Duchene threat to
be credible and expressed concern for SA Dobyns’
safety. Agent Celaya verified that the source had
recently shared a cell with Mr. Duchene and drafted
an SAR documenting the threat and the confirmation
of their contact in prison. He then briefed his
supervisor, who forwarded the SAR to ATF’s Intelligence Division, OPSEC and SOD Chief Sanchez. ATF
did not investigate the threat further, nor interview
Mr. Duchene. It was not until April 2005 that SA
Dobyns discovered that Mr. Duchette had not been
interviewed. He contacted OPSEC officials to express
his frustration at the lack of investigation into the
threat. In response to OPSEC’s subsequent inquiry,
Agent Celaya stated that he had not found the threat
credible. During the OIG’s investigation, however,
Agent Celaya acknowledged that ATF should have
interviewed Mr. Duchene and investigated the threat
to determine whether he posed a threat to SA Dobyns.
The OIG concluded that, indeed, ATF should have
taken the threat more seriously but notes that at the

196a
time, ATF was already in the process of moving SA
Dobyns in response to the McKay threat.
The OIG also found that ATF did not respond to the
threat made by Dax Mallaburn in an appropriate
or timely Manner. On November 3, 2005, ATF’s
Washington Field Division was informed by Assistant
Special Agent-in-Charge A.J. Turner, Federal Bureau
of Investigation’s (FBI) Washington Field Office, that
the FBI had received information from a source that
SA Dobyns’ name was included on a “hit list” being
circulated by a member of the Aryan Brotherhood
named “Whitey” in the Florence Correctional Center,
Florence, Arizona. The source had learned about the
hit list during his incarceration in Florence.
ATF identified Mr. Mallaburn as the individual
referred to as Whitey. Assistant Special Agent-inCharge (ASAC), ATF Washington Field Office, Phillip
Durham contacted supervisors in the Los Angeles and
Phoenix Field Divisions to advise them of the threat.
The OIG reported that the source was interviewed on
November 4, 2005. Following the interview, ASAC
Durham and Group Supervisor Daniel Machonis of the
Phoenix Field Division were briefed by Group
Supervisor Frank Haera of the Washington Field
Office. Mr. Haera reported to the OIG investigators
that he felt a sense of urgency about the situation
because Mr. Mallaburn’s membership in the Aryan
Brotherhood and the detailed information received
from the source e.g., a physical description of SA
Dobyns and information about his wife and daughter.
ASAC Durham reported that during a conference
call with numerous ATF officials on November 7, 2005,
it was determined that ATF’s Phoenix Field Office
would be responsible for interviewing Mr. Mallaburn.
He stated that in mid-November, ASAC Richardson of

197a
the Phoenix Field Office agreed that Mr. Mallaburn
would be interviewed by an ATF agent from Washington, D.C., and an ATF agent from Phoenix. Despite the
repeated requests from ASAC. Durham and ASAC
Richardson’s previous agreement to have Mr. Mallaburn interviewed, however, no interview took place.
Instead, ASAC Richardson insisted that Mr. Mallaburn was not credible and would provide no useful
information. The report points out that ASAC Richardson. told OIG investigators that his decision was
based on the information he received from ATE agents
in the Phoenix Field Division. When 010 investigators
interviewed the agents identified by ASAC Richardson, however, they denied any involvement in the
matter.
Approximately 4 weeks later, the Washington Field
Office assumed responsibility for interviewing Mr.
Mallabum and conducted the interview on November
30, 2005. The report on the Mallaburn interview was
sent to OPSEC and the Phoenix Field Division.
OPSEC completed its threat assessment the same day,
concluding that there were significant factors present
which supported relocation outside the Western
United States with full backstopping measures. ATF
decided two weeks later to transfer SA Dobyns to ATF
headquarters for a 1-year temporary assignment to be
followed by an emergency relocation to Los Angeles.
SA Dobyns explained to OIG investigators that he
urged additional investigation into the Mallaburn
threat in order to thoroughly review the allegations
regarding the hit list and, if necessary, prosecute those
associated with it. The report notes that because of SA
Dobyns’s continuing concerns he contacted ATF
Special Agent Joseph Slatella, who had worked on
Operation Black Biscuit, and requested additional

198a
investigation into the matter. Agent Slatella completed a report and provided it to OPSEC. However,
because ATF was already in the process of arranging
an emergency relocation, no additional protective
measures were taken.
The GIG concluded that ATF’ did not handle the
Mallaburn threat appropriately or in a timely manner.
The OIG notes specifically the refusal of the Phoenix
Field Office to conduct the interview and states that
the failure of that office to act promptly and take the
threat seriously unnecessarily delayed the completion
of the risk assessment and the determination to move
the Dobyns family.
In November 2006, ATF’s New Orleans Field
Division notified SA Dobyns of another threat made
against him reportedly by Hell’s Angel gang member
Doug Wistrom. The source, had recently been incarcerated with Mr. Wistrom, and notified an agent of the
New Orleans Field Office of his comments, SA Dobyns,
in turn, contacted ATF officials informing them that
Mr. Wistrom had been convicted of a firearms crime as
a result of Operation Black Biscuit and that he was an
associate of another Hells’ Angel gang member, Kevin
Augustiniak, who was facing first-degree murder
charges as a result of SA Dobyns’ undercover work.
Senior Operations Security Specialist Patrick Sullivan obtained a copy of the interview of the source as
well as a letter. in which Mr. Augustiniak members
made “lewd” comments about SA Dobyns and his wife.
Based on the information, OPSEC requested on
November 20, 2006, that the New Orleans Field
Division interview the source in order to complete a
risk assessment.

199a
OIG’s report states when New Orleans did not
respond to the request by November 28, 2006, OPSEC
sent a second e-mail request for an interview to the
New Orleans Field Division specifically noting that a
risk assessment could not be completed without the
information regarding the source’s credibility. When
New Orleans again failed to respond, OPSEC contacted the Phoenix Field Division on December I, 2006,
directly requesting that office to interview the source.
Two weeks later, the interview was conducted by two
Special Agents from Phoenix. The report of the
interview, written by SA Adam Ging of the Phoenix
Field Office, noted that, according to the source, there
was no ongoing campaign to find and kill SA Dobyns.
It described an alleged attempt by a Hell’s Angels
member to hire a member of the Aryan Brotherhood to
kill SA Dobyns. SA Ging did not find the information
plausible because the Aryan Brotherhood member
had been incarcerated for a year and there was no
information that he had been contacted by the Hell’s
Angels.
ATF records showed that the Hell’s Angel member
who was allegedly trying to contract for SA Dobyns’
murder, had served time for manslaughter, among
other things, had documented ties with the Aryan
Brotherhood across Arizona, and was considered to
have a strong influence on the most violent factions
of both gangs. In addition, during Operation Black
Biscuit he was identified as the individual spearheading the Hell’s Angels effort to locate the residences of
undercover officers and attack them.
SA Ging informed OIG investigators that he
forwarded his report to his supervisor with the expectation that he would be instructed to follow-up on the
information provided by the source. To the contrary,

200a
the OIG found that no such direction came from the
SA Ging’s supervisor or any ATF management officials
from the Phoenix Field Office, and no additional
interviews were conducted. Indeed, OPSEC concluded
in its written risk assessment on December 2S, 2006,
that the information from the source could not be
corroborated and that no specific threat against SA
Dobyns was identified. Based on this assessment,
OPSEC found that the protective countermeasures in
place for SA Dobyns were sufficient. The OIG report
notes that OPSEC considered documentary evidence,
but did not interview the individuals involved in the
alleged contract hit on SA Dobyns.
When OIG investigators questioned SA Ging about
this conclusion, he expressed surprise and stated that
he did not believe ATF could base its conclusion on his
interview with the source. OIG asked OPSEC to explain the basis for its conclusions. The report sets forth
OPSEC’s response which states, in part, that the
additional information provided by the source was not
plausible.
The OIG reports that ATF reached this conclusion
without gathering necessary relevant information.
While the initial report from the New Orleans Field
Office noted that, on occasion the source had provided
unreliable information, recent information he provided was described as accurate and “right on the
money.” The New Orleans and Phoenix Field Offices
failed to respond promptly to OPSEC’s request for an
interview. Thus, in very strong language OIG concluded that ATF’s response to this potential threat
was “inadequate, incomplete, and needlessly delayed.”
Given ATF’s failure to interview the individuals
allegedly involved in the murder-for-hire scheme, the
OIG. also calls into question OPSEC’s conclusions that

201a
the information provided by the source was not credible and there was no threat to SA Dobyns.
In summary, the DOJ OIG found that ATF has
adequate written policies and procedures in place
which govern the agency’s assessment and response to
threats against its agents. In this case, a series of
miscommunications resulted in ATF handling the
relocation of the Dobyns family as a standard
relocation rather than an emergency relocation as
warranted. The latter would have included backstopping provisions for the protection of their identities.
The DOJ OIG recommended that ATF amend it
written procedures regarding emergency relocations
to require that the notifications of emergency relocations by the DAD/FO and the AD/FO be made in
writing to prevent similar missteps in the future. The
ATF concurred with the recommendation and has
amended its policies and updated all training materials to ensure that all personnel are aware of the new
policy.
The OIG also concluded that ATF should have
interviewed Mr. Duchette about his alleged threats.
The report notes that ATE was already planning to
relocate SA Dobyns based on the McKay threat, but
states that interviewing Mr. Duchette could have
yielded information relevant to the implementation of
the move. Finally, the report concluded that ATF
mismanaged the threats posed by Mallaburn, and
Wistrom and Augustiniak. The failure to promptly
interview Mallaburn delayed the agency’s determination that Dobyns should be relocated due to the threat.
With respect to Wistrom and Augustiniak, the OIG
found that ATF reached the conclusion that they posed
no viable threat to SA Dobyns without adequately

202a
investigation and without interviewing those allegedly
involved in the contract hit on SA Dobyns.
The Whistleblower’s Comments
SA Dobyns begins by stating that he is proud to have
been an ATF agent for 22 years and that it has been
an honor to work alongside the “most courageous law
enforcement officers” of the nation, the agents of the
ATF. The pride felt for colleagues and his service is
offset by the disappointment in ATF leadership.
According to SA Dobyns, the OIG report provides
independent confirmation of the carelessness of ATF
management. SA Dobyns comments that he reported
his concerns internally, but they were ignored. He
notes that many ATF officials, mid-level managers,
senior leadership of three ATF Field Divisions, among
others, were involved in the mismanagement of the
threats leveled against him.
SA Dobyns contends that ATF’s reckless behavior is
not unique to his case, but is unfortunately a pattern
of conduct which has been tolerated by the agency. He
questions how ATF leaders can claim to be the “tip of
the sword” in fighting crime when they ignore and
dismiss violent crimes against their own agents. ATE
agents accept, as part of their job, the very real
possibility that suspects may try to retaliate against
them. The work of ATF agents targets some of the
nation’s worst criminals—those who use guns, bombs,
and arson; in the commission of their crimes. The
failure of ATF leadership to respond and address
threats from, those criminals made against its own.
agents is an embarrassment to the agency and an
insult to its agents.
ATF agents will, Mr. Dobyns writes, continue their
challenging investigative work. They will do so now,

203a
however, with confirmation that there are those in
ATF management who will turn their backs on them
at the first sign of trouble or controversy.
The Special Counsel’s Comments and Conclusion
Based on the representations made in the agency
report, I have determined that the agency report
contains all of the information required by statute. I
have also determined that the report’s findings appear
to be reasonable.
ATF is one of the nation’s most important law
enforcement agencies. The agency is dedicated to
protecting the public from terrorism, reducing violent
crime, enforcing federal criminal laws and regulating
the firearms and explosives industries. ATF focuses its
efforts on violent crime’s involving firearms, explosives, arson, and the illegal trafficking of alcohol and
tobacco. To carry out its mission of protecting the
public, ATF asks its agents to undertake dangerous
assignments in the regular course of their duties.
Undercover work, in particular, targets those individuals and groups who are considered to be among
the most dangerous to the public. As such, undercover
work involves an inherent risk of danger to the agent.
The support and protection of its own agents is critical
to both the morale of ATF agents and to the success of
the agency’s public service mission. If ATF does not
protect its agents, they, in turn, cannot protect the
public.
Thus, notwithstanding my determination that the
report’s findings appear to be reasonable, I note with
concern the absence of any corrective measures
proposed to address the failure to conduct timely and
thorough investigations into the death threats made
against SA Dobyns. ATF does not appear to have held

204a
anyone accountable in this regard. Fully addressing
the problems and failures identified in this case
requires more than amending ATF policies and procedures. It requires that threats against ATF agents be
taken seriously and pursued aggressively and that
ATF officials at all levels cooperate to ensure the
timely and comprehensive investigation of threats
leveled against its own agents.

205a
[LOGO]
U.S. Department of Justice
Office of the Inspector General
September 22, 2008
The Honorable Scott J. Bloch Special Counsel
U.S. Office of Special Counsel
1730 M Street, NW, Suite 300
Washington, D.C. 20036
Re: OSC File No. DI-07-0367
Dear Mr. Bloch:
Enclosed is a copy of the Office of the Inspector
General (OIG) report entitled, OIG Report On Allegations by Bureau of Alcohol, Tobacco, Firearms, and
Explosives Special Agent Jay Dobyns. The Office
of Special Counsel (OSC) referred this matter to
Attorney General Alberto Gonzales and requested that
the Department of Justice investigate allegations by
Special Agent Dobyns that the Bureau of Alcohol,
Tobacco, Firearms and Explosives’ (ATF) system for
assessing and responding to threats made against its
agents is inconsistent, unreliable, and inadequate to
protect its agents and their families and that ATF had
severely mismanaged a series of threats made against
him. Attorney General Gonzales delegated his authority to review and sign this report to the OIG, and we
have been in regular communication with OSC about
the timing of this investigation.
The enclosed report summarizes the results of our
investigation. We are also providing a copy of the
report to ATF.
If you have any questions about the report, please
contact me or Special Agent in Charge Glenn Powell,
at (202) 616-4760.

206a
Sincerely,
/s/ Glenn A. Fine
Glenn A. Fine
Inspector General
Enclosure
Cc: Catherine McMullen

207a
[LOGO]
U.S. Department of Justice
Office of the Inspector General
OIG Report on Allegations by
Bureau of Alcohol, Tobacco, Firearms
and Explosives Special Agent
Jay Dobyns
September 22, 2008
Introduction
By a letter to Attorney General Gonzales, the United
States Office of Special Counsel (OSC) referred for
investigation the allegations raised by Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) Special
Agent Jay Dobyns. In summary, Dobyns alleged that
ATF’s system for assessing and responding to threats
made against its agents is inconsistent, unreliable,
and inadequate to protect its agents and their families.
He further alleged that ATF severely mismanaged a
series of threats that were made against him.
The Attorney General requested that the Office of
the Inspector General (OIG) investigate Dobyns’s
allegations and provide a report to the OSC. The OIG
interviewed ATF managers and other ATF employees
regarding ATF’s policies and procedures for handling
threats against ATF employees, the specific threats
against Dobyns, and ATF’s actions in response to those
threats. The OIG also reviewed relevant ATF policies,
an ATF Office of Professional Responsibility Fact
Finding Investigation relating to Dobyns’s allegations,
and relevant e-mail exchanges among ATF management, Dobyns, and others. The OIG also interviewed
Dobyns.

208a
This report describes the findings of our investigation. We first provide a brief factual background and
then analyze the evidence regarding Dobyns’s allegations.
In summary, we conclude that ATF has written
policies and procedures that govern the treatment of
threats made against its agents and that these policies
are generally adequate. With regard to ATF’s response
to specific threats against Dobyns, we found that ATF
appropriately decided to relocate Dobyns and his
family to Santa Maria, California, in September 2004,
following the receipt of the first of four specific threats
made against him. However, due to a series of miscommunications among the ATF managers responsible for
implementing this decision, the transfer was. handled
as a standard change of duty station rather than an
emergency relocation. As a result, Dobyns and his
family were not provided appropriate support and
resources to protect their identities and location that
normally accompany an emergency relocation. Upon
receipt of another threat, ATF became aware that the
move to Santa Maria had been mishandled. As a
result, ATF relocated Dobyns and his family to Los
Angeles with the appropriate safeguards in place.
With regard to the three other threats, we found
that ATF needlessly and inappropriately delayed its
responses to two of the threats. We also concluded that
ATF should have done more to investigate two of the
threats.
Factual Background
Dobyns has been employed as a Special Agent with
ATF since 1987. Between early 2001 and July 2003, he
was the lead undercover agent in an investigation
known as Operation Black Biscuit, which targeted

209a
members and associates of the Hell’s Angels Motorcycle Club (Hell’s Angels). During this period, Dobyns
was stationed in ATF’s Tucson Field Office and lived
in the Tucson area with his family.
In the summer of 2003, as the investigative stage of
Operation Black Biscuit was drawing to a close, ATF’s
Office of Operations Security (OPSEC) conducted a
routine risk assessment to identify whether any ATF
personnel associated with the Black Biscuit operation
were in danger as a result of their work on that case.
This assessment was pre-emptive and was not based
on the receipt of any particular threat against Dobyns
or other ATF personnel.
OPSEC concluded that there was some threat to
Dobyns at that time and recommended that he and his
family be afforded a cooling off period away from the
Tucson area and that he be considered for an assignment in a new location away from the West Coast that
would limit his visibility and enable him to keep a low
profile. When Dobyns was informed of OPSEC’s
recommendation, he argued against being relocated on
the ground that no specific threat had been made
against him. ATF ultimately agreed to let Dobyns
remain in. Tucson.
On August 31, 2004, Dobyns was the subject of a
specific threat by Robert McKay, a member of the
Hell’s Angels who had been indicted on criminal charges as a result of Operation Black Biscuit. As a result,
McKay was arrested on charges of threatening a
federal officer and, on September 17, 2004, after
conducting an assessment of the risk faced by Dobyns
and his family, ATF moved them out of Tucson to
Santa Maria, California.

210a
Michael Bouchard, then the Assistant Director Field
Operations (AD/FO), and Dewey Webb, then the
Deputy Assistant Director for Field Operations
(DAD/FO), were the ATF officials with decisionmaking authority regarding the move to Santa Maria.
Although both Bouchard and Webb believed that
they had authorized an emergency relocation, their
subordinates understood that only a standard permanent change of duty station had been authorized.
Accordingly, when they were moved to Santa Maria,
Dobyns and his family were not provided the support
and resources to protect their identities and location
that normally accompany an emergency relocation.
When ATF undertakes an emergency relocation of
one of its agents, it takes certain steps to “backstop”
the agent’s identity. Backstopping is essentially the
covert establishment of a fictitious identity for the
agent For example, the agent may be provided a
fictitious driver’s license, a fictitious credit card, and
other fictitious items of identification: fictitious identities may be established for family members; and
fictitious information regarding the agent’s credit
history, real estate records, ownership of motor
vehicles, school records of children, voter registration
information, and other vital records may be created.
Backstopping may also include flagging the employee’s personal records in various databases so that ATF
would be alerted to any inquiries made regarding the
employee or his or her family. As noted above, none of
this happened with regard to Dobyns’s relocation to
Santa Maria because it was erroneously treated as a
standard change of duty station, not an emergency
relocation.
In September 2004. ATF learned that Curtis Duchette, an inmate who had been the subject of another of

211a
Dobyns’s undercover investigations, had allegedly
made threatening statements against Dobyns. At this
time, ATF was already dealing with the McKay threat
and had decided to transfer Dobyns and his family out
of Tucson based on that threat. We found that ATF did
not conduct any significant investigation of Duchette’s
alleged statements.
In November 2005, ATF was informed of another
alleged threat against Dobyns. by Dax Mallaburn, a
known associate of the Arizona Aryan Brotherhood. As
a result of a review of the Mallaburn threat, Bouchard
became aware that Dobyns’s transfer to Santa Maria
had not been handled as an emergency relocation, and
ATF updated its risk assessment relating- to Dobyns.
Thereafter, in December 2005, ATF relocated Dobyns
again first for 1 year to Washington, D.C., and then to
Los Angeles. We found that ATF took appropriate
steps to backstop Dobyns’s identity in connection with
these moves.
In November 2006, an ATF agent reported that a
Hell’s Angels member incarcerated in Phoenix told
him that another Hell’s Angels member had said that
the Hell’s Angels were “going to start our campaign
against Dobyns.” After assessing this information,
however, ATF concluded that “no specific or direct
threat toward [Special Agent] Dobyns was identified.”
ATF’s Policies and Procedures for Assessing, Evaluating, and Responding to Threats Against Agents
At the time ATF learned of the first specific threat
against Dobyns in August 31, 2004, ATF policy regarding how to respond to threats against its agents was
memorialized in two orders: ATF Order 3210.70, Investigative Priorities, Procedures, and Techniques,
dated February 25, 1999, and ATF Order 3250.1A,

212a
Informant Use and Undercover Operations, dated October 26, 2001.
According to the Order 3210.7C, ATF Special Agents
are to report threats against agents and other “sensitive situations” to the highest level manager in their
field office, which in most instances is the. Special
Agent in Charge (SAC). The Order further provides,
“when threats . . . against [ATF] employees occur, the
[SAC] will immediately contact the Chief of the Special
Operations Division (SOD), by secure telephone and
will follow up with a SAR [Significant Activity Report]
by facsimile.” In addition, the Order instructs the ATF
National Communications Center (now called the
Joint Support Operations Center)3 to forward the SAR
to other Headquarters division chiefs whose program
areas may be involved, including the Chief, Intelligence Division. The SOD Chief is responsible for
notifying the appropriate ATF executive staff members of the threat. Finally, the Order states that when
an investigation into a threat has lost its sensitive
status, a final report will be submitted to the SAC by
the assigned Special Agent, for forwarding to
Headquarters.
Order 3250.1A sets forth emergency move procedures when a Special Agent receives a threat during
an undercover operation. According to DAD/FO Webb,
however, ATF managers understand the policy to
apply to all threats made against ATF agents, whether
or not an undercover operation is actually underway
at the time the threat is received.
According to Order 3250.1A, threats are to be
verified through a field division-initiated threat
3

The Joint Support Operations Center is the broadcast center
for all ATF communications traffic.

213a
assessment. Once a threat has been verified, the SAC
should prepare a memorandum for the DAD/FO, through the Chief, Intelligence Division, outlining the
circumstances surrounding the threat and any action
taken. The DAD/FO then makes the decision regarding whether to authorize an emergency move on the
basis of the threat. The Order provides that if the
DAD/FO authorizes an emergency move, the DAD/FO
shall notify the Chief, SOD; the Special Agent in
Charge of the Undercover Branch (UCB); the Assistant Director (Management); and the Financial
Manager/Deputy Chief Financial Officer, Financial
Management Division. The policy does not specifically
require that any of these notifications be made in
writing.
The policy further provides that the threatened
Special Agent must prepare a memorandum outlining
his or her offices of preference, including a brief
justification for these locations. The AD/FO then
decides to where the agent will be relocated, based
upon an assessment of the risk, the available staffing
needs, and the agent’s stated preferences.
In June 2005, ATF issued Order 3040.2, which
provides additional guidance regarding assessing
threats against ATF agents. Pursuant to this Order,
OPSEC is the primary point of contact on all matters
relating to threats against ATF employees. Specifically, OPSEC is responsible for


coordinating and evaluating all information
and conducting all threat assessments required to determine the validity of the threat;



conducting a risk assessment to determine
the risk or loss of the agency asset; and



214a
recommending countermeasures to reduce or
negate the risk whenever possible.

Order 3040.2 instructs employees to “immediately”
report threats to their first-line supervisors, instructs
supervisors to Immediately report threats to the
Special Agent in Charge or Division Chief, and instructs SACS and Division Chiefs to report threats to
OPSEC. Notification to OPSEC is to be made in the
form of a memorandum containing:


the name of the agent who has been threatened;



the case agent assigned to conduct the initial
assessment ‘of the threat;



the date of the threat and all background
information, such as possible motivation;



the nature of the threat, that is, who made it,
any information known



about that individual, who reported the
threat, and the reliability of the source;



a description of any countermeasures that
have been taken;



the initial assessment, if completed; and



any other relevant information, that is, other
Bureau or law enforcement agencies involved.

OPSEC then must conduct a risk assessment, which
the Order defines .as “[a] process of determining the
likelihood of an adversary successfully exploiting a
vulnerability and the resulting degree of damage or
Impact on an asset.” This assessment consists of


obtaining a full briefing from the case agent
who conducted the initial assessment;



215a
interviewing the threatened employee regarding issues surrounding the threat;



evaluating the current conditions surrounding the assets and those directly affected by
the threat;



making recommendations to the SAC or
Division Chief regarding the Safety and
security of the threatened employee;



determining any risk associated with the
threat, including to family members;



assessing risk to others associated with the
threatened asset; and



preparing a written report outlining the
actual threat level, risk associated with
the asset based on the degree of threat,
observations, recommendations, and countermeasures.

At the time of the McKay threat, Order 3040.2 had
not yet been issued. However, as discussed in more
detail below, OPSEC was involved in evaluating and
assessing the McKay threat, and the steps ATF took
in response to that threat were largely based on
OPSEC’s assessment that the threat was “critical.”
ATF’s Response to Specific Threats Against Dobyns
August 2004 - Robert McKay
On August 31, 2004, Dobyns encountered Robert
McKay, a member of the Hell’s Angels. at a Tucson
bar. According to Dobyns, McKay told him he was “a
marked man” and that he was “going to spend the rest
of [his] life on the run from [the Hell’s Angels].”
Dobyns reported McKay’s statements to his SAC, who
reported the matter up the ATF chain of command.

216a
McKay was arrested the next day on charges of threatening a federal agent.
Consistent with ATF policy, Carlos Sanchez, then
the SOD Chief, was promptly notified of McKay’s
statements to Dobyns. Sanchez requested that OPSEC
conduct a risk assessment relating to Dobyns. As a
result, OPSEC elevated the threat level. of Dobyns
and his family to “critical” and recommended that
an emergency relocation with full backstopping
be implemented. According to OPSEC’s report, “all
information pertaining to residential relocation of
[Special Agent] Dobyns and his family must be fully
masked to prevent direct linkage.”
Sanchez told the OIG that be agreed with OPSEC’s
recommendation for an emergency relocation for
Dobyns and therefore recommended to DAD/FO Webb
that Dobyns be transferred on an emergency basis to
an area outside the western United States after an
assignment to ATF Headquarters. As the DAD/FO,
Webb had responsibility for determining whether to
authorize the emergency move.
Also consistent with ATF policy, Kim Balog, then
the SAC of the ATF Undercover Branch (UCB),
participated in the discussions regarding the McKay
threat. Balog told the OIG that she and her immediate
supervisor, Deputy Chief John Cooper, also recommended an emergency relocation for Dobyns and his
family. Balog said that she attended several meetings
with Cooper, Sanchez, and Webb during which they
discussed the resources available to provide a safe
relocation for Dobyns and his family.
Webb told the OIG that he, too, agreed with
OPSEC’s recommendation that Dobyns receive an
emergency transfer. Webb said that he told Sanchez

217a
during a face-to-face meeting that Dobyns’s move was
to be “covert.” Webb said that he expected this
instruction would result in the complete backstopping
of Dobyns and his family. Webb told the OIG that he
spoke with Sanchez on more than one occasion regarding Dobyns’s transfer and that he told Sanchez that he
did not want ATF to repeat certain mistakes that had
been made during the emergency relocation of another
ATF agent. Webb acknowledged signing a “Permanent
Change of Duty Station” (PCS) memorandum, dated
September 1.7, 2004, relating to Dobyns’s transfer.
Webb told the OIG that the PCS memorandum he
approved was required regardless of whether the
associated transfer was standard or emergency in
nature. The OIG confirmed that Webb was correct on
this point.
According to ATF Order 3250.1A, Webb was
required to notify both Sanchez and Balog that he was
authorizing an emergency relocation for Dobyns. As
discussed above, Webb said he orally communicated
this information to Sanchez. He could not recall
whether he specifically notified Balog of his decision.
However, according to Webb, because Balog reported
to Sanchez, notifying Sanchez should have been
sufficient.
Both Sanchez and Balog denied that Webb ever
clearly communicated to either of them that he had
authorized an emergency transfer for Dobyns.
Moreover, Sanchez told the OIG that he interpreted
the PCS memorandum that Webb had signed as an
indication that Webb had authorized only a permanent change of duty station and had rejected the idea
of an emergency move for Dobyns.
Webb told the OIG that he did not recall notifying
either the Assistant Director (Management) or the

218a
Financial Manager/Deputy Chief Financial Officer,
Financial Management Division (FMD), of his decision
to authorize an emergency transfer as required by Al?
Order 3250.1A. However, he said he did recall contacting the Financial Management Division in connection
with Dobyns’s transfer and being told that there was
between $200,000 and $300,000 available to Sanchez
to spend on backstopping. Webb said that he would
have expected Sanchez to come to him if there was an
issue with respect to financing the emergency relocation of Dobyns and his family and that Sanchez did not
do so. Webb told the OIG that he did fully understand
until January 2007, when he was ordered to meet with
Dobyns regarding a grievance Dobyns later filed against the ATF, that Dobyns’s transfer to Santa Maria
had not been handled as an emergency relocation.
Sanchez told the OIG that he did not question Webb
as to why he was not authorizing an emergency
relocation for Dobyns. He said that his superiors do
not always follow his advice and that he simply
assumed that Webb had disagreed with his recommendation for an emergency transfer. Balog told the
010 that she learned from Deputy Chief Cooper that
the move would not be. an emergency relocation. She
said she discussed the matter with Sanchez, who told
her Webb had not approved an emergency transfer.
Cooper told the OIG that he learned from either
Sanchez or Balog that Dobyns’s move to Santa Maria
would be handled as a standard transfer. He said that
at no point was he ever instructed to handle the move
as an emergency relocation.
The OIG also discussed Dobyns’s transfer with
Bouchard, who was the Assistant Director of Field
Operations during the relevant time period and was
responsible for making the final determination regard-

219a
ing the location to which Dobyns would be transferred.
Bouchard told the OIG that he was familiar with
Dobyns’s undercover work in Operation Black Biscuit
and with the McKay threat. He said he had approved
the transfer of Dobyns and his family to Santa Maria
as a result of the McKay threat and that it was his
understanding at that time that the move would be an
emergency relocation. Bouchard said it was not until
Dobyns was the subject of the Dax Mallaburn threat
in November 2005 that he learned that the move to
Santa Maria had been handled as a standard change
of duty station and not an emergency relocation.
Bouchard said that although he never gave a direct
order that the move to Santa Maria be handled as an
emergency relocation, he assumed that an emergency
relocation would be done. Bouchard stated that Webb
had been the former Chief of SOD and that Sanchez
“knew the circumstances of the threats better than
the] did,” Bouchard said he relied on Webb and Sanchez to handle the move appropriately.
As noted above, Bouchard became aware in November 2005 that Dobyns’s transfer to Santa Maria had
not been an emergency relocation. Bouchard thereafter met with Dobyns and personally apologized to him
for the manner in which ATF had handled the transfer
to Santa Maria. He also asked Dobyns to extend an
apology on behalf of ATF to his family. At this meeting,
Dobyns requested that he and his family be relocated
to the Los Angeles area.
Following this meeting, Bouchard ordered that
Dobyns and his family be transferred with full backstopping, first to Washington. D.C., for a 1-year period
and then to Los Angeles. In connection with this move,
ATF provided Dobyns with a document entitled Relocation Guidelines. These guidelines provided direction

220a
and instruction regarding the precautions Dobyns
should take and the manner in which he should handle
the sale of his existing home, the purchase of a new
home, the registration of any vehicles, the registration
of his children at school and of pets with a
veterinarian, the filing of his income tax statements,
and the information he should provide to his new field
office so that any inquiries regarding him could be
handled appropriately. The document also advised
Dobyns that he should keep a low profile with respect
to where he went in public, what he wore, and the
manner in which. he traveled and instructed him to
obtain from OPSEC an undercover identity, including
a new Social Security number and credit card, and to
request that his personal information be monitored in
databases such as AutoTrack and LexisNexis. Finally,
the document instructed Dobyns that in the event he
encountered any difficulties implementing any of the
recommendations contained in the guidelines, he
should immediately contact OPSEC to obtain
assistance.
Once Bouchard approved the emergency relocation,
ATF’s SOD assisted Dobyns with obtaining a covert
apartment in Washington, D.C., where he lived
temporarily for several months for purposes of
backstopping his location and eventual move to Los
Angeles. Bouchard told the OIG that once OPSEC
agreed that Dobyns had been appropriately backstopped in Los Angeles, he authorized Dobyns’s
transfer back to the West Coast.
In sum, the OIG found that due to miscommunications among Bouchard, Webb, and Sanchez, ATF
treated Dobyns’s transfer from Tucson to Santa Maria
as a standard, rather than an emergency, relocation.
Both Bouchard and Webb believed they had author-

221a
ized an emergency relocation, and Webb recalled
telling Sanchez that the move should be “covert.”
However, Sanchez denied that Webb told him he had
approved an emergency relocation for Dobyns. In
addition, Sanchez mistakenly interpreted the PCS
memorandum Webb had signed in connection with the
transfer as an indication that Webb had approved only
a standard change of duty station. We found that
Bouchard, Webb, and Sanchez failed to follow-up with
each other regarding the implementation of Dobyns’s
transfer. Bouchard and Webb assumed that their
subordinates would handle the transfer appropriately,
and Sanchez did not question Webb about what he
perceived to be Webb’s rejection of the recommendation that Dobyns be afforded an emergency transfer.
In November 2005, after Bouchard learned that the
transfer to Santa Maria had been mishandled, he
ordered, and ATF implemented, an emergency
transfer for Dobyns and his family to Los Angeles.
After that point, ATF handled Dobyns’s relocation as
an emergency transfer, as it should have in the first
place.
As noted above, ATF policy did not require Webb
and Bouchard to memorialize their decisions regarding Dobyns’s transfer in writing. The OIG believes
that had ATF policy required them to do so, the
miscommunications that resulted in the mishandling
of the move to Santa Maria would likely not have
occurred. Accordingly, we recommend that ATF revise
its policy regarding emergency relocations to require
that the required notifications by the DAD/FO and the
AD/FO be memorialized in writing. We also recommend that ATF ensure that all officials responsible for
implementing emergency moves understand that a
PCS memorandum is required whether a particular

222a
move is emergency in nature or connected with a
standard permanent change of duty station.
September 2004 - Curtis Duchette
On September 20, 2004, a convicted felon and
previous source for Dobyns visited the Tucson Field
Office and reported to the Resident Agent in Charge,
Sigberto Celaya, that he had recently shared a jail cell
with Curtis Duchette and that Duchette had told him
that he wanted to put a gun to the back of Dobyns’s
head and pull the trigger. Earlier that month, Dobyns
had purchased firearms from Duchette during an
undercover operation, and Duchette had subsequently
been arrested on an unrelated probation violation. The
source told Celaya that he believed the threats were
viable and expressed concern for Dobyns’s safety. The
Tucson Field Office subsequently confirmed that the
source had shared a cell with Duchette as recently as
September 17, 2004.
In accordance with ATF procedures, Celaya drafted
a SAR documenting the source’s statements and
noting that the Tucson Field Office had confirmed that
the source and Duchette had shared a jail cell, Celaya
also stated that he had no information indicating that
Duchette had the means or outside assistance to carryout the threat. Celaya briefed his supervisor, Marvin
Richardson, Assistant Special Agent in Charge
(ASAC), Phoenix Field Division, regarding the source’s
statements and provided him with a copy of the SAR.
Richardson forwarded the SAR to ATF’s Intelligence
Division, to OPSEC, and to Sanchez. ATF did not take
any further steps at that time to investigate the
source’s allegation regarding Duchette.
Dobyns told the OIG that in April 2005, while
reviewing the case file in preparation for testifying

223a
against Duchette at trial, he discovered that ATF had
not interviewed Duchette regarding his alleged statement. Accordingly, Dobyns contacted Madison Townley, then the Chief of OPSEC, and expressed frustration with what he perceived to be ATF’s lack of
attention to the Duchette threat.
In response to Dobyns’s inquiry, OPSEC contacted
Celaya. Celaya advised OPSEC that, in his view, the
threat was not credible. Based on Celaya’s assessment, OPSEC took no further action regarding the
Duchette threat.
As discussed in more detail below, in November
2005, ATF learned of the Mallaburn threat. As a
result, OPSEC completed an updated risk assessment
regarding Dobyns. In this assessment, OPSEC stated
that Celaya had “expressed doubts about the credibility of the Duchette threat and encouraged deferment
of any action until after Federal prosecution of the case
[against Duchette in which Dobyns was to testify].”
OPSEC did not recommend that Duchette be interviewed or that any further action be taken regarding
his alleged statements. However, based on its assessment of the Mallaburn threat, OPSEC concluded that
Dobyns should be permanently relocated outside of the
western region of the United States with full backstopping.
In November 2005, Bouchard authorized an
emergency relocation for Dobyns to Los Angeles.
Although OPSEC had originally recommended that
Dobyns be relocated outside of the western region,
Bouchard authorized the move to Los Angeles after
receiving assurances from OPSEC that Dobyns. could
be adequately protected there and in light of Dobyns’s
preference for that location.

224a
However, ATF never interviewed Duchette about
his alleged statements to the source. Celaya told the
OIG that at the time the source made the report,
Celaya’s understanding was that Dobyns was already
receiving an emergency relocation as a result of the
McKay threat and that he believed that this move
would be sufficient to protect Dobyns from any threat
Duchette might pose. Celaya acknowledged to the
OIG, however, that in retrospect ATF should have
interviewed Duchette to determine whether or not he
actually posed a threat to Dobyns.
We concluded that ATF should have taken the
threat more seriously and at least interviewed
Duchette about his alleged statements.
November 2005 - Dax Mallaburn
On November 3, 2005, Phillip Durham, Assistant
Special Agent in Charge of ATF’s Washington Field
Division, received a call from A.J. Turner, then the
Assistant Special Agent in Charge of the Federal
Bureau of Investigation’s (FBI) Washington Field
Division. Turner told Durham that an FBI confidential
source had provided information regarding a threat
against Dobyns. According to Turner, the source had
told the FBI that while incarcerated at the Florence
Correctional Center in Florence, Arizona, he had
contact with a white male he knew as “Whitey.”
Whitey, who the source believed was a member of the
Aryan Brotherhood, was seeking someone to carry out
a contract hit on several individuals on behalf of the
Brotherhood. The source said that Whitey had shown
him a list containing the names of individuals the
Brotherhood was targeting and that Dobyns’s name
was on the list.

225a
Durham said he immediately contacted supervisors
in the Phoenix and Los Angeles Field Divisions to
advise them of this information. The following day,
November 4, two ATF agents interviewed the source.
The source told the ATF agents that he was aware
that Dobyns had recently worked undercover in an
investigation that targeted the Hell’s Angels. The
source also indicated that Whitey had told him that
Dobyns had a wife and a daughter. In addition, the
source described Dobyns’s tattoos and his physical
appearance, based upon information he said he had
received from Whitey. Within several days, ATF
identified Whitey as Dax Mallaburn.
Group Supervisor Frank Haera, of the Washington
Field Division, told the OIG that after the interview of
the source, he immediately briefed Durham and Group
Supervisor Daniel Machonis of the Phoenix Field
Division. On November 7, 2005, Haera sent an e-mail
message to Durham and OPSEC, attaching a written
report on the interview. Haera told the OIG that he
felt a sense of urgency about the matter because the
source was a member of a violent gang and had provided an accurate description of Dobyns and his
family.
According to Durham, on November 7, 2005, he
participated in. a conference call with Phoenix ASAC
Richardson, ASAC James Crowell of the Los Angeles
Field Division, OPSEC Chief Townley, and Deputy
Assistant Director for Field Operations Webb.
Durham told the OIG that, during the conference call,
it was decided that the Phoenix Field Division would
assign an agent to interview Mallaburn. However,
Phoenix did not conduct the requested interview.
Later that day, Richardson contacted OPSEC and
advised that, in his view. “the threats have very little

226a
credibility considering the source.” Richardson told
the OIG that he based this assessment on information
he received from agents within the Phoenix Field
Division. But when the OIG interviewed the agents
identified by Richardson as having provided him with
this information. they denied having any involvement
in the matter.
According to Durham, in the weeks following the
November 7 conference call, he had several conversations with Townley about the status of the investigation of the Mallaburn threat. Durham said he spoke
with Townley in November 2005 “every other day or
so” and that Townley complained each time that no
one was doing anything to resolve the Mallaburn
threat.
Durham said he told Townley during each conversation that Phoenix was responsible for interviewing
Mallaburn and that he had no further information to
report until that interview occurred. Durham said that
he also spoke with Richardson during this time period
and that Richardson told him. that Phoenix agents
who were familiar with Mallaburn would be
conducting the interview. Durham said that sometime
in mid-November Richardson agreed to send a
Phoenix agent and a Washington agent to interview
Mallaburn. However, according to Durham, Richardson never followed through with this plan.
Durham told the OIG that near the end of November, he once again called Richardson and asked why
Mallaburn had not yet been interviewed. Durham told
the OIG that Richardson told him that Mallaburn was
not. credible, that Mallaburn was not reliable, and
that any information Mallaburn had would be of no
use. Richardson did not tell Durham on what he based
this assessment. Durham said that he then told

227a
Richardson that the Washington Field Division would
interview Mallaburn and that no assistance from
Phoenix would be necessary.
Accordingly, on November 30, almost 4 weeks after
ATF learned of the alleged threat, two agents from the
Washington Field Division interviewed Mallaburn.
Mallaburn told the agents that while incarcerated in
Florence, Arizona, he had been given a “hit list” or
“green light list” by a member of the Hell’s Angels. He
said that Dobyns and two other undercover law
enforcement officers who worked with Dobyns during
Operation Black Biscuit were on the list and that the
list contained a physical description of Dobyns.
Mallaburn told the agents that he knew the Hell’s
Angels member as Rob and provided a physical description of him. Mallaburn said he was supposed to
make a copy of the list and provide it to members of
the Aryan Brotherhood but that he did not do so. He
claimed that he later destroyed the list by flushing it
down the toilet to avoid it being discovered during an
impending search of his cell.
The Washington Field Division completed a report
of the Mallaburn interview and forwarded it to OPSEC
and the Phoenix Field Division. OPSEC completed a
threat assessment dated November 30, 2005. In its
assessment, OPSEC concluded that although key
elements pertaining to the credibility of the underlying threats Mallaburn had described remained
unknown, sufficient potential risk factors existed to
support the relocation of Dobyns and his family.
Accordingly, OPSEC recommended permanent relocation outside of the western United States with full
backstopping for Dobyns and his family.
Two weeks after the Mallaburn interview, ATF
made the decision to transfer Dobyns to ATF head-

228a
quarters for a 1-year temporary assignment after
which he and his family would receive an emergency
relocation to Los Angeles.
Dobyns told the OIG that in late November 2005, he
had become frustrated with what he perceived as the
lack of investigative effort on the part of ATF
regarding the Mallaburn threat. Although Dobyns was
aware of his impending move to Los Angeles and the
results of the Washington Field Division’s interview of
Mallaburn, he believed that ATF should investigate
the matter further in order to confirm the existence of
the “hit list” and the identity of those associated with
it so that appropriate actions could be taken, including
possible prosecution of the offenders.
On December 6, 2005, Dobyns contacted ATF
Special Agent Joseph Slatella, the case agent for
Operation Black Biscuit, and asked that he investigate
the matter further. Slatella subsequently contacted
Group Supervisor Machonis and requested permission
to conduct additional investigation of the Mallaburn
threat. Machonis and Richardson approved Slatella’s
request, and Slatella conducted an investigation of the
Mallaburn threat. On March 7. -2006, Slatella
completed a 14-page report of investigation.
Slatella’s investigation consisted of interviews of
Mallaburn, an Intelligence Investigator working at
the prison in Florence, an undocumented source
knowledgeable about the affairs of the Aryan Brotherhood, two Arizona Department of Corrections officials,
a documented ATF informant, and an inmate.
Mallaburn told Slatella that he had misled the
Washington Field Division agents who had previously
interviewed him. He said he lied about what he did
with the hit list because he did not want to get
involved in the investigation. He said that rather than

229a
destroying it, he had, in fact, passed it on to an
undetermined number of violent criminals in an
attempt to instigate violent action against Dobyns.
Slatella identified Art Dominguez as the primary
source of the hit list. Dominguez, who is reputed to
have contacts with armed drug traffickers and
members of the Aryan Brotherhood, had been arrested
and jailed after selling guns and drugs to Dobyns.
during an undercover operation. Slatella concluded
that Dominguez likely passed information about
Dobyns to an undetermined number of violent criminals with the intent to have that information used for
violent retaliation against Dobyns. In his report
Slatella stated, “Although it is believed that the
[Aryan Brotherhood] membership as a whole has not
accepted or sanctioned any such ‘hit’ or ‘contract’
against Special Agent Dobyns, individual associates
and members of the [Brotherhood] directly associated
with and linked to Dominguez are believed to have the
information, resources and wherewithal to complete
an ambush assault against Agent Dobyns if afforded
the opportunity through their own efforts or through
happenstance.”
Slatella’s report was immediately sent to the Chief
of OPSEC, the Special Agent in Charge of the
Operations Security Program, the Field Management
Staff of the Operations Support Branch, the Special
Agent in Charge of the Undercover Branch, and the
SAC and ASAC of the Phoenix Field Division. ATF was
already in the process of arranging an emergency
relocation of Dobyns and his family, and no further
action was taken based on Slatella’s report.
Our investigation found that ATF did not handle the
Mallaburn threat appropriately or in a timely manner.
ATF learned of the alleged threat on. November 3,

230a
immediately made a decision to interview Mallaburn,
and assigned this task to the Phoenix Field Division.
However, despite repeated prodding from the Washington Field Division, Phoenix failed to conduct the
interview. Consequently, ATF did not interview
Mallaburn until nearly a month after it became aware
of the possible threat. Although ATF thereafter
conducted a risk assessment and determined to move
Dobyns based on the threat, this decision was unnecessarily delayed by the Phoenix Field Division’s failure
to act more promptly and take the threat seriously
enough.
November 2006 - Doug Wistrorn/Kevin Augustiniak
On November 15, 2006, Special Agent Daniel
Hebert, of ATF’s New Orleans Field Division, sent an
e-mail message to Dobyns relating a conversation he
had recently had with a Hell’s Angels member who
was incarcerated in Arizona. According to Hebert, the
inmate had spoken with Hell’s Angels member Doug
Wistrom, who had told him, We’re going to start our
campaign against Dobyns, we know where he is . . .”
Hebert said that the inmate had indicated that the
campaign he was referring to “was more of a legal
nature, such as law suits and all.” He described the
inmate as “often full of crap” but also acknowledged
that he had contact with known members of the Hell’s
Angels, including Kevin Augustiniak, and that he
recently provided several things that were “right on
the money.”
Upon receipt of Hebert’s e-mail, Dobyns contacted
several ATF officials and informed them about the
information Hebert had provided. Dobyns told them
that the Hell’s Angels member the inmate spoke to had
been convicted of firearms crimes as a result of Operation Black Biscuit and that Augustiniak was facing

231a
first degree murder charges as a result of Dobyns’s
investigative efforts.
ATF immediately began to investigate the matter.
On November 16, 2006, Senior Operations Security
Specialist Patrick Sullivan sent Hebert an e-mail message requesting copies of the e-mails between Hebert
and Dobyns, as well as a synopsis of Hebert’s interview
of the source. Hebert responded that same day, telling
Sullivan:
[The source] is the son of [a Hell’s Angels member],
a historical figure in the Hells Angels. He is a known
con man and has no problems using anyone, including
Law Enforcement for personal gain. That being said,
he has provided me with correspondence between
himself and several inmates which will be available
upon request. Some of the information he has provided
has been bogus, but a greater amount of information
has been independently confirmed. As a clarification
let me note that he was going to be a witness in a case
against several bikers who burned down a historical
courthouse in Plaquemine Parish, Louisiana. [The
source] claimed to be around the target’s motorcycle
shop since he was a kid when he and his father and
the [Hell’s Angels] passed through. As it turns out all
of the information was accurate however, not because
he was there, but because he was a cellmate of the guy
who shared the information with him. The information
is without question accurate, but we can’t use him as
a witness because he lied about how he obtained it, by
claiming information obtained from conversations was
in fact personal observations.
Hebert also wrote that the source had provided him
with a letter written by Augustiniak in which Augustiniak made lewd comments about Dobyns and his
wife.

232a
On November 20, OPSEC requested that the New
Orleans Field Division interview Hebert’s source so
that a risk assessment could be completed.
According to a timeline prepared by OPSEC, as of
November 27, 2006, the New Orleans Field Division
had not responded to its request for an interview of the
source. Accordingly, on November 28, OPSEC sent an
e-mail to the New Orleans Field Division, noting that
a risk assessment could not be completed until the
credibility of the source was determined.
Because New Orleans had not responded to
OPSEC’s request, on December 1, 2006, OPSEC
contacted the Phoenix Field Division directly and
requested that it assign an agent to interview the
source. Two weeks later, on December 14, 2006,
Phoenix Special Agents Ging and Shuster conducted
the interview of the source.
Ging reported that the source stated that the
“[Hell’s Angels] had no ongoing ‘campaign’ to kill
[Special Agent] Dobyns nor discover his whereabouts.”
However. Ging also reported that the source had
recounted an alleged attempt by a member of the
Hell’s Angels to contract with a member of the Aryan
Brotherhood to kill Dobyns. Ging reported that he “did
not believe this information to be very plausible”
because the Aryan Brotherhood member had been
incarcerated for a year and the intelligence officer at
the jail in which he was being held was unaware of any
contact between him and the Hell’s Angels member.
Ging’s report was forwarded to OPSEC.
According to ATF records, the Hell’s Angels member
who had allegedly contracted to kill Dobyns had
served time in prison for manslaughter and narcotics
conspiracy violations, had documented close ties with

233a
members of the Aryan Brotherhood prison gang across
the state of Arizona, and was considered to have a
strong influence on the most violent factions of the
Hell’s Angels and the Aryan Brotherhood. During
Operation Black Biscuit, the individual was the ringleader behind a plot to locate the undercover residence
of undercover officers and agents, including Dobyns,
and attack them.
Ging told the OIG that he forwarded his report of
investigation regarding the interview to his group
supervisor. Ging said that although he expected to be
instructed to further investigate the source’s allegations, he was not asked to take any additional investigative steps regarding the matter. Ging told the OIG
that he assumed his supervisor had asked another
agent to conduct additional interviews. However,
we determined that no further interviews were
conducted.
Ging’s report was provided to OPSEC on or about
December 15, 2006. On December 28, 2006, OPSEC
issued a written risk assessment regarding the
information provided by the source. In its assessment,
OPSEC stated, “[i]t has been determined that the
information provided by [the source] can not be corroborated and no specific or direct threat toward
[Special Agent] Dobyns was identified.” OPSEC noted
that before reaching this conclusion, it had considered
“all e-mails, letter correspondence, documented details
of an interview with the source conducted by special
agents of the Phoenix Field Division, and background
information provided by multiple individuals with
knowledge of the source’s history.” OPSEC further
stated that the “protective countermeasures” currently in place for Dobyns should remain but that it had
“no additional recommendations at this time.” How-

234a
ever, OPSEC reached this conclusion without ATF
interviewing the individuals involved in the alleged
attempt to put a contract hit on Dobyns.
The OIG asked Ging about OPSEC’s conclusions,
that “It has been determined that the information
provided by [the source] can not be corroborated and
no specific or direct threat toward [Special Agent]
Dobyns was identified.” Ging said that he had not
previously seen OPSEC’s report and expressed surprise regarding the conclusions. Ging said that, in his
view, ATF could not have reached this conclusion
based solely on his interview of the source.
As a result of Ging’s statements, the OIG asked
OPSEC to explain its conclusions that the information
provided by [the source] could not be corroborated and
that no specific or direct threat toward Dobyns was
identified. In response OPSEC stated:
In this instance, we received notification from
the New Orleans FD that an individual who
was incarcerated had provided information
that the Hells Angels wanted to start a legal
campaign against [Special Agent] Dobyns.
This office immediately initiated a multiple
source inquiry beginning with the Special
Agent who was the contact for this source
[Hebert]. We examined copies of the original
information and found that no specific threat
was mentioned. In addition, during the discussions with the Special Agent who received
the information, it was revealed that the individual was not credible and had a long history
of supplying bogus information to not only
ATF but other Federal Law Enforcement
Agencies.

235a
Further discussions with the Assistant Special Agent in Charge of the New Orleans FD
confirmed that he had direct knowledge that
the source was not credible. At this point in
an initial assessment of any possible threat
information, with multiple individuals stating that the information source was not credible and that no specific threat was conveyed,
the normal course of action would be to
monitor the situation. If additional information was received, all involved would initiate a reassessment.
Despite the lack of any specific threat
indicators in this case, a proactive consensus
was reached to interview the information
source to determine if any hidden threat
toward [Special Agent] Dobyns truly exists.
The OPSEC office contacted the Special
Agent in Charge of the Phoenix Field Division
and requested that an interview of the source
be conducted and results forwarded to our
office for evaluation. The OPSEC office
shared all of the background information we
had on the situation with the Phoenix FD,
which included discussions with the Group
Supervisor. It should be noted that the Group
Supervisor had knowledge confirming that
the. source was not credible.
The Lead Special Agent [Ging] who conducted
the interview of the source issued a memorandum confirming that the source stated that no
“hits” or retribution were in the making by
the Hells Angels against [Special Agent]
Dobyns. The source also provided unsolicited
information during the interview that the

236a
agent did not believe was plausible. Additional follow-up was done with the FBI Special Agent and CCI Intelligence Officer who
had direct knowledge of the source and his
associate.
The Office of Operations Security conducted
an assessment of all the information provided
including e-mail, letter correspondence, documented details of the interview and background information provided by multiple
individuals and concluded that the information provided by the source could not be
corroborated and no specific threat toward
[Special Agent] Dobyns was identified at that
time.
However, we believe that ATF reached this conclusion before gathering relevant information. Although
Hebert, the agent who was the original source of
the allegation, had expressed some doubt about the
source’s credibility, he also told OPSEC that “Nome of
the information [the source] has provided . . . has been
independently confirmed.” In addition, in an e-mail to
Dobyns, which OPSEC also had in its possession,
Hebert had written “[the source] recently told me
several things that were right on the money.” Further,
when the source was interviewed, he reported that two
individuals with ties to the Hell’s Angels and the
Aryan Brotherhood were plotting to kill Dobyns.
We concluded that ATF’s response was inadequate,
incomplete, and needlessly delayed. Although OPSEC
immediately requested that the source be interviewed,
neither the New Orleans nor Phoenix Field Divisions
responded promptly to OPSEC’s requests. In addition,
we question whether it was appropriate for ATF to
conclude that that the information the source had

237a
provided was not credible and that Dobyns faced no
threat without first interviewing the individuals who,
according to the source, had tried to arrange a contract
hit on Dobyns. In our view. ATF should have conducted these interviews before reaching this conclusion.
Summary
We found that ATF has written policies and procedures that govern the treatment of threats made
against its agents and that these policies are generally
adequate. However, due to a series of miscommunications among the ATF managers responsible for implementing the transfer of Dobyns and his family
following the receipt of the first of four specific threats,
ATF handled his relocation as a standard change of
duty station rather than an emergency relocation. As
a result, Dobyns and his family were not provided the
support and resources to protect their identities and
location that they should have been and that normally
accompany an emergency relocation. However, in
November 2005, ATF relocated Dobyns and his family
again, this time with full backstopping. We are recommending that ATF amend its written procedures to
minimize the chance that similar problems occur in
the future.
With regard to the Duchette incident, the OIG believes ATF should have interviewed Duchette about
his alleged statements. Although at the time ATF
learned of the threat, it was already planning to relocate Dobyns based on the McKay threat, interviewing
Duchette could have provided ATF with information
pertinent to implementation of the planned move.
With regard to the Mallaburn threat, ATF failed to
conduct the interview of Mallaburn in a timely man-

238a
ner. This, in turn, needlessly delayed ATF’s ultimate
decision to relocate Dobyns in response to this threat.
Finally, ATF’s interview of the source in the Augustiniak matter was not timely. In addition, we believe
that ATF reached conclusions regarding this-threat
without adequate investigation, and it should have at
least interviewed the individuals allegedly involved in
the contract hit on Dobyns before concluding that he
faced no viable threat.

